<html>
<title> - HOME PRODUCTS FIRE SAFETY</title>
<body><pre>[Senate Hearing 108-964]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-964
 
                       HOME PRODUCTS FIRE SAFETY

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
82-372                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2004....................................     1
Statement of Senator Hollings....................................     2
Statement of Senator Smith.......................................     1

                               Witnesses

Chapman, Norman, President and Chief Operating Officer, Inman 
  Mills..........................................................    15
    Prepared statement...........................................    17
Counts, Andy, Chief Executive Officer, American Furniture 
  Manufacturers Association......................................    18
    Prepared statement...........................................    20
Dean, John, Vice President, National Association of State Fire 
  Marshals.......................................................    11
    Prepared statement...........................................    13
Higgins, Robert, President, National Candle Association..........    26
    Prepared statement...........................................    27
Klancnik, Al, Group Vice President, Serta, Inc...................    50
    Prepared statement...........................................    52
Stratton, Hon. Hal, Chairman, U.S. Consumer Product Safety 
  Commission.....................................................     2
    Prepared statement...........................................     4

                                Appendix

American Burn Association, statement.............................    61
Buczek, Mark, Chairman, American Fire Safety Council, prepared 
  statement......................................................    73
Decorative Fabrics Association and the Coalition of Converters of 
  Decorative Fabrics Concerning the Proposed American Home Fire 
  Safety Act, prepared statement.................................    63
Letter dated November 29, 2004 to Ms. Sunita Krishna from Douglas 
  J. Kahn, Chief Operating Officer, Croscill Home................    62
Letter dated July 13, 2004 to Hon. John McCain from M. L. 
  Fontenot, Chief Executive Officer, WestPoint Stevens Inc.......
Orders, David K., Vice President, Administration, Park Place 
  Corporation On Behalf of the International Sleep Products 
  Association, prepared statement................................    67
National Textile Association (NTA), prepared statement...........    72


                       HOME PRODUCTS FIRE SAFETY

                              ----------                              


                        WEDNESDAY, JULY 14, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:40 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Gordon H. Smith, 
presiding.

          OPENING STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. It's a pleasure to be here with my 
colleague. I apologize to him that I was delayed in a downtown 
speech. It was a spellbinding speech. I'm sorry you all missed 
it.
    [Laughter.]
    Senator Smith. But, no, seriously, it's great to have you 
all here. We thank you for joining us for this important 
hearing on Home Products Fire Safety. I welcome the witnesses 
who are appearing before the Committee today.
    The Consumer Product Safety Commission estimates that each 
year over 2,850 Americans die, with another 15,000 who are 
injured in residential fires, which can collectively account 
for more than an estimated $6 billion in property losses. The 
Commission attributes a third of all deaths to fires involving 
upholstery furniture, mattresses, bedding products, and small 
open flames such as candles or matches.
    In a 2003 study, the CPSC found that in 1999 there were 
9,300 upholstered-furniture fires that resulted in 440 lives 
lost and $232 million in property damages; 18,000 mattresses 
and bedding fires that cost $300 million in property loss and 
took 330 lives; and 14,500 candle-related fires that resulted 
in $245 million in property damage and 100 deaths.
    The Commission has made the reduction of residential fires 
a top priority. Currently, the CPSC is in the process of 
developing flammability standards for upholstered furniture, 
mattresses, and bedding, and has worked closely with the candle 
industry to establish voluntary standards.
    Chairman Stratton is here to highlight the Commission's 
progress with these standards, and I look forward to hearing 
how he expects to resolve the challenges facing the development 
of such standards.
    Before we begin, however, I feel it's important to note 
that we must be careful to strike a balance between providing 
effective flammability standards that will protect our homes 
and our families while ensuring that any new standards are 
practical in relationship to manufacturing issues of cost and 
quality. My hope is that this hearing will help provide insight 
into how such a balance can be achieved.
    In addition, the CPSC should be cognizant that there is 
concern relating to the use of potentially dangerous chemical-
based flame retardants in upholstered furniture, mattresses, 
and bedding. It's important that, in making home products less 
flammable, we do not, in turn, make them more harmful to 
consumers.
    I, again, want to thank Senator Hollings for his presence 
here, but more for his leadership on this issue. He has worked 
tirelessly on it, and he knows something of this subject from a 
personal standpoint, as he and Peatsy saw much their life's 
possessions go up in flames in South Carolina, and that is a 
perspective that makes him unusually qualified and appropriate 
to urge what he's urging this morning.
    Thank you, Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you, Mr. Chairman.
    And I concur in your statement.
    Senator Smith. Our first panel is the Honorable Hal 
Stratton, Chairman of the United States Consumer Product Safety 
Commission.
    Chairman Stratton, the mike is yours.

           STATEMENT OF HON. HAL STRATTON, CHAIRMAN, 
            U.S. CONSUMER PRODUCT SAFETY COMMISSION

    Chairman Stratton. Thank you, Mr. Chairman. It's a pleasure 
to be here today.
    I, first, do also want to thank Senator Hollings for, you 
know, the impetus behind this hearing, because it is very 
important. It's some of the most important work we do. And I am 
pleased to be able to come over here and inform him that he has 
been persuasive already in his opening statements. We're in 
complete agreement with him, and my comments will indicate that 
as we go through the testimony.
    Also, Mr. Chairman, I want to thank you for chairing the 
Committee today. Not all of my people are aware of your New 
Mexico roots and some tentacles that you have back there at the 
New Mexico Supreme Court. So we still claim a little bit of you 
down there in New Mexico, so it's a pleasure to have you here 
and chairing the Committee for us.
    Senator Smith. Thank you.
    Chairman Stratton. I appreciate the opportunity to be here 
to update the Committee on the work of the U.S. Consumer 
Product Safety Commission in regard--and to answer any 
questions that you may have. Reducing fire deaths is one of our 
top priorities and most serious challenges at the CPSC, and a 
key goal in our strategic plan. I would like to thank the 
Senators for having a hearing today on this very important 
subject.
    The United States Consumer Product Safety Commission was 
established 30 years ago as an independent bipartisan 
Commission to protect families against unreasonable risks of 
serious injury and death from hazardous consumer products. 
Though we are a small agency, over that time the work of the 
CPSC has contributed significantly to the 30 percent decline in 
the rate of deaths and injuries from consumer products in the 
United States.
    More deaths result from residential fires than from any 
other hazard under the CPSC's jurisdiction. Children and 
seniors are particularly vulnerable to danger of residential 
fires. While the CPSC has been active in implementing and 
administering safety standards and compliance activity on a 
wide range of consumer products, this morning I want to 
specifically discuss our activities on mattresses, bedding, 
upholstered furniture, and candles.
    In my written statement, I've included a chronology of the 
work of the CPSC on these products prior to my tenure. The CPSC 
has a long history of involvement with both mattress and 
upholstered furniture flammability, but I'd like to take this 
opportunity to update the Committee on the more recent 
activities, particularly those since I've been there.
    In August 2002, I was privileged to be sworn in as Chairman 
of the Commission. After assuming this position, and having had 
an opportunity to review all the work being done on product 
safety throughout the agency, I identified two regulatory 
projects--upholstered furniture and mattress flammability--as 
areas I wanted to make top priorities of the agency, and 
instructed our staff to move these projects forward as quickly 
as legally possible.
    I am pleased to report to the Committee this morning that, 
after a long history in the development of flammability 
standards for upholstered furniture, a decision package that 
includes a draft standard will be on my desk, and those of the 
other commissioners, this fall. I'm also pleased to report to 
the Committee that a decision package that includes a draft 
standard for mattresses will be on our desks this fall, as 
well. I can assure you that, after reviewing the staff analysis 
within the briefing packages, the Commission will move as 
quickly as possible toward completing the regulatory process on 
both of these issues.
    These two hazards are an important priority for us. I have 
worked closely with the staff, as well as with a variety of 
outside stakeholders, to move this process forward as quickly 
as possible through the procedures that our governing statutes 
require.
    Knowing of your deep interest in this area, I am pleased to 
report the progress we've made to the Committee today. In the 
30-year history of the CPSC, the agency has never promulgated a 
regulation having an economic impact as big as either of these 
standards is likely to have. When the Commission issued the 
Advanced Notice of Proposed Rulemaking for mattress 
flammability standards, several commentors suggested that a 
standard also may be needed for bedclothes. Some of the data 
may suggest that bedclothes could contribute to the hazard 
posed by mattress and bedding fires. In response to these 
comments, the CPSC staff will include a draft Advanced Notice 
of Proposed Rulemaking on bedclothes in conjunction with the 
mattress briefing package being presented to the Commission 
this fall.
    With regard to candle safety, the CPSC staff has been 
working with ASTM International to develop voluntary standards 
for candles since 1997. Our statutes require that the agency 
defer to voluntary standards when those standards eliminate or 
adequately reduce the risk of injury addressed and it is likely 
that there will be substantial compliance by the industry with 
such standards. In this regard, the CPSC has worked closely 
with ASTM on the development of a number of candle standards, 
including the comprehensive voluntary fire-safety standard for 
candles that is currently provisional, that's scheduled to be 
formally approved in January 2005. In addition, the National 
Association of State Fire Marshals filed a petition to make 
this ASTM PS 59-02 voluntary standard a mandatory standard. 
This petition was docketed with the Commission on March 10 of 
this year, and the Commission staff is now analyzing public 
comments, which have been filed and addressed to the petition.
    In addition to these products, the Commission is also 
active on other fronts regarding fire safety in the home. We 
launched an important initiative on children's sleep-wear 
safety with our new Burn Center Reporting System, where we're 
working with the Shriners Hospitals and the American Burn 
Association as our partners. Other technical staff is also 
working on fire safety projects such as effectiveness of smoke 
alarms, including wireless technologies and improved 
audibility.
    In my experience with these types of fire hazards while at 
the Commission, I've learned of the human tragedy and family 
agony of a child or a parent lost in a house fire. I can assure 
the Committee that the reduction of the hazards posed by 
residential fires will continue to be a top priority of mine as 
long as I am Chairman of the Commission.
    I want to thank you, once again, for this hearing, and I'll 
be pleased to answer any questions.
    [The prepared statement of Chairman Stratton follows:]

          Prepared Statement of Hon. Hal Stratton, Chairman, 
                U.S. Consumer Product Safety Commission
    Mr. Chairman, thank you for the opportunity to testify at this 
morning's hearing on standards for home products fire safety. I 
appreciate the opportunity to be here this morning to update the 
Committee on the work of the U.S. Consumer Product Safety Commission 
(CPSC) on the fire hazards that fall under our jurisdiction and to 
answer any questions that you may have. Any views I express this 
morning are mine as Chairman of the Commission and not necessarily 
those of the other Commissioners. Reducing fire deaths is one of our 
most serious challenges at CPSC, and I would like to thank the Senators 
for having a hearing today on this very important subject.
    By way of introduction, the CPSC was established 30 years ago as an 
independent, bipartisan commission, to protect children and families 
against unreasonable risks of injury and death from hazardous consumer 
products. Over that time the work of the CPSC has contributed 
significantly to the 30 percent decline in the rate of deaths and 
injuries from these products.
    The CPSC enforces five Federal statutes, including the Flammable 
Fabrics Act, and through these laws, the agency has jurisdiction over 
the safety of some 15,000 types of consumer products. The CPSC is a 
relatively small agency, with 470 employees including those here at our 
headquarters and laboratory in the Washington area and also in our 
field positions across the country. Since the inception of the agency, 
the annual number of deaths and injuries prevented by just a sample of 
CPSC activities has reduced societal costs by over $15 billion. Last 
year, we directed over 280 recalls of unsafe products that involved 
over 40 million units.
    Today we are here to talk about fire deaths and injuries, and 
specifically those fires related to the ignition of upholstered 
furniture, mattresses, bedding and candles. Reducing fire-related 
deaths is a key goal in CPSC's Strategic Plan, and I appreciate the 
opportunity to discuss this serious problem and CPSC's current 
activities and planned initiatives in this regard.
    Residential fires result in more deaths than any other hazard under 
CPSC's jurisdiction. Children and seniors are particularly vulnerable. 
In fact, children under five years of age have a fire death rate more 
than twice the average for all ages. Products most often ignited in 
fire deaths are upholstered furniture, mattresses and bedding. In 
recent years, these product categories were associated with about one-
third of fire deaths.
    While deaths due to fire have declined substantially since the 
1980s, I believe that still more can be achieved to reduce these tragic 
deaths. Past standard setting and compliance activities by the CPSC 
have contributed to this decline including CPSC's work on cigarette-
resistant mattresses, heating and cooking equipment, electrical 
products, wearing apparel and children's sleepwear, child-resistant 
lighters, fireworks, smoke alarms and residential fire sprinklers. This 
morning, however, I want to specifically discuss our activities on 
mattresses, bedding, upholstered furniture and candles.
    I would like to begin by giving the Committee a short chronology of 
the work of the CPSC on these products prior to my tenure. It was in 
the early 1970s that the Secretary of Commerce promulgated the original 
Standard for the Flammability of Mattresses, requiring mattresses to 
resist ignition by smoldering cigarettes. Authority to administer that 
standard was transferred to the Consumer Product Safety Commission when 
it was created in 1972. While smoldering ignition incidents declined 
over the years after this standard was enacted, mattress fire ignition 
by open flame sources, primarily involving child-play, emerged as a 
continuing problem.
    In 1998 the CPSC staff initiated work with the mattress industry 
and other interested parties to address this hazard. A test method was 
developed that could be used in a mandatory standard to reduce 
associated deaths and injuries. In 2001 CPSC began formal rulemaking 
procedures for an open flame standard by issuing an Advance Notice of 
Proposed Rulemaking.
    I should note at this point that the Consumer Product Safety 
Commission, unlike most agencies, has a three-part rulemaking process 
that is initiated by an Advance Notice of Proposed Rulemaking (ANPR), 
followed by a Notice of Proposed Rulemaking (NPR), and ended with a 
notice of Final Rule.
    With regard to upholstered furniture flammability, CPSC has been 
working on this hazard since the agency's inception. The primary focus 
was initially on the risk of smoldering ignitions from cigarettes since 
these fires accounted for most of the observed fire losses. A voluntary 
standard has been in place since 1978 to address this risk and has 
contributed to the decline in the smoldering hazard.
    In 1997 CPSC staff forwarded a regulatory options package to the 
Commissioners concluding that a small open flame standard for 
upholstered furniture was feasible but recommending that the agency 
study possible chemical risks associated with flame retardants that 
might be used on upholstery fabrics to comply with a rule. At that 
time, the Commission deferred action on the proposed rule and held a 
public hearing on flame retardant chemicals. CPSC staff started working 
with the Environmental Protection Agency (EPA) to develop a possible 
Significant New Use Rule (SNUR) for fabric treatments. Subsequently, in 
CPSC's Fiscal Year 1999 appropriation, Congress directed the agency to 
sponsor an independent study of flame retardant chemicals by the 
National Academy of Sciences (NAS). NAS submitted its report reviewing 
sixteen flame retardant chemicals to Congress the following year. The 
report concluded that eight would pose no significant human health risk 
but recommended further study for the eight others.
    Subsequently, CPSC staff forwarded a regulatory options package to 
the Commission recommending that the agency actively share and discuss 
the large volume of technical information in the package with the 
public before considering a proposed rule. In July of 2002, CPSC held a 
public meeting to present the staff's direction and receive comments 
and recommendations on an upholstered furniture standard.
    As I noted earlier, this is an abbreviated chronology, but clearly, 
the CPSC has a long history of involvement with both mattress and 
upholstered furniture flammability. I would like to now update the 
Committee on our more recent activities.
    On August 2, 2002, I was privileged to be sworn in as Chairman of 
the Consumer Product Safety Commission and to join my able colleagues, 
Commissioner and Vice Chair Thomas Moore and Commissioner Mary Gall in 
working to advance the agency's important mission of making America's 
homes, schools and playgrounds safe and secure for America's families. 
In particular, shortly after assuming this Chairmanship, and having 
reviewed all the work being done on product safety by this agency, I 
identified two projects--upholstered furniture and mattress 
flammability--as my top priorities and instructed the staff to move 
these projects forward as quickly as legally possible.
    Mr. Chairman, I remain convinced that reducing residential fires 
should be our top priority at the CPSC. There is little question in my 
mind that these new standards, once complete, will save lives and 
property.
    In 2003, I directed the staff to present the Commission with a new, 
expanded regulatory proceeding to cover both cigarette and small open 
flame risks for upholstered furniture. I was pleased that my fellow 
Commissioners agreed with this change, and we voted unanimously in 
favor of the new, expanded ANPR.
    I am pleased to report to you this morning that after this long 
history in the development of a flammability standard for upholstered 
furniture, a decision package that includes a draft standard will be on 
my desk and that of the other two Commissioners this Fall.
    I am also pleased to report to the Committee that CPSC staff is 
finalizing a draft standard to be included in a decision package on 
mattress flammability. This decision package on mattresses will also be 
presented to the Commissioners this Fall. I can assure you that the 
Commission will move quickly to make a decision on moving forward with 
an NPR for mattresses after reviewing the staff analysis within that 
package.
    These two hazards--mattress and upholstered furniture 
flammability--have been an important priority for my Chairmanship. I 
have worked closely with staff as well as outside stakeholders to move 
this process forward as quickly as possible through the data-
collection, test methods performance and evaluation, legal checkpoints, 
public comment and many related procedures that our governing statutes 
require.
    Knowing of your deep interest in these products, I am pleased to 
report the substantial progress we have made to the Committee today. In 
the thirty year history of the Consumer Product Safety Commission, the 
agency has never promulgated a regulation with an economic impact of 
this size--above the $100 million annual impact necessary to qualify as 
a ``major'' rule under the Congressional Regulatory Review Act. Our 
mattress and upholstered furniture standards are each likely to exceed 
that impact.
    I would also like to update you on our work with bedclothes 
flammability. When the Commission issued the Advance Notice of Proposed 
Rulemaking for a mattress flammability standard, several commenters 
suggested that a standard is also needed for bedclothes, which includes 
such products as comforters, pillows and mattress pads. Research 
indicates that bedclothes can contribute significantly to the hazard 
posed by mattress and bedding fires.
    In response to these comments and research, CPSC staff will include 
a draft Advance Notice of Proposed Rulemaking on bedclothes as part of 
the mattress briefing package being presented to the Commissioners this 
Fall. Both product categories play a role in residential fires, and 
therefore, we believe it is important to understand and consider the 
unique interactions they can have when exposed to an open flame source.
    I would now like to turn our attention to CPSC activities on candle 
safety. In 1997, with the increasing popularity of candles and the 
increasing numbers of fires associated with them, the CPSC staff began 
working with ASTM International, the consensus standards developing 
organization, to develop voluntary standards for candles and candle 
products. There are now standards addressing various aspects of the 
fire hazards associated with candles and candle products including 
hazard labeling, smoking and the integrity of glass containers. 
Additional performance requirements are being developed for gel candles 
and accessories.
    In March of this year, CPSC received and docketed a petition from 
the National Association of State Fire Marshals to issue mandatory fire 
safety standards for candles and candle accessories. The Commission 
issued a notice in the Federal Register soliciting written comments 
concerning the petition. CPSC staff is currently reviewing these 
comments and preparing responses and a recommendation to the 
Commission.
    CPSC's statutes require that the agency rely on voluntary standards 
when those standards adequately address the hazard and there is 
substantial conformance with them, and in this regard, CPSC is 
continuing to work closely with ASTM to finalize the comprehensive 
voluntary Fire Safety Standard for Candles that covers flame height, 
secondary ignition, end of useful life and stability. That standard is 
currently provisional and is expected to be formally approved in 
January.
    In addition to these products, the Commission is also active on 
other fronts regarding fire safety in the home. CPSC has an important 
initiative on children's sleepwear safety with our new Burn Center 
Reporting System. We will be releasing a report on our findings from 
that project later this Summer.
    CPSC is also working to strengthen or develop voluntary standards 
or codes on a variety of other household products that are sometimes 
involved in starting fires. Improving the effectiveness of smoke 
alarms, including wireless technologies and improved audibility, is 
another project on which the CPSC is working. Obviously, the sooner we 
can alert residents to the danger of fire in the home, the more quickly 
they can escape. This is especially important for the elderly and for 
children.
    As I noted earlier, the Consumer Product Safety Commission is a 
small agency with a big mission. We have an impact well beyond our size 
on America's families and the safety of their homes, schools and 
playgrounds. In addition to identifying product hazards and developing 
standards, CPSC also conducts regular public awareness campaigns to 
keep the public informed of potential household hazards from fireworks 
safety to pool drownings.
    Fire safety is a critical component of this agency's mission. In my 
research on these fire hazards, I have intensely learned the human 
tragedy and family agony of a child lost to a house fire or a severely 
burned infant who isn't yet old enough to understand why he or she is 
in pain every day. I can assure the Committee that those pictures are 
on my mind as I work on these critical fire issues, and the reduction 
of this terrible hazard will continue to be one of my top priorities as 
long as I serve as Chairman of the Consumer Product Safety Commission.
    Thank you for having this important hearing today, and I look 
forward to the opportunity to answer your questions.

    Senator Smith. Mr. Chairman, the Consumer Product Safety 
Act specifically cautions the Commission to allow voluntary 
standards to work before proceeding to the promulgation of 
mandatory standards. By issuing Advanced Notices of Proposed 
Rulemaking for upholstered furniture and mattresses, and 
proposing an ANPRM for bedclothes, is the Commission saying 
that voluntary fire safety standards for these products are not 
sufficiently effective? Is that what the real message is?
    Chairman Stratton. Well, that is certainly one of the 
messages. You are absolutely correct on the question of 
voluntary standards. We have to consider, in every regulatory 
process that we have, whether a voluntary standard would be 
adequate or not. And I can tell you that, in these matters, 
that that determination, if it hasn't been made, I'm confident, 
then, when we receive the packages, that that determination 
will be made. We don't have anybody out there that I know of, 
in the industry or otherwise, or any other stakeholders, that 
are suggesting, particularly in regard to furniture and 
mattress flammability, that we should resort to voluntary, as 
opposed to a mandatory, standard.
    Senator Smith. Well, critics of the CPSC's efforts in 
developing fire safety standards for upholstered furniture, 
mattresses, and bedding, and candles, argue that the Commission 
has been considering such standards for nearly two decades, and 
that ultimately the CPSC will prolong its efforts and never 
move forward toward final standards. Why hasn't the Commission 
reached a final rule on these fire safety standards in these 
past years?
    Chairman Stratton. Mr. Chairman, that's a complex question. 
And, as you may know, most of that occurred before I reached 
the Commission, and there will be people here testifying on the 
second panel that have been with this for that full 20 years. 
I'll just say that it's a very complex process. Our process of 
promulgating regulations is about double what it is in many 
other agencies. We have to go through an ANPR process, an NPR 
process, we have to consider voluntary standards, we have to 
consider cost-benefit analysis, we have to make sure that there 
is a benefit to what we're doing--that's right in our statute; 
not everyone has to do that--we have to make sure that 
regulations are technically practical. And we have all of these 
findings that we have to go through, and we can't just come up 
and find that. Here in Congress, you can put in a bill, and you 
can make that finding in a bill. We have to have scientific 
evidence and studies to do that.
    So I suspect that that is some of the reason; and also not 
complete consensus about what should be done, certainly in 
industry and with other stakeholders. But when I came in, it 
appeared to me that there was a possibility to get this done. 
And I got with the stakeholders, frankly, in all of these 
areas, and I suggested we needed to move forward and it was 
time to get together and come to a consensus. And, to their 
credit, they are either there or almost there. And when you see 
these packages come out in--I hate to commit the staff, but I 
expect one of them to be out in October and the other to be out 
the 1st of November--when you see them come out, they will have 
the final regulations that we're going to consider in them. And 
then the last, really, regulatory process--and it sounds easy, 
but it takes time--but the last process is to allow comments on 
those, and then for the Commission to vote on those. So we will 
be that close to getting those regulations done, and I think 
it'll be a real milestone when we get those packages out.
    Senator Smith. Well, often, in the process of lawmaking, 
I've noticed, around here, that one lawmaker's perception of 
``the perfect'' ends up being the reason for opposing ``the 
good.'' And I don't know that you'll ever get ``perfect.'' I've 
never voted on a perfect bill yet. But I've voted on a lot of 
good ones. And so I think maybe the goal ought to be ``good,'' 
and not ``perfect.'' And so, just as a matter of suggestion, I 
offer that.
    A concern I have for domestic manufacturers of these 
things, though, is would they be held to one safety standard, 
and people who import to our country to a lesser standard? That 
is of concern to me. And my point is just simply this, if 
people want to sell to the American consumers, they'd better 
meet the standards of American manufacturers--for safety, 
quality, everything. And so I'm hoping that whatever standards 
you might create, you'll hold foreign and domestic 
manufacturers to the same standards.
    Chairman Stratton. Mr. Chairman, that is the law, and when 
Congress passed this bill, as Senator Hollings was talking 
about earlier, they put in a very good system for ensuring that 
imports have to meet our standards. Any product that comes into 
the U.S. has to meet our standards.
    And let me just briefly tell you how well it works. We 
really have, sort of, a three-pronged process to make sure that 
happens. First of all, everybody in the product chain is 
responsible and liable under our statutes. That means the 
retailers, the distributors, the importers, and the 
manufacturers. So if, for instance, a piece of furniture is 
made in China, which, as we know, there is being a lot more 
furniture made in China, the retailer, if he sells that piece 
of furniture in the United States, and it isn't conforming, he 
is just as liable as the manufacturer. And I can assure you, 
we're going to look to the retailer in that case, because it's 
going to be hard to get to the manufacturer.
    The reason this works so well is, because of that rule, you 
find a lot of retailers and a lot of importers and shippers 
working very hard overseas making sure those products meet the 
standard before they come over. So that, to me, was the genius 
of the Act, and that's the number-one guard we have against bad 
imports.
    We have two other safety guards on them. One is, we have 
inspectors at all the ports, and we have a Memorandum of 
Understanding with Customs where we are now working with 
Customs. We have access to their data base, and we are, of 
course, interdicting those products when they come in, when 
they are nonconforming.
    And then, finally, I have made it a point to make it clear 
to those countries who are sending exports to the United States 
that we believe--and we intend to make sure that those exports 
meet our standards. I've been to China twice this year to talk 
to, not only the people in Beijing, but also people out in the 
provinces, about how they need to meet our safety standards. 
That was my sole reason for going. I've been to China a number 
of times before, and I, frankly, didn't care to go, but I made 
commitments to some of our industries that I would show up 
there to impress upon those authorities over there as to how 
important it was to meet our safety standards.
    So I know that's a long answer to your question, but it's 
important to us, and I wanted to make sure you understood--or 
the Committee has the benefit of knowing everything that we're 
doing.
    Senator Smith. That's a good answer, and I appreciate your 
going there to send that message.
    Two other things, briefly. One of the big issues, 
obviously, is the California standards on bedding and burning: 
whether it's 60 minutes or 30 minutes. I guess they've settled 
on 30 minutes. And would you comment further on the debate over 
whether a 30- or a 60-minute burn resistance should be required 
if, in fact, the Commission votes to move forward with its new 
rules?
    Chairman Stratton. Well, it's difficult for me to comment 
on that, because I would like to see our scientists' work 
before I know that. What our staff does makes a big difference 
to me, and when they come out with their package on that, the 
1st of October, there will be data in that to tell us. They're 
testing that. That's why--one of the reasons it's taking so 
long. We are not able to test mattresses at our facility, at 
our lab. We have to--there are only seven or eight places in 
the country, so we have to get into cahoots somehow with 
somebody else to help us test. So they've been testing that. I 
expect that to be in the package. I know that there's a pretty 
good consensus--well, I won't say there's a consensus, but I 
would like to wait before I made my decision on that. I don't 
want to prejudge that issue----
    Senator Smith. OK.
    Chairman Stratton.--before I have to vote on it----
    Senator Smith. Fair enough.
    Chairman Stratton.--or get a view of it.
    Senator Smith. Fair enough.
    This is probably a better question, that Senator Hollings 
would ask, and, as I turn it over to him, I'm actually 
interested in your response to the candle industry contention 
that they don't belong in Senator Hollings' bill.
    And so, with that, Senator Hollings?
    Senator Hollings. Well, they'll have to certainly be 
deliberate and consider it with respect to candles in the 
churches, because I--just as a practical matter, I just don't 
see the requirement on exactly how that candle is supposed to 
go over to one side, or not bend, or whatever, any different 
than the regular candles that are bought, because the churches 
buy the candles in the regular commercial market. And we'll 
just have to see. But I'm sure the Commission will look at that 
carefully.
    Mr. Chairman, your testimony this morning has already made 
this hearing a success, in the sense that we're going to get 
these rulings out, because as you talk about the different 
hearings and the complexities, mind you, you've made a record--
as your testimony shows, you made the finding way back in 1998, 
and, thereafter, you made it a top priority. And we've got the 
National Academy of Sciences, the NIST study, the Fire 
Marshal's study and studies upon studies. So I don't see any 
holdup, except it might be some subjective test with respect to 
benefit. Is there any question about the benefit to the--the 
better producers think it is a benefit. That's why some of them 
are already including it there now.
    And with respect to the compliance of the imports, we 
already have that precedent with the automobiles. All imported 
cars have to comply with the American standards. And, 
similarly, as you've testified, it'll be with respect to fire-
resistant products.
    What about the benefit? Do you see any lack of benefit to 
this at all?
    Chairman Stratton. Senator, I don't. I'm prejudging what 
our packages are going to say, but I think I can say with 
pretty----
    Senator Hollings. Well, I like the Chairman prejudging.
    [Laughter.]
    Senator Hollings. Yes, when he prejudges, that usually 
happens.
    [Laughter.]
    Chairman Stratton. Mr. Chairman, you'd like me, because I 
like to prejudge a lot. Unfortunately, I have two other 
Commissioners that have twice as many votes that I have on 
these matters, and so I have to be very cautious. And I haven't 
made that point yet, but there are two other Commissioners 
involved, and they do get to vote on this. So just let me make 
that point.
    From what I have seen, I do not see that as a roadblock. I 
think there will be a cost-benefit to the regulations that are 
proposed this fall.
    Senator Hollings. Very good. I appreciate the answers 
you've given, and to the questions of our Chairman. The 
California standard is there, and they're living with it, and 
it's working. There's nothing wrong with adopting that at the 
Federal level.
    Chairman Stratton. If I may comment on that--and I am 
prejudging here a bit, but, since you like that, I guess this 
is the place to do it--when they adopted the standard in 
California, I took it upon myself to, kind of, shop it around 
with everybody I could find to see what they thought about that 
standard.
    Senator Hollings. Sure.
    Chairman Stratton. And, yes, I shopped it at our place, I 
shopped it with our staff--and when I say this, this is 
informal; this isn't a formal thing--and everybody thought it 
was a pretty good standard. So it seemed like it was the right 
direction to go.
    We, unfortunately, in my view, have not had what I would 
consider a really good relationship with the folks in 
California. That's not our staff. Our staffs have very good 
relationships. They work together all the time, so I'm not 
saying our staff hasn't had a good relationship. But I recently 
made a trip out there and sat down directly with them to talk 
about these issues that we're talking about here today. In 
fact, I believe it was 2 weeks ago that I went out there and 
talked to the director--the new director of the Consumer 
Affairs out there, and the Secretary of State and Consumer 
Affairs, who's the Secretary--Cabinet Secretary. And we're 
going to get on the same page on a lot of this stuff. We can 
work together. They're reasonable people. And from now on, 
California is going to be involved in what we're doing, and 
we're going to try to get a little more in sync. After all, 
that's one of the purposes of the Consumer Product Safety 
Commission, and that is to resolve disputes among states when 
it comes to these issues. And California's a big state; they're 
the 800-pound gorilla. So we are going to have a better working 
relationship with them as we go forward.
    Senator Hollings. Very good.
    Thank you very much, Mr. Chairman.
    Senator Smith. Thank you, Senator Hollings.
    And thank you, Mr. Commissioner, we appreciate your 
presence here today.
    And we'll now call up our second panel, which will consist 
of Mr. John Dean, Vice President, National Association of State 
Fire Marshals; Mr. Norman Chapman, Executive Vice President, 
Inman Mills, from South Carolina; Mr. Andy Counts, the American 
Furniture Manufacturers Association--he is the CEO; Mr. Bob 
Higgins, President of the National Candle Association, located 
here in D.C.; Mr. Al Klancnik--I'm sorry if I mispronounced 
that, but Group Vice President of the Serta, Inc. I think I 
sleep on a Serta sometimes.
    Mr. Dean, we welcome you, and you can lead it off.

             STATEMENT JOHN DEAN, VICE PRESIDENT, 
          NATIONAL ASSOCIATION OF STATE FIRE MARSHALS

    Mr. Dean. Thank you very much.
    Mr. Chairman, my name is John Dean. I am the State Fire 
Marshal for the State of Maine, and I am before the Committee 
today on behalf of the National Association of State Fire 
Marshals, NASFM.
    NASFM represents the senior-most fire official in each of 
the 50 states. We, along with hundreds of Federal, state, and 
local fire-service organizations, encourage this Committee and 
Congress to give serious consideration to the American Home 
Fire Safety Act, Senate Bill 1798. Thank you for this 
opportunity.
    For as long as I have been a firefighter--and my public-
safety career spans more than three decades--people have died 
and been seriously injured in residential fires involving 
upholstered furniture, mattresses, bedding, candles, and 
cigarettes. In all of those years, no other category of fires 
has harmed as many people.
    The American Home Fire Safety Act will save lives, prevent 
injuries, and protect property and the environment by setting 
effective fire safety standards for four of these five 
products. Cigarettes are addressed in companion legislation, at 
the request of the Campaign for Tobacco-Free Kids, and other 
anti-tobacco groups.
    We appreciate all that the affected industries have done to 
generate safety tests and standards that attempt to be both 
effective and practical. So much of the progress that has been 
made is due to their work. We are thankful to Congress for 
recognizing the importance of these issues and for working with 
us on solutions.
    We are encouraged by the Consumer Product Safety 
Commission's recent announcement that it intends to move 
forward this year with open flame safety requirements for 
upholstered furniture and mattresses. But allow me to share 
with you a brief history of this issue.
    Over 30 years ago, the U.S. Department of Commerce first 
issued a finding of need that a flammability standard may be 
necessary for upholstered furniture. More than 10 years ago, 
NASFM petitioned the Commission to address this hazard, as 
well. Nothing happened.
    Out of frustration with the slow progress with fire safety 
standards for many consumer products, we turned to the news 
media and to state legislatures for help. Ultimately, we chose 
to work with industry to find solutions.
    The American Furniture Manufacturers Association got to 
work. Its members and their suppliers recently proposed a 
package of standards that holds promise for much safer 
products. These standards still must be validated, and they 
differ from the upholstered furniture requirements cited in 
this Act. But we would be willing to support the industry 
proposal if it can be demonstrated scientifically to achieve 
the levels of safety, in the real world, that we all agree are 
necessary.
    The International Sleep Products Association also stepped 
up and helped develop mattress-safety test methods cited in the 
Act. It's important to note that this is a--there is a 
discrepancy between the 30-minute test industry supports and 
the 60-minute test cited in the Act. Because of respect for the 
industry, we revisited the question of whether a 60-minute test 
is necessary and feasible.
    The bottom line is that, in the real world, fires are not 
detected the moment they are ignited. And even our best-
equipped fire departments cannot always arrive at the scene of 
a fire fast enough to save lives. The average American 
household can expect about 40 minutes from the point of 
ignition to when firefighters are putting water on a fire. In 
rural communities, the time typically exceeds 70 minutes. We 
need the 60-minute test cited in the legislation, and small 
manufacturers have told us that they can meet it.
    The mattress producers and we both agree on the importance 
of requirements for bedding.
    The candle-safety standards cited in the Act were developed 
largely by the industry, with input from us and others, through 
the ASTM voluntary consensus process. Unlike the furniture and 
mattress producers, neither the candle industry nor cigarette 
producers want mandatory standards. But neither industry has 
moved forward with proposals to implement effective voluntary 
standards and to manage products' performance.
    In recent years, the progress has been good, but not one 
national mandatory standard has come into effect for any of 
these products. States have had to step in, and all are doing 
something different. We think the states should be free to 
protect their citizens, but the Consumer Product Safety 
Commission has already ruled that California is not free to set 
and enforce their open-flames and mattress fire safety 
standards.
    My appearance before this Committee today would not be 
complete without a word about flame retardants, products that 
have recently attracted a great deal of attention. Flame 
retardants do help products resist fire and save lives. NASFM 
does not believe, however, that the obvious fire safety 
benefits of these chemicals justify harm to the environment or 
to human health that their usage may cause. We believe that 
fire safety must go hand in hand with environmental safety and 
human health. These are not simple matters, and there are no 
winners here. I can assure you that NASFM will hold all parties 
with an interest in fire safety responsible for their actions.
    I would like to conclude by saying that we wish that this 
legislation were not necessary. But the Commission has consumed 
over a decade study in the need for fire safety standards for 
upholstered furniture. It is just now looking at open-flame 
standards for mattresses and standards for candles. No official 
action is underway on bedding standards. This, in spite of the 
fact that residential fires involving these products kill more 
Americans than any other products within the Commission's 
jurisdiction. Regardless of the reasons for lack of action, how 
can we justify another lost life? Congressional action is 
necessary now to straighten it out. We need your support.
    Thank you for this opportunity to speak.
    [The prepared statement of Mr. Dean follows:]

           Prepared Statement of John Dean, Vice President, 
              National Association of State Fire Marshals
    Senator Smith, my name is John Dean. I am the State Fire Marshal 
for the State of Maine and am before the Committee today on behalf of 
the National Association of State Fire Marshals (NASFM). NASFM 
represents the senior most fire official in each of the fifty states. 
We, along with hundreds of federal, state and local fire service 
organizations, encourage this Committee and Congress to give serious 
consideration to the American Home Fire Safety Act Senate Bill 1798. 
Thank you for this opportunity.
    For as long as I have been a firefighter--and my public safety 
career spans more than three decades--people have died and been 
seriously injured in residential fires involving upholstered furniture, 
mattresses, bedding, candles and cigarettes. In all of those years, no 
other category of fires has harmed as many people.
    We have done what we can to protect the public from these fires. 
Public education and the widespread use of smoke alarms and effective 
standards addressing smoldering ignition of mattresses and furniture 
are the primary reasons that the number of deaths and injuries has 
dropped over the years. We have not been as successful in achieving 
widespread installation of residential sprinklers.
    We support the American Home Fire Safety Act. It will save lives, 
prevent injuries and protect property and the environment by setting 
effective fire safety standards for four of these five products. 
Cigarettes are addressed in companion legislation at the request of the 
Campaign for Tobacco Free Kids and other anti-tobacco groups.
    We believe that the goal of ``improved public safety'' is reason 
enough for this legislation. But we are aware that this legislation 
also may be necessary to protect responsible companies from a patchwork 
of state requirements, increased litigation, recalls and attacks in the 
media. These pressures may or may not be fair, but they are the 
inevitable result of not having Federal requirements for manufacturers 
to meet.
    We are thankful to the Congress for recognizing the importance of 
these issues, and for working with us on solutions. In a perfect world, 
new regulations--much less new laws--would be unnecessary. Many 
companies just make their products safer than what is required. But, 
the companies that do so may place themselves at a competitive 
disadvantage. At the end of the day, these are all choices.
    We are encouraged by the Consumer Product Safety Commission's 
recent announcement that it intends to move forward this year with 
open-flame fire safety requirements for upholstered furniture and 
mattresses. We have great respect for the Commission's technical staff. 
Their commitment to safety has never been in question, but allow me to 
share with you a brief history of this issue. Over thirty years ago, 
the U.S. Department of Commerce first issued a ``Finding of Need'' that 
a flammability standard may be necessary for upholstered furniture. 
More than 10 years ago, NASFM petitioned the Consumer Product Safety 
Commission to address this hazard as well. Nothing happened.
    Five years ago, our association chose cooperation over 
confrontation. We were frustrated then, as we are now, by the very slow 
pace of progress with fire safety standards for many consumer products. 
We turned to the news media and to the state legislatures for help. The 
American Plastics Council asked that we redirect our efforts. We chose 
to work with the Council and other industry groups to find solutions.
    We are appreciative of all that the affected industries have done 
to generate safety tests and standards that attempt to be both 
effective and practical. So much of the progress that has been made is 
due to their work.
    The American Furniture Manufacturers Association, its members and 
their suppliers recently proposed a package of standards that holds 
promise for much safer products. These standards must be validated and 
may need to be improved. They differ from the upholstered furniture 
requirements cited in the American Home Fire Safety Act, and from the 
Consumer Product Safety Commission's draft proposal. We stand by the 
furniture standards cited in the Act but would be willing to support 
the industry proposal if it can be demonstrated scientifically to 
achieve the levels of safety in the real world that we all agree are 
necessary.
    The International Sleep Products Association provided the vision 
and leadership necessary to develop the mattress fire safety test 
method cited in the Act. The industry favors a test that lasts for 30 
minutes. It argues that postponing flashover for 30 minutes is a major 
step forward, and that manufacturers--and especially small businesses--
cannot pass a test that lasts for 60 minutes. Because we respect the 
industry, we recently revisited the question of whether a 60-minute 
test is necessary and feasible.
    The bottom line is that we found small mattress producers who have 
been meeting the 60-minute standard for most of this year. Certainly, 
30 minutes may be better than 5 minutes but it is not enough time in 
the real world. In the real world, fires are not detected the moment 
they are ignited, people routinely waste precious minutes before 
reporting fires, and even our best-equipped fire departments fight 
traffic and cannot arrive at the scene of a fire fast enough to save 
lives. The average American household can expect about 40 minutes from 
the point of ignition to when firefighters are putting water on a fire. 
In rural communities, the time typically exceeds 70 minutes. We need 
the 60-minute test cited in the legislation, and industry can meet it.
    The mattress producers and we both agree on the importance of 
requirements for bedding.
    The candle safety standards cited in this legislation were 
developed largely by the industry with input from us and others through 
the American Society for Testing and Materials voluntary consensus 
process. The standards are uncontroversial. However, unlike the 
furniture and mattress producers, neither the candle industry nor 
cigarette producers want mandatory standards. But neither industry has 
moved forward with proposals to implement effective voluntary standards 
and to manage producers' conformance.
    In recent years, the progress has been good, but not one national 
mandatory standard has come into effect for any of these products.
    States have had to step in. California, New Jersey, New York and 
Rhode Island all are doing something different. We think that states 
should be free to protect their citizens as they wish, but the Consumer 
Product Safety Commission has ruled that California--and we presume 
other states--are not free to set and enforce their own open flame 
mattress fire standards because the existing Federal mattress standard, 
which deals only with cigarette ignition, preempts any states' attempts 
to deal with the same product even if they are addressing a different 
hazard.
    We have never seen so much litigation. The absence of standards 
means each manufacturer is out there on its own.
    Retailers and wholesalers are at risk, because along with 
manufacturers, they are responsible for recalls of dangerous products. 
NASFM has just adopted a national, science-based position that any 
upholstered chair or mattress with untreated or unshielded flexible 
polyurethane foam is too dangerous for sale in the home. No one--
including all of the industries affected here--presented a single fact 
contrary to that finding. That statement is now publicly available to 
all who are dealing with this matter seriously.
    My appearance before the Committee today would not be complete 
without a word about flame retardants, products that have recently 
attracted a great deal of attention in the Congress, in the 
legislatures of a number of states (including that of my native Maine) 
and in the media.
    As a matter of chemistry, flame retardants work--they help products 
resist fire, they save lives. NASFM does not believe, however, that the 
obvious fire safety benefits of these chemicals justify harm to the 
environment or to human health that their usage may cause. We believe 
strongly that fire safety must go hand-in-hand with environmental 
safety and human health. But we are not experts in these areas and so 
we work directly with the U.S. Environmental Protection Agency, World 
Health Organization, Society of Toxicology, and environmental and 
health authorities in Europe to ensure that all dimensions of health 
and safety are not in conflict and receive equal attention.
    These are not simple matters and, after so many years of study, 
there are no winners here. I can assure you that State Fire Marshals 
will hold all parties with an interest in fire safety responsible for 
their actions.
    Finally, less we forget, American families are at risk. We are well 
aware of the political adage, ``It's the economy, stupid.'' But it is 
hard to ignore the hundreds of people who continue to die and be 
injured in these fires every year. We easily could have flooded this 
room with burn survivors and the families of those who died. Their 
stories are playing out in state legislatures, in courtrooms and the 
media.
    I would like to conclude by saying that we wish this legislation 
were not necessary. But, the Commission has consumed over a decade 
studying the need for fire safety standards for upholstered furniture. 
It is just now looking at open flame standards for mattresses and 
standards for candles. No official action is underway on bedding 
standards. This, in spite of the fact that residential fires involving 
these products kill more Americans than any other products within the 
Commission's jurisdiction. Regardless of the reasons for lack of 
action, how can we justify another lost life? Congressional action is 
necessary now to straighten it all out. We need your support. Thank you 
for the opportunity to speak before this Committee.

    Senator Smith. Thank you, Mr. Dean.
    And now we'll hear from Mr. Norman Chapman.

  STATEMENT OF NORMAN CHAPMAN, PRESIDENT AND CHIEF OPERATING 
                      OFFICER, INMAN MILLS

    Mr. Chapman. Thank you very much. I appreciate the 
opportunity to be here.
    My name is Norman Chapman, and I am President and COO of 
Inman Mills, a textile manufacturer specializing in yarn 
spinning and weaving. Inman Mills has been in the textile 
business for over a hundred years, and is located in South 
Carolina. We currently employ approximately 500 associates. 
After back-to-back record years in 1997 and 1998, our company 
has been under extreme pressure from imported fabrics and 
finished products. Since 2001, we have closed two plants and 
laid off over half of our work force.
    During these difficult times, we have developed many new 
products in many different markets. Innovation and flexibility 
is the future of the textile industry. Fire-resistant mattress 
ticking and interliners are two products where we have 
concentrated much of our effort.
    In May 2002, we signed an agreement with McKinnon-Land-
Moran, a North Carolina research and development company, to be 
the exclusive manufacturer of Alessandra yarns and fabrics. 
These products are sold and distributed by Hanes Industries, a 
division of Leggett & Platt. Alessandra is a patented 
technology that makes yarns and fabrics resistant to fire. 
Fabrics that use this technology retain their strength even 
after they have been exposed to open flame. These fabrics may 
be used as either interliner barriers or tickings. They keep 
fire from penetrating and igniting the highly flammable foam 
found inside most mattresses. This is achieved by manufacturing 
a Core Spun yarn that uses a combination of fibers.
    It is important to emphasize that the Alessandra products 
use no chemicals to achieve their fire resistant properties. 
Through continued research, we have been able to improve our 
Alessandra products and reduce the price to the manufacturer by 
over 37 percent. We continue to research ways to improve the 
product and reduce cost.
    In addition to Alessandra, Inman Mills also manufactures 
Fireguard, another well-recognized fire resistant fabric. 
Fireguard is patented technologies owned and sold by Springs 
Industries. It has been used for many years in mattresses on 
Navy ships and submarines. It is also sold in college 
dormitories and in hotels where fire safety is of great 
concern.
    Both technologies are high performance and support the 
passing of California's current and former TB 603, Cal 129, and 
Boston's IX-11. These fire-resistant fabrics have also passed 
the U.S. Navy's FR bedding requirement.
    Our company has products that are proven and ready for the 
market. We feel further delay will be harmful to both our 
industry and the consumer. Many people die unnecessarily each 
year in bedding fires.
    It is our understanding that the following issues are 
important to the mattress industry. Products selected must 
reliably support the passage of TB 603 test requirements. FR 
products preferably will be compatible with mattress styling, 
comfort, white and color, breathable, noiseless, soft, and 
provide comfort. Products must be easily incorporated into 
manufacturing, invisible to the consumer, inexpensive, and 
there can be no loss of durability. Critical mass must exist. 
Products must be toxicologically and environmentally safe.
    We are pleased to advise that numerous woven and nonwoven 
technologies exist today that meet all of these requirements. 
According to ISPA's 2002 unit sales of mattress and box-spring 
data, the U.S. bedding industry consumes approximately 140 
million linear yards of ticking annually. A similar amount of 
fire resistant barrier product will be required to meet market 
demand. Due to California's AB 603 legislation and an 
enforcement date of January 1, 2005, capacity of both fiber and 
fabrics are readily available to meet this new market need. The 
capacity to produce our products, Alessandra and Fireguard, 
alone, could reach 24 million yards, annualized, 6 months from 
the time of commitment. Much of this capacity is available now.
    Through market studies and information obtained at 
California hearings in April 2003, we have determined that 107 
million pounds of fire resistant blending fibers were available 
by March of 2003, which can provide 174 million linear yards of 
90-inch-wide barrier products for annual consumption. Due to 
market forces, additional fiber capacity is available today.
    We know of 21 producers of finished fire resistant barrier 
products who reportedly have achieved passing test results. 
Additional names are being added to the list regularly. These 
products are on record as part of AB 603 hearings held in April 
2003.
    We fully support total implementation of the American Home 
Fire Safety Act for mattresses, as written, because it will 
help substantially reduce residential fire deaths and injuries, 
as well as property damage. Further, the standard is based upon 
good science and research completed by the National Institute 
of Standards and Technology. Our company and our partners have 
assisted mattress companies and fire-resistant component 
manufacturers in a large number of full-scale independent 
laboratory tests. Requirements of TB 603 have, and can be, 
continually met.
    It is our belief that this legislation provides a 
tremendous opportunity to both the consumer and the textile 
industry. It offers industry the opportunity to make and sell 
innovative products, and gives the consumer safer products. 
Innovative products are the future of our industry.
    Thank you.
    [The prepared statement of Mr. Chapman follows:]

  Prepared Statement of Norman Chapman, President and Chief Operating 
                          Officer, Inman Mills
Company Structure, Management and Product Description
    Good morning. My name is Norman Chapman, President & COO of Inman 
Mills, a textile manufacturer specializing in yarn spinning and 
weaving. Inman Mills has been in the textile business for over 100 
years and is located in South Carolina. We currently employ 
approximately 500 associates. After back to back record years in 1997 
and 1998, our company has been under extreme pressure from imported 
fabrics and finished products. Since 2001 we have closed 2 plants and 
laid off over half of our workforce. During these difficult times we 
have developed many new products in many different markets. Innovation 
and flexibility is the future of the U.S. textile industry. Fire 
resistant mattress ticking and interliners are 2 products where we have 
concentrated much of our effort. In May of 2002 we signed an agreement 
with McKinnon Land Moran, LLC a North Carolina research and development 
company to be the exclusive manufacturer of Alessandra yarns and 
fabrics. These products are sold and distributed by Hanes Industries, a 
division of Leggett & Platt.
    Alessandra is patented technology that makes yarns and fabrics 
resistant to fire. Fabrics that use this technology retain their 
strength even after they have been exposed to open flame. These fabrics 
may be used as either interliner barriers or tickings. They keep fire 
from penetrating and igniting the highly flammable foam found inside 
most mattresses. This is achieved by manufacturing a core spun yarn 
that uses a combination of fibers. It is important to emphasize that 
the Alessandra products use no chemicals to achieve their fire 
resistant properties. Through continued research, we have been able to 
improve our Alessandra products and reduce the price to the 
manufacturer by over 37 percent. We continue to research ways to 
improve the product and reduce cost.
    In addition to Alessandra, Inman Mills also manufactures Fireguard 
another well recognized fire resistant fabric. Fireguard is patented 
technology owned and sold by Springs Industries. It has been used for 
many years in mattresses on Navy ships and submarines. It is also sold 
in college dormitories and in hotels where fire safety is of great 
concern.
    Both technologies are high performance and support the passing of 
California's current and former TB 603, Cal 129 and Boston's IX-11. 
These fire resistant fabrics have also passed the U.S. Navy's FR 
bedding requirement NAVSEA PD 1-00 REV D 25 July 2000.
    Our company has products that are proven and ready for the market. 
We feel further delay will be harmful to both our industry and the 
consumer. Many people die unnecessarily each year in bedding fires.
Industry Needs
    It is our understanding that the following issues are important to 
the mattress industry:

  1.  Product(s) selected must reliably support the passage of the 
        current or proposed TB 603 test requirements.

  2.  FR Products preferably will be compatible with mattress styling 
        and comfort, white in color, breathable, noiseless, soft, and 
        provide comfort.

  3.  The products must be easily incorporated into manufacturing.

  4.  They must be invisible to the consumer.

  5.  New products must be inexpensive and have a minimal cost impact 
        to the consumer.

  6.  There can be no loss of durability.

  7.  Critical mass must exist. In other words there must be a variety 
        of options and ample supply to meet market demands.

  8.  Products must be toxicologically and environmentally safe.

    We are pleased to advise that numerous woven and nonwoven 
technologies exist today that meet all of these requirements.
Market Size and Capacity
    According to ISPA's 2002 unit sales of mattress and box spring 
data, the U.S. Bedding industry consumes approximately 140 million 
linear yards of ticking annually. A similar amount of fire resistant 
barrier product will be required to meet market demand. Due to 
California's AB 603 legislation and enforcement date of January 1, 2005 
capacity of both fiber and fabrics are readily available to meet this 
new market need.
    The capacity to produce Alessandra or Fireguard fabrics alone could 
reach 24,000,000 yards annualized 6 months from time of commitment. 
Much of this capacity is available now. Inman can expand beyond this if 
more capacity is needed.
Availability of Other Fibers and Fabrics
    Through market studies and information obtained at the California 
hearings in April 2003, we have determined that 107,000,000 lbs of fire 
resistant blending fibers were available by 3/1/03, which can provide 
174,000,000 lyd/yr of 90'' wide barrier products for annual 
consumption. Due to market forces additional fiber capacity is 
available today.
Finished Barrier Producers
    We know of 21 producers of finished fire resistant barrier products 
who reportedly have achieved passing test results. Additional names are 
being added to the list each month. These products are on record as 
part of the AB 603 hearings held in April 2003.
Validation Studies and Conclusion
    We fully support total implementation of The American Home Fire 
Safety Act for mattresses as written because it will help substantially 
reduce residential fire deaths and injuries as well as property damage. 
Further, the standard is based upon good science and research completed 
by the National Institute of Standards and Technology (NIST).
    Our company and our partners have assisted mattress companies and 
fire resistant component manufacturers in a large number of full-scale 
independent laboratory tests. REQUIREMENTS OF TB 603 HAVE AND CAN BE 
CONTINUALLY MET.
    It is also our belief that this legislation provides a tremendous 
opportunity to both the consumer and the textile industry. It offers 
industry the opportunity to make and sell innovative products and gives 
the consumer safer products. Innovative products are the future of our 
industry. If we lose our textile industry, think of all of the great 
new products we will not be able to bring to the market.
    Thank you.

    Senator Smith. Thank you very much, Mr. Chapman.
    We'll hear now from Mr. Andy Counts, the American Furniture 
Manufacturers Association.

  STATEMENT OF ANDY COUNTS, CHIEF EXECUTIVE OFFICER, AMERICAN 
              FURNITURE MANUFACTURERS ASSOCIATION

    Mr. Counts. Good morning. I'm Andy Counts, CEO of AFMA, and 
I want to thank you for this opportunity to participate in the 
hearing.
    We commend Congress for its interest in this vital safety 
matter. However, given that CPSC is well on its way to 
providing the American public with safer furniture, AFMA 
opposes S. 1798. With respect to furniture, the bill embraces a 
untested package of requirements developed by California 
regulators which they themselves have declined to finalized. It 
also removes CPSC from the standards development role that 
Congress envisioned, and removes the agency's most important 
tools for decisionmaking and public input.
    It is no secret that the last several years have been the 
most challenging period in the history of domestic furniture 
industry. Plants in the Pacific Rim have gained a dominant 
share of the furniture marketplace, contributing to the loss of 
over 100,000 U.S. furniture jobs, and creating real hardship in 
communities like Sumter, South Carolina, Martinsville, 
Virginia, and Palatka, Florida. Many of the same regions have 
experienced job loss and plant closures in the textile 
industry. In weighing approaches to upholstered furniture 
flammability, I ask you to consider the continued viability of 
domestic furniture facilities and the textile operations that 
supply them.
    I want to give credit to Chairman Stratton, his fellow 
commissioners, and the staff of the Consumer Product Safety 
Commission. The Chairman inherited technical challenges and 
interest group discord that confounded progress on this matter 
for over a decade. He has helped bring together the 
stakeholders in pursuit of a workable regulation, and has 
achieved a remarkable degree of consensus during his brief 
tenure.
    We understand the frustrations some have expressed about 
the pace of progress on this issue. However, one shouldn't 
disregard the technical hurdles entailed in achieving fire 
resistance for a product that is typically covered in fabric, 
filled with plastics, cellulosics and other cushioning 
materials. Add to this the differential performance of the tens 
of thousands of upholstery fabrics on the market, and you begin 
to grasp the challenge the CPSC has shouldered.
    Over the last several years, AFMA has engaged in a 
constructive dialogue between industry stakeholders, CPSC 
staff, and fire safety advocates. That process has resulted in 
a package of flammability requirements that was outlined in the 
May 13 letter to Chairman Stratton. This framework has 
engendered broad support among key stakeholders as the most 
workable and cost-effective solution. I should emphasize that 
``cost effective'' does not mean cost free. As a result of this 
proposal, consumers will see a noticeable retail up-charge.
    AFMA and many of the other parties of this rulemaking 
support a 5-second open-flame test for outer fabrics, as 
contrasted with the 20-second test referenced in S. 1798. We 
believe this test accurately models the risk created by 
children playing with matches and lighters. It allows industry 
to consistently deliver compliant products, and continues to 
provide consumers with a wide array of comfortable and 
attractive fabrics.
    In recent weeks, round-robin testing involving nine labs, 
including the CPSC, confirmed that the 5-second fabric test 
reliably predicts performance, and a report on the findings is 
now being prepared for the administrative record.
    As an alternative to FR treatment of outer fabrics, all 
stakeholders have endorsed a compliance option in which flame-
blocking barriers, also called interliners, are layered between 
the fabric and cushioning material. No such option is provided 
by S. 1798. The interliner option would preserve fabric choice 
by allowing the use of outer fabrics which cannot be reliably 
FR treated and those for which treatment would compromise 
function or consumer appeal.
    Taken as a whole, S. 1798 is the most expensive approach 
yet proposed for upholstered furniture flammability. As the 
Committee is aware, the reduction of flammability risk in the 
most cost-effective manner is part of the mandate that Congress 
provided the CPSC. It is also critical to the success of a 
flammability regulation for upholstered furniture.
    The replacement of the Nation's furniture stock with more 
fire-resistant constructions will take place over several 
generations, even at current prices. Price distortions imposed 
by careless regulation could deter consumer purchases of new 
furniture, and, thereby, have a counterproductive effect. S. 
1798 would circumvent important provisions of the Consumer 
Product Safety Act and related statutes. These statutory 
provisions were established by Congress to provide for fairness 
and transparency in the regulatory process and to ensure that 
regulation is accomplished in the manner least disruptive to 
the consumer marketplace. AFMA believes that adoption of S. 
1798 would set an unfortunate precedent for administrative law.
    The CPSC is well on its way to providing the American 
public with safer furniture, and we respectfully recommend that 
Congress allow that process to proceed.
    Thank you, again, for this opportunity.
    [The prepared statement of Mr. Counts follows:]

    Prepared Statement of Andy S. Counts, Chief Executive Officer, 
          American Furniture Manufacturers Association (AFMA)
Introduction
    Good Morning. I am Andy Counts, the Chief Executive Officer of the 
American Furniture Manufacturers Association (AFMA). I want to thank 
the Members and staff of the Committee for the opportunity to 
participate in today's hearing.
    One of my priorities for the association is to identify 
opportunities to advance standards for environmental responsibility, 
workplace safety and product stewardship. I believe you will be pleased 
to hear of the substantial progress that AFMA, working with CPSC and 
the other stakeholders here today, has made toward establishing a 
Federal flammability regulation for upholstered furniture.
    We commend Congress for its interest in this vital safety matter. 
However, given that CPSC is well on its way to providing the American 
public with safer furniture, AFMA opposes S. 1798. The bill embraces an 
untested package of requirements developed by California regulators, 
which they themselves have declined to finalize. It also removes CPSC 
from the standards development role that Congress envisioned for the 
agency, and blocks the use of some of its most important tools for 
decisionmaking and public input.
Industry Profile
    AFMA companies participate in a highly competitive market 
characterized by ever-changing style preferences, margin pressure from 
retailers, and the tendency of consumers to postpone big-ticket 
purchases if their perceptions of value and function are not met.
    It is no secret that the last several years have been the most 
challenging period in the history of the domestic furniture industry. 
Plants in the Pacific Rim have gained a dominant share of the furniture 
marketplace, contributing to the loss of 100,000 U.S. furniture jobs 
and creating real hardship in communities like Sumter, South Carolina; 
Martinsville, Virginia; and Palatka, Florida. Many of the same regions 
have experienced job loss and plant closures in the textile industry. 
In weighing approaches to upholstered furniture flammability, I ask you 
to consider the continued viability of domestic furniture facilities 
and the textile operations that supply them with fabrics.
History of the Furniture Flammability Project
    I want to give credit to Chairman Stratton, his fellow 
Commissioners and the staff of the Consumer Product Safety Commission. 
The Chairman inherited technical challenges and interest group discord 
that confounded progress on this matter for a number of years. He has 
helped bring together the stakeholders in pursuit of a workable 
regulation, and has achieved a remarkable degree of consensus during a 
relatively brief tenure. It is our understanding that a package 
regulating both the cigarette and small open flame performance of 
upholstered furniture could be published this Fall.
    We can certainly understand the frustration some have expressed 
about the pace of progress on upholstered furniture flammability. One 
should not disregard, however, the technical hurdles entailed in 
achieving fire resistance for a product that is typically covered in 
fabric and filled with plastics, cellulosics and other cushioning 
materials. Add to this the differential performance of the tens of 
thousands of upholstery fabrics on the market, and the synergy between 
fabrics and filling materials and you begin to grasp the challenge CPSC 
has shouldered.
    Previous approaches to this risk tended to single out individual 
components for regulatory attention. The 1993 petition of the National 
Association of State Fire Marshals (NASFM) identified polyurethane foam 
as the most significant potential fuel source. However, subsequent 
testing demonstrated that modification of foam does not by itself 
meaningfully improve open flame performance. In its 1997 Briefing 
Package, CPSC staff originally relied solely on fire retardant (FR) 
treatment of outer fabrics, reasoning that minimizing ignition at the 
outset avoided the complexities and expense of measuring progressive 
involvement of other components. However, evidence about the 
variability in performance of some treated fabrics, along with concerns 
about consumer acceptance and FR toxicity, led the agency to provide an 
alternative compliance option involving fire-blocking interliners, a 
positive development discussed in greater detail below.
Consensus Surrounding the Present Approach
    At present, most interested persons recognize that upholstered 
furniture fires represent a synergy between fabric, foam and other 
cushioning materials. This consensus laid the groundwork for a 
constructive dialogue between producers of furniture, fabrics, fiber, 
polyurethane foam and flame retardant materials, assisted by input from 
CPSC staff, testing labs and fire safety advocates. That process 
resulted in a package of flammability requirements for furniture that 
were outlined in a May 13 letter from AFMA to Chairman Stratton. The 
elements of this proposal are summarized below.

  1.  For upholstery fabrics, the 5-second open flame fabric test 
        utilizing the Technical Bulletin 117 test apparatus, as 
        proposed by the Fabric Coalition. Non-passing fabrics or those 
        for which FR treatment is not desired could be utilized atop an 
        open flame barrier. CPSC is currently working to identify an 
        appropriate test for such barriers.

  2.  For all foam (any type) used in upholstered furniture, the 
        cigarette and open flame requirements contained in the proposed 
        revision to California Technical Bulletin 117 (``TB-117+'').

  3.  For all non-foam cushion core materials used in upholstered 
        furniture, the cigarette and open flame requirements of TB-117+ 
        or a comparable test method.

  4.  For non-foam seat cushion wrapping or topper materials, the 
        requirements of the BS 5852 Source 2 Test for Non-Foam Filling 
        Materials.

  5.  For any cotton batting used in upholstered furniture, the ASTM E 
        1353 test with maximum smolder length criteria specified by 
        UFAC.

  6.  For all non-foam materials used in arm constructions, the filling 
        and padding test of ASTM E 1353 with the maximum smolder length 
        criteria specified by UFAC.

    This framework has engendered broad support among the key 
stakeholders. Earlier this week, a letter endorsing it was delivered to 
Chairman Stratton, signed by representatives of the National Textile 
Association, the Polyurethane Foam Association, the Upholstered 
Furniture Action Council, the Decorative Fabrics Association, the 
Coalition of Converters of Decorative Fabrics and the American Fire 
Safety Alliance, among others. These organizations are convinced the 
framework represents a cost-effective, risk-based approach to the most 
likely ignition scenarios for both small open flame and cigarettes.
    I should emphasize that cost-effective doesn't mean cost-free. 
Price increases are expected for reformulated foam and chemically 
backcoated fabrics, along with some loss of aesthetics from the 
replacement of siliconized cushion wraps and toppers with less 
flammable alternatives. Suppliers of both upholstery fabrics and 
cushioning will incur R&D and testing expenses as they revamp their 
products to pass the proposed flammability tests, and to do so using 
safe and appropriate chemicals. As a result of these changes, consumers 
will see a noticeable retail upcharge. Even higher costs are 
foreseeable for products using flame-blocking barriers beneath 
untreated fabrics.
    At this point, I would like to briefly describe some of the 
important elements of our proposal, and how they differ from what is 
proposed in S. 1798. While comparison is made more difficult by the 
draft status of the requirements embodied in the bill, I am basing my 
assessment on the best interpretations of those requirements by 
technical authorities in government and the private sector.
The Open Flame Test for Fabrics
    AFMA and many of the other parties to this rulemaking support a 5-
second open flame test for outer fabrics, as contrasted with the 20-
second test referenced in S. 1798. We believe this test accurately 
models the risk created by children playing with matches and lighters, 
and allows industry to continue to provide consumers with an array of 
comfortable and attractive fabrics.
    The 5-second fabric test was originally developed by researchers 
from the textile industry. It utilizes a familiar testing apparatus 
currently used to perform testing of upholstery fabrics under 
California Technical Bulletin 117. The one-second ignition time 
employed in TB-117 testing has been extended to five seconds to better 
model the phenomenon of child fireplay. Textile industry researchers 
have found that the great majority of current upholstery fabrics fail 
this test, but that most can be modified through yarn substitution and 
chemical backcoating to achieve sufficient flame resistance. Under this 
test, each fabric SKU marketed as upholstery would be tested ten times 
and evaluated for non-ignition or self-extinguishment. Fabrics could 
also pass by demonstrating a relatively slow rate of burn (the five-
inch test sample could not be consumed in less than 30 seconds).
    In recent weeks, round robin testing involving nine labs (including 
CPSC) confirmed that the fabric test reliably predicts fabric 
performance, and a report on the findings is now being prepared for the 
administrative record. We are confident that the greater ignition 
resistance of fabrics meeting the proposed requirement will work in 
concert with the recommended changes to foam and other cushioning 
material to provide Americans with significantly safer furniture.
    It is our view that the 20-second flame test referenced in S. 1798 
is unrealistically long. CPSC concluded in 1997 that ``many young 
children would not be expected to hold a flame source in one place for 
more than several seconds.'' \1\ This is understandable, given the 
agency's finding that most small open flame fires originate on the top 
of horizontal upholstery cushions or near the crevice between the 
horizontal and vertical cushions. One need not be a fire scientist to 
recognize the difficulty of holding a match or lighter for 20 seconds 
while attempting to direct its flame downward onto a horizontal 
surface.
---------------------------------------------------------------------------
    \1\ U.S. Consumer Product Safety Commission, Regulatory Options 
Briefing Package on Upholstered Furniture Flammability October 28, 
1997, p. 38 (emphasis added).
---------------------------------------------------------------------------
    In addition, textile scientists have found it impossible to 
reliably achieve resistance to such a sustained ignition source without 
jeopardizing the qualities that make upholstery appealing. A 20-second 
requirement in the United Kingdom has resulted in a diminished range of 
fabric choices, along with poor ``hand'' and ``boardiness.'' The editor 
of a U.K. trade publication said of the fabrics at a 1996 trade show:

        It makes me sad to think that so few of these exquisite weaves 
        and prints will ever reach the U.K. market, mainly because of 
        our stringent fire retardancy regulations. A number of mills 
        commented that although they would like to export more to the 
        U.K., the application of FR backings would ruin the special 
        feel and texture of the fabric. . . .\2\
---------------------------------------------------------------------------
    \2\ Felicity Murray, Cabinet Maker, Miller Freeman Publishers, May 
1996.
---------------------------------------------------------------------------
    The tradeoff between the ignition resistance and marketability of 
fabrics is illustrated in a chart developed by David Pettey, Director 
of Product Development for Quaker Fabrics, presented at a March 1, 2004 
public meeting of the CPSC.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Clearly, as the ignition source progresses from the 5-second test 
recommended by the majority of stakeholders to the 20-second standard 
embodied in the pending legislation, the aesthetics and fabric variety 
demanded by consumers would be sacrificed.
    Still, the most important reason for not establishing a 20-second 
test requirement for upholstery fabrics is the simple fact that such a 
standard cannot be reliably met. The United Kingdom represents to its 
citizens that upholstery fabrics marketed in that nation pass a 20-
second open flame test. Nonetheless, researchers, journalists and even 
British enforcement authorities have documented compliance levels with 
that requirement at barely 50 percent.\3\ Dr. Kurt Reimann, a research 
manager at BASF, tested a representative sample of 31 fabrics 
backcoated and BS5852 certified by an accredited laboratory in the U.K. 
Seventeen of these failed subsequent small open flame testing. Some of 
these required multiple treatments in order to pass, and many exhibited 
a mixture of passing and failing results.\4\ AFMA believes that 
consumer protection is better served by a more sensible fabric 
requirement which enjoys high compliance levels than a more stringent-
sounding standard that is observed largely in the breach.
---------------------------------------------------------------------------
    \3\ Andrew Kidd, ``More than 50 percent of Sofa Beds Failed to Pass 
Fire Safety Regulations,'' Cabinet Maker, January 31, 1997.
    Derbyshire County Council, Company Fined Over Fire Retardant 
Claims, August 13, 2001.
    News Wales, Buyers Risking Lives for a Bargain, April 28, 2004.
    Janet L. Brady, A Study of the Effects of FR Backcoating on 
Selected Upholstery Fabrics, Philadelphia College of Textiles, June 16, 
1999.
    \4\ Janet L. Brady, A Study of the Effects of FR Backcoating on 
Selected Upholstery Fabrics, Philadelphia College of Textiles, June 16, 
1999.
---------------------------------------------------------------------------
Flame-Blocking Barriers
    As an alternative to FR treatment of outer fabrics, all 
stakeholders that we are aware of have endorsed a compliance option in 
which flame-blocking barriers (also called interliners) are layered 
between the fabric and cushioning material. No such option is provided 
by S. 1798.
    Barriers would be particularly critical at the upper levels of the 
market, where yarn substitution or chemical backcoating might conflict 
with customer preferences. The goal of such constructions is not 
primarily to prevent ignition of the outer fabric, but to limit the 
progression of fires into internal components such as polyurethane foam 
and polyester batting. Barrier materials are already used in the United 
Kingdom, as an alternative to the 20-second fabric test just discussed. 
Under our proposal, barriers would be qualified using an ignition 
source meant to model the effect of burning outer fabric. While 
barriers currently represent a more costly option than backcoating, a 
national regulation could give rise to economies of scale that bring 
such materials into wider use.
    The interliner option would advance public safety while providing 
furniture manufacturers with compliance flexibility. It would preserve 
fabric choice by allowing the use of outer fabrics which cannot be 
reliably FR treated, and those for which treatment would compromise 
function or consumer appeal. This option would also deal more sensibly 
with limited run fabrics and customer's own merchandize (COM's), for 
which valuable quantities of fabric would otherwise be consumed by 
testing. Furniture manufacturers and consumers especially concerned 
about chemical content would have access to flame resistant product 
which contains no chemical flame retardants. This could be advantageous 
in markets where consumer preference, labeling initiatives or 
regulations discourage the use of flame retardants.
    Unfortunately, the draft California standard referenced by S. 1798 
does not provide a workable interliner option. To use untreated 
fabrics, a manufacturer would have to conduct composite testing of the 
fabric, batting, bagging, foam and other materials in each of the 
potentially thousands of combinations they bring to market. Composite 
testing is expensive and dangerous, requiring sophisticated measurement 
and pollution abatement equipment. It is also directly at odds with 
achieving cost-effective product and high levels of compliance.\5\ One 
flammability expert has noted the unworkability of such tests for 
monitoring the compliance of furniture with safety standards:
---------------------------------------------------------------------------
    \5\ See CPSC Briefing Package (2001), p. 50, indicating that the 
agency chose component over composite testing to avoid ``imposing 
unreasonable technical or cost burdens.''

        [A test] may be highly sophisticated technically and require 
        special facilities and instrumentation. As a consequence it can 
        generally only be performed in a limited number of 
        installations and . . .used only for research purposes. It is 
        usually not practical to require such elaborate testing for all 
        possible combinations of filling and fabric materials. For any 
        regulatory purpose, such as the requirement of certification 
        for compliance, it is vital that a quality control test be 
        available that . . .does not require highly trained personnel 
        or elaborate equipment.\6\
---------------------------------------------------------------------------
    \6\ Dr. Herman Stone, Overview of the Combustibility and Testing of 
Filling Materials and Fabrics for Upholstered Furniture, July 1998.

    The absence of an interliner alternative and the need to conduct 
composite testing for all SKU's of product using untreated fabric is a 
central flaw of the California approach embodied in S. 1798.
Cost-Effectiveness
    The unrealistically stringent test methods and the burden of 
composite testing render S. 1798 the most expensive approach yet 
proposed for residential upholstered furniture. As the Committee is 
aware, the reduction of flammability risks in the most cost-effective 
and least disruptive manner is part of the mandate that Congress 
provided to CPSC.\7\ It is also critical to the success of a 
flammability regulation for upholstered furniture.
---------------------------------------------------------------------------
    \7\ 15 U.S.C. 1193 (j) (2) (C).
---------------------------------------------------------------------------
    Improved furniture will only provide additional fire safety if it 
reaches peoples' homes, particularly those at greatest risk of 
residential fire. Furniture is unlike toys, disposable lighters and 
other products which enjoy a rapid turnover in stock. There are 
approximately 400 million units of upholstered furniture currently in 
use in this country, and the average product life is between 15-17 
years.\8\ New upholstered furniture represents a discretionary purchase 
for most U.S. consumers. As shown in the chart below, median income 
households replace sofas and loveseats at a rate of 3.6 percent 
annually. This figure drops to 2.5 percent among households with annual 
incomes under $20,000.\9\ The replacement of the Nation's furniture 
stock with more fire-resistant constructions will take place over 
several generations, even at present prices.
---------------------------------------------------------------------------
    \8\ U.S. CPSC, Briefing Package on Upholstered Furniture 
Flammability, October 2001, p. 50.
    \9\ Dr. Mark Berkman, Assessing the Need for a Federal Upholstered 
Furniture Flammability Standard, National Economic Research Associates 
(NERA), February 16, 2001, p. 32.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: ``Consumer Buying Trends,'' Furniture Today, February 16, 
---------------------------------------------------------------------------
1998.

    Price distortions imposed by careless regulation could deter 
consumer purchases of new furniture and thereby have a 
counterproductive effect. Our suppliers indicate that the reformulated 
and chemically treated components required by S. 1798 would result in a 
retail upcharge of approximately $100 per chair, and perhaps $145 per 
sofa. High testing costs would be layered onto these amounts. 
Policymakers can best promote the interest of consumers by choosing the 
most practical and cost-effective approach to furniture flammability. 
Most of the stakeholders present today believe that the AFMA proposal 
represents that path.
The Bill Would Eliminate Decisionmaking Criteria and Transparency
    S. 1798 would make inapplicable important provisions of the 
Consumer Product Safety Act and related statutes. Specifically, no 
assessment of the resulting standard's costs or benefits would be 
allowed. The agency would also be blocked from considering the impact 
of the regulation on the availability of products, or whether less 
burdensome or more effective alternatives are available. Significantly, 
the opportunity for interested parties to be heard on the advantages 
and disadvantages of the standard would be eliminated.
    These statutory provisions were established by Congress to provide 
for fairness and transparency in the regulatory process, and to ensure 
that regulation is accomplished in the manner least disruptive to the 
consumer marketplace. AFMA believes that adoption of S. 1798 would set 
an unfortunate precedent for administrative law.
Conclusion
    CPSC is well on its way to providing the American public with safer 
furniture, and we respectfully recommend that Congress allow that 
process to proceed. We do encourage you to provide the agency with 
appropriate oversight and sufficient funding to carry out that task.
    Related to that point, please recognize that a flammability 
standard for upholstered furniture, when finalized, will be the most 
expansive safety standard ever promulgated by CPSC. Hundreds of million 
of upholstered units will be affected, and many of these will originate 
in foreign factories. The effectiveness of such a standard will rest 
with the ability of Federal authorities to enforce it. We urge Congress 
to provide CPSC and Customs authorities with resources sufficient to 
fairly and effectively monitor the compliance of upholstered furniture 
with any regulation that is imposed.
                                 ______
                                 
                      Biography of Andy S. Counts
    Andy Counts is Chief Executive Officer of the American Furniture 
Manufacturers Association (AFMA), the Nation's largest trade 
association for furniture manufacturers and suppliers. Formerly AFMA's 
Vice President of Environmental and Technical Affairs, Mr. Counts has 
been instrumental in the development of consensus-based environmental 
regulations and product safety standards that impact the furniture 
industry. He has testified before state and Federal policymaking 
bodies, including the U.S. Consumer Product Safety Commission.
    Prior to joining AFMA, Andy served as a Project Engineer with 
Malcolm Pirnie, Inc. in Charlotte, NC; as a Plant Engineer with kitchen 
cabinet manufacturer Merillat Industries; and as a Senior Environmental 
Engineer with the Virginia Department of Environmental Quality.
    Andy has a degree in Industrial Engineering from the Georgia 
Institute of Technology. He is a Member of the North Carolina Furniture 
Export Council; a Board member of the International Woodworking Fair; a 
Past Member of the High Point Market Authority; and President of the 
Georgia Tech Alumni Association.

    Senator Smith. Thank you very much.
    Bob Higgins, President, National Candle Association.

            STATEMENT OF ROBERT HIGGINS, PRESIDENT, 
                  NATIONAL CANDLE ASSOCIATION

    Mr. Higgins. Good morning. My name is Bob Higgins. I'm Vice 
President of Manufacturing and Logistics with Candle-lite, in 
Cincinnati, Ohio. Today, I'm speaking as President of the NCA, 
the National Candle Association.
    The NCA is a major trade association of U.S. candle 
manufacturers and their suppliers. It consists of nearly 200 
member companies, accounting for more than 90 percent of all 
candles manufactured in the U.S. I want to emphasize that the 
NCA is deeply committed to reducing candle fires, and strongly 
supports any legislation that helps to decrease residential 
fires and their devastating effects.
    The NCA has been actively involved in addressing consumer 
fire safety issues since 1997, when a growing number of candle 
fires led the CPSC to ask our help in developing standards on 
candle fire safety. The result was the ASTM F-15.45 
Subcommittee on Candle Products. The candle industry, CPSC 
staff, and the fire community have all been actively involved.
    The NCA takes pride in the ASTM candle standard developed 
to date. NCA's commitment to move forward as rapidly as 
possible has propelled the publication of three groundbreaking 
ASTM candle safety standards in only 25 months. A fourth 
standard dealing with the candle test methods was published 
earlier this year. A fifth standard dealing with candle 
accessories is under development.
    By far, the most technically advanced of the ASTM candle 
standards is PS 59-02, which addresses the control of flame 
height, stability, end-of-useful life, and secondary ignition. 
To make PS 59-02 a mandatory CPSC standard would set back 
efforts to improve candle fire safety.
    By statute, the CPSC may issue a mandatory standard only 
when it finds that a voluntary standard has not adequately 
reduced injury or death, or when substantial compliance with a 
voluntary standard is absent. Neither of these conditions exist 
in the candle industry. Our members have consistently 
demonstrated their support for, and compliance with, the ASTM 
candle standards. PS 59-02 is no exception.
    Working with ASTM, the candle industry has recently revised 
and broadened PS 59-02 to now include virtually all types of 
candles in its end-of-useful-life requirements. A final 
standard is anticipated in December.
    Voluntary standards continually evolve. Mandatory standards 
are essentially frozen in time. ASTM standards are regularly 
reviewed and updated, ensuring that the latest technologies are 
adopted. By comparison, to change a mandatory CPSC standard 
would require complex and lengthy procedures under the Consumer 
Product Safety Act.
    Candles are safe products when used correctly, but 
educating consumers is the key to reducing candle fires. 
Approximately 85 percent of all candle fires occur when 
consumers leave lighted candles unattended, place candles too 
close to combustibles, or place candles within the reach of 
children or pets. This finding prompted the development of the 
ASTM candle labeling standard, and underscored the tremendous 
importance of educating consumers about candle fire safety. 
That's why the NCA aggressively distributes candle safety 
materials to consumers through the media, our Website, our 
members, industry groups, retailers, and cooperating 
organizations around the country.
    The NCA strongly believes that neither candles nor candle 
fire safety standards belong in S. 1798. The purpose of this 
bill is to reduce the flammability of candles, mattresses, 
bedclothing, and upholstered furniture. A candle constitutes a 
source of ignition. It is an open flame. Mattresses, 
bedclothing, and upholstered furniture are items that can be 
ignited by a flame. This distinction between an ignition source 
and an ignited item is important. If the purpose of S. 1798 is 
to reduce the flammability of items ignited in household fires, 
then candles clearly do not belong in the bill. If the purpose 
is to improve the fire safety of ignition sources, then stoves, 
ovens, heaters, furnaces, fireplaces, chimneys, clothes dryers, 
and cigarettes, all of which cause more residential fires than 
candles, should be included. Candles constitute but 4 percent 
of all residential fires.
    In conclusion, the U.S. candle industry has been steadfast 
in its commitment to improving candle safety, to developing 
voluntary ASTM standards, to complying with those standards, 
and to educating consumers. The NCA is committed to the intent 
of this legislation and to reducing residential fires.
    We appreciate the opportunity to testify, and respectfully 
request that language regarding candles and candle standards be 
removed from S. 1798.
    I thank you for allowing me to be here today.
    [The prepared statement of Mr. Higgins follows:]

           Prepared Statement of Robert Higgins, President, 
                      National Candle Association
I. Introduction
    Good morning. My name is Robert Higgins. I am Vice President of 
Manufacturing and Logistics with Candle-Lite, Inc., one of the largest 
candle manufacturers in North America. Candle-Lite is owned by 
Lancaster Colony Corporation, a publicly traded company headquartered 
in Columbus, Ohio.
    I am speaking today on behalf of the National Candle Association as 
its President.
II. The National Candle Association
    The National Candle Association (``NCA'') is the major trade 
association representing U.S. candle manufacturers and their suppliers. 
Founded 30 years ago, the NCA today consists of nearly 200 member 
companies, accounting for more than 90 percent of all candles 
manufactured in the United States. NCA's leadership and technical 
expertise in all aspects of candlemaking is well established and widely 
recognized.
    The popularity of candles soared dramatically with American 
consumers during the 1990s. Candle sales reached their historical high 
at the close of the decade, and have remained relatively steady since 
that time. U.S. retail sales of candles are currently estimated at $2 
billion annually.
    Data from industry and independent market research firms indicate 
that candle sales in the United States increased more than 700 percent 
from 1990 to 1999. In turn, candle-related residential fires increased 
275 percent.
    It was the growing number of candle fires that led the U.S. 
Consumer Product Safety Commission in 1997 to ask our help in forming a 
subcommittee under ASTM to develop consensus standards for addressing 
the fire safety of candles. The result was the ASTM F-15.45 
Subcommittee on Candle Products.
    The National Candle Association takes exceptional pride in the ASTM 
candle safety standards that have been developed to date. NCA's 
commitment to move forward as rapidly as possible, and the contribution 
of its members' technical know-how and innovation, allowed the 
publication of three groundbreaking safety standards in a record 25 
months. A fourth candle standard dealing with a manufacturer test 
method was published earlier this year. A fifth standard dealing with 
the fire safety of candle accessories is currently under development.
    The active participation and contribution of the CPSC staff and 
representatives of the fire community in developing these standards has 
helped to ensure that both the fire science and consumer behavior 
components of candle safety have been effectively addressed.
    In the process of developing these standards, we have gained 
considerable knowledge about the technological and practical 
opportunities and limitations for reducing the incidence of residential 
candle fires. It is in this context that we today address the proposed 
American Home Fire Safety Act (S. 1798).
III. The Value of Voluntary Standards
    S. 1798 calls for the U.S. Consumer Product Safety Commission to 
issue a mandatory candle fire-safety standard that is ``substantially 
the same'' as the voluntary ASTM Provisional Standard PS 59-02.
    Section 7 of the Consumer Product Safety Act provides that the CPSC 
may issue a mandatory standard only when it finds that a voluntary 
standard has not adequately reduced the addressed risk of injury or 
death, or when substantial compliance with the voluntary standard is 
absent. NCA strongly believes that neither of these conditions exists.
    Our members have consistently demonstrated their support for and 
compliance with the ASTM candle standards, and PS 59-02 is no 
exception. Its technically advanced specifications for controlling the 
flame height, stability, end of useful life and secondary ignition 
factors are playing a significant role in reducing candle-related 
residential fires.
    The Committee should be aware that the PS 59-02 standard cited in 
this legislation was the initial candle-fire safety standard developed 
by the ASTM F15-45 subcommittee and rushed into effect as a provisional 
standard to speed its adoption and acceptance by the candle industry.
    Since then, the ASTM Subcommittee has improved and broadened the 
standard by adding end-of-useful life provisions for freestanding 
candles, tea lights and votives. The balloting period has just closed 
on these broadened revisions and we anticipate the standard will become 
final in December of 2004, at which time the standard's provisional 
``PS 59-02'' nomenclature will be dropped and a new number and prefix 
designation assigned.
    The addition of these new provisions underscores the value of a 
voluntary consensus standard and the severe drawbacks of a mandatory 
standard. Recognized standards bodies, such as ASTM and ANSI, require 
regular review and updating of voluntary standards to ensure that the 
latest technologies and improvements are continually adopted and put 
into effect.
    If ASTM 59-02 were to become a mandatory standard, its fire-safety 
specifications would essentially be frozen in time. The automatic 
updating and expansion of a standard that occurs with recognized 
standards bodies would be effectively lost.
    To incorporate into a mandatory CPSC standard any future technical 
advances or fire-safety measures would necessitate undergoing the 
relatively complex and lengthy procedures required to amend a mandatory 
standard under the Consumer Product Safety Act. This would constitute a 
giant and needless step backward in the industry's continuing effort to 
improve candle-fire safety.
    Turning the ASTM candle fire-safety standard into a mandated 
standard would effect absolutely no positive change in candle fire 
safety, but would likely obstruct the future addition of technological 
advances or expansions of the standard's current provisions.
IV. Consumer Education Is Key to Reducing Candle Fires
    Despite the importance of fire science and standards in reducing 
the incidence of residential fires, the NCA strongly believes that the 
real key to candle-fire safety lies with consumer education. Candles 
are safe products when used correctly. It is consumer misuse and 
inattention to basic fire-safety precautions that leads to candle 
fires.
    When the ASTM Subcommittee on Candle Products was first formed, the 
CPSC presented NFIRS data indicating that 85 percent of all candle 
fires were due to consumers leaving lighted candles unattended, placing 
candles too close to combustibles, and placing candles within the reach 
of children or pets.
    These findings prompted the subcommittee to develop ASTM F-2058, 
the cautionary labeling standard. In effect since November of 2000, it 
requires candles to have a consumer warning label setting forth these 
three critical fire-safety rules.
    Unfortunately, no product label or safety standard, whether 
voluntary or mandatory, can overcome the fact that the vast majority of 
candle fires are due to consumer inattention and carelessness. 
Educating consumers as to the proper method for burning candles, and 
increasing their awareness of candle fire safety precautions, are 
critical requisitions for reducing candle fires.
    The National Candle Association has worked diligently in educating 
consumers about the need for vigilance when burning candles. We have 
created and promoted literature stressing the importance of candle fire 
safety. We disseminate this literature to consumers through our 
members, non-member industry groups and retailers, as well as through 
fire, safety and consumer organizations around the country.
    Our website is recognized for its outstanding candle safety 
information, and the media regularly directs consumers to 
www.candles.org for important safety advice. We have contacted national 
and regional fire groups, restaurant associations, hotel associations, 
retailers and others, providing them with information on the ASTM 
candle fire safety standards and encouraging them to join us in 
promoting candle fire safety. Currently we are working on a pilot 
project in North Carolina aimed at getting our candle safety message to 
school children and their parents in cooperation with the Office of the 
State Fire Marshal and Safe Kids chapters in the state.
    To reach as many consumers as possible, NCA regularly issues press 
releases and feature stories on candle safety to radio, television 
print and the electronic media. In addition, we produce and annually 
distribute a television Video News Release on the importance of fire 
safety when using candles.
V. Candles Do Not Belong in S. 1798
    The National Candle Association strongly believes the neither 
candles nor candle fire-safety standards belong in S. 1798.
    The stated purpose of the bill is to develop standards ``to reduce 
the flammability of candles, mattresses, bed clothing and upholstered 
furniture.'' A burning candle is a source of ignition, an open flame. 
Mattresses, bed clothing and upholstered furniture are items that can 
be ignited by a flame. This distinction between an ignition source and 
an ignited item is important.
    If the purpose of S. 1798 is to reduce the flammability of items 
ignited frequently in household fires, then candles clearly do not 
belong in the legislation.
    If the purpose of this legislation is to improve the fire safety of 
ignition sources, then stoves and ovens, heaters and furnaces, 
fireplaces and chimneys, cigarettes, and clothes dryers--all of which 
cause more residential fires than candles--should be included.
    The ASTM standard for candle-fire safety is the most technically 
advanced in the world. Turning it into a mandated standard would effect 
absolutely no positive change in candle fire safety, and would thwart 
our ongoing efforts to expand and improve it.
    Industry has consistently demonstrated its support for, and 
compliance with, the ASTM candle standards, and we believe they are 
playing a significant role in reducing candle-related residential 
fires.
    The NCA requests that references to candles and candle fire-safety 
standards be eliminated from S. 1798.
VI. Conclusion
    The NCA has been diligent and resolute in its efforts to improve 
candle fire safety. We believe we have made notable progress addressing 
the fire science component of candle-fire safety through our active 
participation in the ASTM standards development process.
    We are especially proud of our role in the development of PS 59-02, 
and its innovative technical specifications for controlling the flame 
height, stability, end of useful life and the secondary ignition of 
candles. When the latest revisions are added and the standard becomes 
final in a few months, it will provide the industry with the most 
advanced and comprehensive means of addressing candle fire safety from 
the standpoint of combustion control.
    Through dedication and innovation, the U.S. candle industry has 
harnessed the candle flame in ways that were unthinkable just a decade 
ago. Yet these technological feats will be of minimal value unless we 
can make significant inroads in educating consumers about the need for 
caution and vigilance when burning candles.
    As the voice of the U.S. candle industry, the NCA has been 
steadfast in its commitment to improving candle fire safety, not only 
through its active participation in the development of voluntary 
standards, and compliance with those standards, but in its ongoing 
consumer education and media outreach activities, its cooperative 
endeavors with fire and safety organizations, and its efforts to 
involve the entire U.S. candle industry and customers in a commitment 
to candle fire safety. The NCA requests that references to candles and 
candle fire-safety standards be eliminated from S. 1798.
    I appreciate the opportunity to testify before you today on this 
important subject. Thank you for your attention.
                                 ______
                                 
        National Candle Association--ASTM Standards for Candles

F 1972-99    Standard Guide for Terminology Relating to Candles and 
        Associated Accessory Items
Defines the key terms associated with candles to ensure universal 
understanding of related standards.
F 2058-00    Standard Specification for Cautionary Labeling for Candles 
        Burned in A Home
Sets forth the minimum wording, typestyle and design requirements for 
the warning label that is to be placed on candles. The standard 
addresses the three most common causes of accidental candle fires:

  <bullet> Keep burning candle within sight

  <bullet> Keep out of reach of children and pets

  <bullet> Never on or near anything that can catch fire
F 2179-02    Standard Specification for Annealed Soda-Lime-Silicate 
        Glass Containers that are Produced for Use as Candle Containers
Developed to address concerns over candle fires caused by broken or 
shattered glass containers, this standard requires that glass 
containers for candle use be:

  <bullet> Properly annealed--pass a scratch test without fractures or, 
        for transparent glass, has a real temper <4 using a 
        polariscope.

  <bullet> Able to withstand a 90&ordm; F thermal shock differential.
F 2326-04    Standard Test Method for Collection and Analysis of 
        Visible Emissions from Candles As They Burn
Establishes a test method for collecting and analyzing visible 
emissions when comparing the smoking and burn behavior of certain 
candle designs and formulations. Does not provide pass/fail criteria
PS 59-02*    Provisional Specification for Fire Safety for Candles
Sets fire prevention measures for the manufacture and design of 
candles. Currently a provisional standard, anticipated requirements of 
the final standard are listed below.

  <bullet> Maximum flame height on candles shall not exceed 3.0 inches 
        (church candles = 3.75'').

  <bullet> A candle placed on an incline of 10 degrees shall not tip 
        over.

  <bullet> A candle shall not support ignition at points other than the 
        intended wick or wicks.

  <bullet> When a free-standing, tealight, votive or container candle 
        reaches the end of its useful life:

      --the candle must not exhibit excessive flame height,

      --the candle must not exhibit secondary ignition,

      --the flame must go out.

      --if a container candle, the container shall not break,
Fire Safety Specifications and Test Methods for Candle Accessories 
        (Under Development)
Intended to ensure that a candle flame will not ignite a candle 
accessory to initiate a larger fire. Includes flammability test methods 
and pass/fail criteria. Also includes stability requirements.
                                 ______
                                 
Residential Candle Fires increased by 275 percent from 1990-1999
There were 5,450 candle fires reported in 1990 and 15,040 candle fires 
in 1999.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Source: NFIRS/NFPA
U.S. Candle Sales increased more than 700 percent from 1990-1999
Candle sales rose from an estimated $300 million in 1990 to $2.2 
billion in 1999.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Source: 1990-1994 Industry estimates: 1995-1999 Mintel (all 
        figures exclude candle accessories)
Candle Wax made in the U.S. or imported increased 410 percent from 
        1990-1999.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        Source: Compiled from Department of Commerce, ``Wax Data and 
        Industry surveys.''
Consumer inattention and misuse of candles account for 85 percent of 
        all residential candle fires.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        Source: 1997 CPSC Analysis of 1993-1994 NFIRS data for ASTM F-
        15.45 Subcommittee as reported in ASTM Standardization News, 
        March 2003. Subsequent NFIRS data have shown no substantial 
        changes in the reported causes of candle fires.
                                 ______
                                 
                   ASTM Candle Fire Safety Task Group
                                4/14/03
    Geoffrey Faires
    The Dial Corp.

    George Pappas Sr.
    Lumi-Lite Candle Co.

    Dave Buri
    S.C. Johnson, Inc.

    John Witham
    Candle-Lite, Inc.

    Robert Harrington
    Blyth Industries, Inc.

    Evelyn Bicknese (IGCA Representative)
    Bicknese & Bicknese, Inc.

    Richard Signorelli
    Belmay, Inc.

    Ed Calcote
    Shell Global Solutions, US

    Jim Becker
    Candle Solutions

    Robert Weitzel
    Green Township Fire Chief

    Christy Wheeler
    Atkins & Pearce, Inc.

    William Comber
    Libbey Glass

    John Tedeschi
    Bath & Body Works

    John Baker
    Pier 1

    Robert Moss
    FTI-SEA Consulting

    Mark Gerwitz
    Bureau Veritas Consumer Products & Services

    Jim Hoebel
    Consultant

    Tom Acklin (for AFIA)
    Autograph Foliages

    Allyson Tenney
    CPSC

    Valerie Cooper
    NCA

    David Morrison
    Penreco

    Charles D. Moses
    Arizona Chemical Company

    Dan Muller
    Jackel International, Inc.

    Walter Smittle
    Retired WV State Fire Marshal
                                 ______
                                 
Specification for Fire Safety for Candles \1\
---------------------------------------------------------------------------
    \1\ This specification is under the jurisdiction of ASTM Committee 
F15 on Consumer Products and is the direct responsibility of 
Subcommittee F15.45 on Candle Products.
---------------------------------------------------------------------------
    This document is not an ASTM standard; it is under consideration 
within an ASTM technical committee but has not received all approvals 
required to become an ASTM standard. It shall not be reproduced or 
circulated or quoted, in whole or in part, outside of ASTM Committee 
activities except with the approval of the Chairman of the Committee 
having jurisdiction and the President of the Society. Copyright ASTM, 
100 Barr Harbor Drive, West Conshohocken, PA 19428. All Rights 
Reserved.
1. Scope
    1.1 This specification is intended to prescribe requirements for 
certain candles to provide a reasonable degree of safety for normal 
use, thereby improving personal safety and reducing fires, deaths, and 
injuries.
    1.2 This specification is not intended to replace other important 
safety practices that should be in place, such as adult supervision, 
close monitoring, fire detection, alarm or suppression systems, and use 
of candles away from combustible materials.
    1.3 The values stated in SI units are to be regarded as the 
standard. The values given in parentheses are for information only.
    1.4 This standard does not purport to address all of the safety 
concerns, if any, associated with its use. It is the responsibility of 
the user of this standard to establish appropriate safety and health 
practices and determine the applicability of regulatory requirements 
prior to use.
    1.5 Flame-producing devices, such as candles, present a potential 
hazard to the user. This standard cannot eliminate all hazards but will 
minimize the potential hazards of candles to the user.
    1.6 This standard measures and describes the response of materials, 
products or assemblies to heat and flame under controlled conditions, 
but does not by itself incorporate all factors required for fire hazard 
or fire risk assessment of the materials, products or assemblies under 
actual fire conditions.
2. Referenced Documents
    2.1 ASTM Standards \2\
---------------------------------------------------------------------------
    \2\ For referenced ASTM standards, visit the ASTM website, 
www.astm.org, or contact ASTM Customer Service at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d2e382f2b343e381d3c2e293073322f3a73">[email&#160;protected]</a> For 
Annual Book of ASTM Standards volume information, refer to the 
standard's Document Summary page on the ASTM website.
---------------------------------------------------------------------------
    E 176 Terminology of Fire Standards
    F 400 Consumer Safety Specification for Lighters
    F 1972 Guide for Terminology Relating to Candles and Associated 
Accessory Items
3. Terminology
    3.1 Certain candle-related terminology is addressed in Guide F 
1972, and the reader is directed to that standard for definitions not 
found in 3.2. For definitions of terms associated with fire issues, see 
E 176 Terminology of Fire Standards.
    3.2 Definitions:
    3.2.1 Altar candle, n--candle that is constructed, packaged, and 
labeled as an ``Altar'' candle.
    3.2.1.1 Discussion--The candle is used in a place of worship in 
close proximity to the altar during the religious service or ceremony.
    3.2.2 base material, n--intended fuel source for candle flame.
    3.2.3 birthday candle, n--candle whose sole purpose is to be used 
on a birthday cake.
    3.2.4 candle flashover, n--condition in which the base material's 
vapors ignite over the entire fuel pool.
    3.2.5 Easter, Paschal, Sacramental candle, n--candle that is 
constructed, packaged, and labeled as an ``Easter,'' ``Paschal,'' or 
``Sacramental'' candle (or some combination of these names, for 
example, ``Easter/Paschal''), generally 43.2 cm (17.0 in.) or more in 
length.
    3.2.5.1 Discussion--The candle shall be displayed and burned in the 
place of worship as the focal candle during Easter or with the 
celebration of various sacraments. The candle is adorned with symbols 
and ornamentation as required and deemed appropriate.
    3.2.6 end of useful life, n--when the candle ceases to support 
combustion and the candle flame(s) goes (go) out on its own, as 
designed, and cannot be relit.
    3.2.7 ensemble, n--candle and items physically packaged together 
and intended for use with the candle for sale as one unit at the retail 
level.
    3.2.8 fuel pool, n--pool of molten base material.
    3.2.9 place of worship, n--any building that functions primarily as 
a group meeting place for the practice of religion.
    3.2 9.1 Discussion--This includes, but is not limited to, churches, 
synagogues, cathedrals, temples, and meeting halls.
    3.2.10 secondary ignition, n--self-sustained flame other than that 
on the intended wick(s) that occurs during candle use, including candle 
flashover.
    3.2.11 self-sustained flame, n--flame that continues to burn until 
the fuel source is removed or depleted or requires manual 
extinguishing.
4. Safety Requirements
    4.1 Safety Requirements for Flame Height--This safety requirement 
does not pertain to candles intended to be burned outdoors.
    4.1.1 Rationale
    4.1.1.1 Candle flame heights are burn characteristics that shall be 
monitored closely by manufacturers, consumers, retailers, and anyone 
associated with the distribution and use of candles.
    4.1.1.2 Excessive candle flame heights can increase the risk of 
fires when using candle products.
    4.1.1.3 The 76.2-mm (3.0-in.) maximum allowable flame height 
requirement for all candles excluding ``Easter,'' ``Paschal,'' 
``Sacramental,'' ``Altar,'' and outdoor candles is, in part, based on 
the established requirement for nonadjustable, non-windproof lighters 
contained in Consumer Safety Specification F 400, taking into account 
certain differences in measurement methods and other candle performance 
considerations not relevant to fire safety. In addition, candle flame 
heights are not static. The natural tendency of a candle is for the 
flame height to vary during the burn life. The maximum allowable flame 
height requirement in this specification takes into account such 
variation and anticipates that manufacturers will design candles to 
ensure that they remain below the maximum flame height requirement 
throughout the burning period. Furthermore, the manufacturer shall 
determine the appropriate lower flame height for optimum performance 
for individual candle types.
    4.1.1.4 The 95.3-mm (3.75-in.) maximum allowable flame height 
requirement for ``Easter,'' ``Paschal,'' ``Sacramental,'' and ``Altar'' 
candles is larger than other candles because visibility of the flame 
during services at the place of worship warrants slightly larger flame 
heights.
    4.1.2 Performance Requirement
    4.1.2.1 Candle flame heights (other than those of ``Easter,'' 
``Paschal,'' ``Sacramental,'' ``Altar,'' and outdoor candles), when 
tested in accordance with the test method in 5.2, shall not exceed 76.2 
mm (3.0 in.). If at any time during the testing period the flame height 
exceeds 76.2 mm (3.0 in.), extinguish that candle and record it as a 
failure.
    4.1.2.2 ``Easter,'' ``Paschal,'' ``Sacramental,'' and ``Altar'' 
candle flame heights, when tested in accordance with the test method in 
5.2, shall not exceed 95.3 mm (3.75 in.). If at any time during the 
testing period the flame height exceeds 95.3 mm (3.75 in.), extinguish 
that candle and record it as a failure.
    4.1.2.3 For filled candles, if at any time during the testing 
period, regardless of flame height, the container cracks or breaks, it 
shall be recorded as a failure.
    4.2 Safety Requirements for Secondary Ignition--This safety 
requirement applies to all candles and ensembles with the exception of 
``Easter,'' ``Paschal,'' and ``Sacramental'' candles specifically 
designed to be used during the service at the place of worship.
    4.2.1 Rationale
    4.2.1.1 Potential hazards associated with secondary ignition 
sources in and on candles exist, especially if the candle is not 
designed properly. The ignition of material other than the intended 
wick(s) may result in damaged candles, elevated fuel pool temperatures, 
excessively rapid base material consumption, and unintended flames. All 
of these conditions could lead to potential fire hazards.
    4.2.1.2 This requirement describes the method to determine the 
tendency of candles to support ignition at points other than the 
intended wick(s) that are integrated into the candles to enable them to 
burn.
    4.2.2 Performance Requirement
    4.2.2.1 When the candle is tested in accordance with 5.2 of this 
specification, no secondary ignition shall occur.
    4.2.2.2 Record the candle as passing the secondary ignition 
specification if no secondary ignition is observed during the testing.
    4.3 Safety Requirements for End of Useful Life--This requirement 
applies to all votive, freestanding, and filled (including tealights) 
candles and to all ensembles containing tealights. This requirement 
does not apply to candles requiring a holder to keep them upright, 
birthday candles, and candles intended to float on water.
    4.3.1 Rationale--When the candle meets the safety requirements for 
the end of useful life, this will reduce the risk of fires.
    4.3.2 Performance Requirement
    4.3.2.1 Record votive and filled (including tealights) candles or 
tealight ensembles as passing the end of useful life requirement when 
tested in accordance with the test method in 5.2 if the candle or 
tealight ensemble meets the definition in 3.2.6 and does not break or 
crack the container, does not exhibit excessive flame height, and does 
not exhibit secondary ignition as detailed in this specification.
    4.3.2.2 Record the freestanding candle as passing the end of useful 
life requirement when tested in accordance with the test method in 5.2 
if the candle meets the definition in 3.2.6 and the flame does not 
impinge on the supporting surface, does not exhibit excessive flame 
height, and does not exhibit secondary ignition as detailed in this 
specification.
    NOTE 1--The use of current processes or devices that limit the 
candle +s ability to consume all of the available fuel is offered as a 
way to reduce candle fires that occur at the end of the candle +s life. 
This does not preclude the development of other suitable means to meet 
the requirements set forth in 4.3. This reduces heat buildup at the end 
of life and the possibility of secondary ignition, candle flashover, 
and container failure. While it is understood that current processes 
and devices will not guarantee that all fuel will not be consumed, the 
anticipated benefit in reducing candle fires warrants their 
consideration for use.
    4.4 Safety Requirements for Stability--This safety requirement is 
intended to cover freestanding candles that are normally used without 
the aid of a holding device to keep them upright, filled candles 
(including tealights), and ensembles. Candles requiring a holder to 
keep them upright and votive candles are excluded unless incorporated 
in an ensemble. ``Easter,'' ``Paschal,'' ``Sacramental,'' and ``Altar'' 
candles, specifically designed for use during the service at the place 
of worship, are also excluded from the requirements of this section.
    4.4.1 Rationale--This requirement is intended to minimize the 
hazards of candle tip over.
    4.4.2 Performance Requirement
    4.4.2.1 Candles specified in 4.4 must not tip over when placed on a 
minimum 10.0+ incline when tested in accordance with 5.3 in this 
specification.
    4.4.2.2 Asymmetrical candles shall pass this requirement if they do 
not tip over when rotated around the candle's vertical axis and tested 
on the incline apparatus in all orientations.
5. Test Methods
    5.1 Candle fire safety issues to be monitored by these test methods 
include flame height, secondary ignition, safety requirements for end 
of useful life, and stability.
    5.2 Candle Burning Performance Test
    5.2.1 Summary of Test Method--Candle wicks are trimmed in 
accordance with the label's instructions. If no information is provided 
on the label, the wicks are not trimmed for this test. All candles 
except tealights, tealight ensembles, and gel-containing candles are 
lit and allowed to burn for 4 h with periodic observation. Gel candles 
and candles containing any gel materials shall be lit and allowed to 
burn for 8 h with periodic observation. This procedure is repeated 
until the end of the candle's useful life. For tealights and tealight 
ensembles, the candles are lit and allowed to burn to their end of 
useful life with periodic observation. Flame heights are observed at 
specified intervals and recorded at the end of each burn cycle. Flame 
heights shall be measured and recorded in millimetres (inches).
    5.2.2 Apparatus
    5.2.2.1 Nonflammable measuring device graduated in millimetres 
(inches);
    5.2.2.2 Candle holder/glass (if applicable);
    5.2.2.3 Lighter, matches, or other source of ignition;
    5.2.2.4 Test surface level, noncombustible; and
    5.2.2.5 Wick-trimming device.
    5.2.3 Safety Hazards
    Warning: There is an inherent risk of working with and around open 
flames.
    5.2.3.1 Appropriate personal protective equipment must be used and 
safe work practices must be followed.
    5.2.3.2 Fire suppression equipment capable of mitigating fires 
associated with candle fire safety testing must be readily available 
during testing.
    5.2.4 Procedure
    5.2.4.1 Remove all wrapping. Remove label(s) in accordance with 
label instructions before initiating the burn test.
    5.2.4.2 The burn test area shall be environmentally controlled to 
20 to 30 +C (68 to 86 +F) with minimal disturbance of the flames of the 
candles under test. Drafts affect flame heights and shall be minimized.
    5.2.4.3 Place candles with the wicks in a straight/upright 
position. When appropriate, place candles in a holder and trim wicks in 
accordance with the manufacturer's instructions.
    5.2.4.4 Place candles at least 20 cm (7.87 in.) apart, measured 
sidewall to sidewall, on test surface.
    5.2.4.5 Light candles and avoid contaminating them with carbon or 
debris from the ignition source. Burn tealight candles and tealight 
ensembles to their end of useful life; burn gel candles and any candles 
containing gel materials for 8 h; burn all other candles for 4 h.
    5.2.4.6 Make visual observations after initial lighting and at 
least hourly intervals throughout the entire burn duration. If a flame 
height appears to approach the maximum allowable flame height, measure 
and record the flame height and the time of occurrence.
    5.2.4.7 Measure and record flame height at the end of the specified 
burn cycle. For candles whose intended product life is less than 8 h, 
measure and record the flame height a minimum of two times before the 
end of useful life. Measure flame with a nonflammable measuring device. 
Carefully place the measuring device as close as possible behind the 
flame without disturbing the flame. Allow flame to stabilize. Hold the 
measuring device in place for 5 s and record a maximum value 
(undisturbed flame). Measure the flame height from bottom of flame arc 
to the flame tip (see FIG 1).
    5.2.4.8 At the end of burn cycle, extinguish the candle and allow 
to cool.
    5.2.4.9 Repeat 5.2.4.2-5.2.4.8 until the end of candle life.
    5.2.5 Calculation of Results
    5.2.5.1 Record any failure for maximum flame height.
    5.2.5.2 Record any occurrence of secondary ignition.
    5.2.5.3 Record any candle that does not pass the safety 
requirements at end of useful life in accordance with 4.3 of this 
specification.
    5.2.5.4 Record any occurrence of container breakage or cracking.
    5.2.6 Precision and Bias--No information is presented about either 
the precision or bias for measuring the flame height, secondary 
ignition, or safety requirements for end of useful life since the test 
results are nonquantitative.
    5.3 Stability Test Method
    5.3.1 Summary of Test Method--Candles shall be placed on a minimum 
10.0+ incline to determine if they remain in a stable, upright position 
without tipping over.
    5.3.2 Apparatus--An incline plane, either fixed or adjustable, 
capable of achieving a minimum of 10.0+ from level. The plane may need 
a stop to help prevent the candle from slipping during this test. When 
a stop is used, its maximum height shall not exceed 6.4 mm (0.25 in.) 
so as not to affect the test results.
    5.3.3 Procedure
    5.3.3.1 Preparation of Samples--Remove all wrapping. Remove label 
material when instructed by the manufacturer and prepare the candle or 
ensemble, or both, for use.
    5.3.3.2 Place the prepared, unlit candle or assembled ensemble on 
an incline apparatus in the orientation most likely to cause tipping at 
a minimum of 10.0+ from level. The tested candle or assembled ensemble 
or both shall remain stable and not fall over. Rotation around the 
candle's vertical axis will be necessary to determine the stability of 
an asymmetrical candle.
    5.3.4 Calculation of Results--Record any stability failures.
    5.3.5 Precision and Bias--No information is presented about either 
the precision or bias of the measurement of stability since the test 
results are nonquantitative.
    NOTE 2--More stringent testing of test methods contained within 
this specification is permissible if, when testing identical specimens, 
a test using alternate apparatus or procedures yields failing results 
as often as, or more often than, a test using the apparatus and 
procedures specified in this specification.
6. Keywords
    6.1 candles; end of useful life; fire safety testing; flame height; 
gel; secondary ignition; stability; tealight
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                APPENDIX
                       (Nonmandatory Information)
                      X.1. GEL-CONTAINING CANDLES
    X1.1 Gel candles have been involved in a number of candle fires as 
reported by various government agencies. In addition, several product 
recalls involving gel candles have been issued. Limited testing of 
experimental candles conducted by the Candle Fire Safety Task Group did 
not reproduce the candle flashover effect associated with reported gel-
based candle failures. Further testing is planned to attempt to 
identify the causal factors in candle flashover and other gel-based 
candle failures. If necessary, the specification will be revised to 
reflect the outcome of this testing.
    X1.2 In an attempt to identify specific characteristics associated 
with gel-based candle failures, the burn interval for gel-containing 
candles in the Candle Burning Performance Test has been increased to 8 
h from the requisite 4 h in the specification.
    X2.3 It is highly recommended that gel candles be extensively 
tested to try to identify any potential problems with the products. It 
is also highly recommended that candle manufacturers consult and work 
closely with the gel material suppliers as they develop these products.
                                 ______
                                 
                                National Candle Association
                                        Washington, DC, May 5, 2004
Office of the Secretary,
Consumer Product Safety Commission,
Washington, DC.
``Petition CP 04-1/HP 04-1, Petition for Fire Safety Standards for 
        Candles and Candle Accessories''
    The National Candle Association (NCA) submits the following 
comments in response to the U.S. Consumer Product Safety Commission 
(CPSC) request for comments on the petition from the National 
Association of State Fire Marshals (NASFM) requesting the CPSC to issue 
mandatory fire safety standards for candles and candle accessories 
(Petition No. CP 04-1/HP 04-1, 69 FR 18059, April 6, 2004).
    The NCA is the major trade association for the U.S. candle 
industry. We are recognized as the North American technical experts on 
candle manufacturing and formulation. Our member's account for more 
than 90 percent of the candles manufactured in the United States. Our 
members include both manufacturers and suppliers.
    Because of NCA's leadership in the industry, and its technical 
expertise in candle manufacturing, the CPSC in 1997 asked NCA to help 
form a candle products subcommittee under the Consumer Products 
Committee of the ASTM standards organization. Through the efforts of 
this ASTM F-15.45 subcommittee, the current voluntary consensus 
standards regarding candle fire safety have been developed and continue 
to be expanded. Both NCA and CPSC have actively participated in the 
subcommittee's consensus deliberations, with representatives from a 
variety of fire and safety organizations and other interested parties.
    Section 7 of the Consumer Product Safety Act (CPSA), 15 U.S.C. 
2056, provides that the Commission may issue a mandatory standard only 
when it finds there is not a voluntary standard that adequately reduces 
the addressed risk of injury or death, or when substantial compliance 
with the voluntary standard is absent. NCA strongly believes that the 
voluntary consensus standards that have been and continue to be 
developed, for candle product fire safety under ASTM F-15.45, have been 
effective in reducing candle-fire risks, and that such standards will 
continue to help reduce the risk of such fires.
    Further, we believe that the CPSC staff concurs with NCA in this 
matter, given the recommendation of the Office of Hazard Identification 
and Reduction and the concurrence of the Office of the General Counsel 
that CPSC's involvement in this issue has been so extensive that it is 
not necessary for the Commission to seek public comment on the NASFM 
petition.
Adequacy of Voluntary Industry Standards
    In proposing that the Commission adopt a mandatory standard for 
candle fire safety, NASFM implies that the voluntary standards are 
inadequate. Because the voluntary standard's provisions are relatively 
new and the standard is being expanded, it is too early to make the 
judgment that the voluntary standard will not be effective. Our efforts 
an the efforts o all candle manufacturers to educate the marketplace is 
still underway.
    NASFM also requests that four additional provisions be incorporated 
into the mandatory standard. Ongoing activities of the ASTM F-15.45 
subcommittee are covering these requests. For all intents and purposes, 
the additional provisions requested by NASFM have already been 
addressed, either through revisions and inclusions to the PS 59-02 
standard, which is currently being readied for balloting, or through 
the standards drafting procedure, or consensus of the subcommittee.
    Specifically, end-of-useful-life requirements for freestanding, tea 
light and votive candles have been incorporated into the latest 
revision of PS 59-02; inclusion of tapers in this requirement is not 
technically possible or economically feasible at this time. 
Flammability performance requirements for candle accessories and 
candleholders are being drafted as a new standard by the F-15.45 
subcommittee. Stability requirements for tapers and votives packaged 
with holders as ensembles are also included in the latest revisions of 
PS 59-02.
    The NASFM request for a provision regarding the miscibility and 
flash points of gel candles addresses fire-safety concerns already 
achieved by the voluntary candle fire-safety standard. PS 59-02 
addresses key fire-safety specifications that can in some way be 
controlled through manufacturing procedures--flame height, stability, 
end of useful life, and secondary ignition. These specifications apply 
to candles regardless of their fuel type--paraffin, soy, beeswax, gels, 
synthetic waxes, palm wax, etc., or blends of these fuels. In this 
sense, adding a gel candle-specific provision is redundant, and would 
inappropriately interject very narrow (and likely anti-competitive) 
formulation requirements into what is designed to be a universally 
applicable performance standard. Moreover, adding narrow formulation 
specifications for one particular type of candle wax would require 
adding parallel prescriptive specifications for all types and blends of 
candle waxes, a virtually impossible undertaking involving thousands of 
possible combinations.
Negative Safety Impact of a Mandatory Standard
    Ironically, NASFM's petition for a mandatory standard addressing 
candle product fire safety would likely impede the improvement of 
candle-fire safety technology and designs. The promulgation of a 
mandatory standard would serve to freeze in time any technical advances 
or innovations in candle product fire safety because of the relatively 
complex and lengthy procedures required to amend a mandatory standard 
under the Consumer Product Safety Act.
    The value of voluntary industry consensus standards, as developed 
through recognized standards development bodies such as ASTM, ANSI, 
ISO, etc., is that they are continually improved through required 
revision and update procedures. This allows new technologies and 
innovations to be incorporated into applicable standards on a timely 
basis. Indeed, the evolving and progressive nature of voluntary 
consensus standards is what led to the most recent revision of PS 59-02 
and its inclusion of the additional provisions contemplated by NASFM.
    To issue a mandatory standard for the fire safety of candle 
products at this time would thwart the efforts of both industry and the 
CPSC to effectively and expediently address candle fire-safety issues 
with standards that include the best available technology. Over the 
past few years, the necessary ``critical mass'' of personnel and 
technical expertise has come together in the existing voluntary 
standards proceedings to allow for rapid expansion and continued 
refinement of the voluntary standards for candles. It would be 
premature to halt this synergistic activity until the results of these 
efforts are complete and have time to work on the market place.
Candle Industry in Compliance
    NASFM alleges that the candle industry is not in compliance with 
the ASTM standards, and that it has made no effort to encourage 
compliance with the ASTM standards. These allegations are inaccurate 
and unfounded.
    The NCA's commitment to product excellence and the safe and proper 
use of candles is at the foundation of its aggressive efforts to 
establish and participate in the ASTM F-15.45 subcommittee. Members in 
good standing of the National Candle Association pledge to manufacture 
candles and candle products in accordance with recognized industry 
standards and practices. Since NCA members account for approximately 90 
percent of the candles manufactured in the U.S., this alone constitutes 
more than substantial compliance by the industry with the ASTM 
standards.
    Further, NCA takes its responsibility and leadership role in the 
candle industry very seriously. We have undertaken aggressive efforts 
to educate member and non-member candle manufacturers, suppliers and 
retailers--as well as large-scale user groups--regarding the ASTM 
standards and the importance of candle fire safety. Our retailer 
members, as well as major non-member retailers and mass purchasers, 
specify the ASTM standards in their procurement and supply contracts.
Consumer Education Is Key to Reducing Candle Fires
    Candles are safe products when used correctly. It is consumer 
misuse and inattention to basic fire-safety precautions that leads to 
candle fires. When the ASTM F-15.45 subcommittee was first formed, the 
CPSC presented data from the National Fire Incident Reporting System 
indicating that 85 percent of all candle fires were due to consumers 
leaving lighted candles unattended, placing candles too close to 
combustibles, or placing them within the reach of children and pets. 
These findings prompted the subcommittee to first address the need to 
warn consumers of these dangers, resulting in the ASTM F2058 cautionary 
labeling standard.
    However, no product safety standard--whether voluntary or 
mandatory--can significantly impact the majority of candle fires due to 
consumer inattention or carelessness. Only the education of consumers 
as to the proper burning of candles and observance of candle fire 
safety rules can have an impact in reducing these candle fires.
    The NCA has worked tirelessly and aggressively to educate consumers 
on the paramount importance of fire safety precautions when using 
candles. We have created and promoted literature stressing the 
importance of candle fire safety. We disseminate this literature to 
consumers through our members, non-member industry groups, retailers, 
and through fire, safety and consumer organizations around the country. 
Our website is well recognized for its outstanding candle safety 
information, and the media regularly directs consumers to the site for 
important safety advice.
    We have contacted national and regional fire groups, restaurant 
associations, hotel associations, retailers and others, providing them 
with information on the ASTM candle fire safety standards and 
encouraging them to join us in promoting candle fire safety. Currently 
we are working with fire and consumer groups to get our candle safety 
messages disseminated through the schools to students and their 
families.
    To reach as many consumers as possible, NCA regularly issues press 
releases and feature stories on candle safety to radio, television, 
print and the electronic media. In addition, we produce and annually 
distribute to television stations around the country a holiday season 
Video News Release on the importance of fire safety when using candles.
    As the voice of the U.S. candle industry, the NCA has been 
steadfast in its commitment to improving candle fire safety, not only 
through its active participation in the development of voluntary 
standards, and compliance with those standards, but in its ongoing 
consumer education and media outreach activities, its cooperative 
endeavors with fire and safety organizations, and its efforts to 
involve the entire U.S. candle industry and customers in a commitment 
to candle fire safety.
    The NCA objects to NASFM's petition for a mandatory candle product 
fire safety standard. There is no evidence to suggest that the CPSC 
should reject its mandate to rely on voluntary industry standards, and 
instead promulgate a mandatory one. The continued involvement of the 
industry in the development of voluntary candle product fire safety 
standards remains in the best interest of both the U.S. consumer and 
the candle industry.
            Sincerely,
                                         Robert A. Higgins,
                                                     NCA President.
                                 ______
                                 

                   NCA Standards & Education Outreach



                                     ...................................
-------------------------------Publishers-------------------------------
------------------------------------------------------------------------
Jeffery Woldt                        Lesley Castle
Vice President/Editorial Director    Publisher
Chain Drug Review                    National Fire & Rescue
220 Fifth Avenue                     5808 Faringdon Place
New York, NY 10001                   Suite 200
                                     Raleigh, NC 27609-3930
PJ. Lamont
Executive Director
CandleLighters
307 C Richmond Road
Suite 210
Ottawa, ON K1Z 6X3
------------------------------------------------------------------------
                       Fire Related Organizations
------------------------------------------------------------------------
Lawrence Rotondi                     Marko Bourne
Publisher                            Executive Assistant
Gifts &Decorative Accessories        U.S. Fire Administration
360 Park Avenue South                FEMA
New York, NY 10010                   500 C Street, SW
                                     Washington, DC 20472

PCortez Lawrence                     Robert Neale
Division Director                    Training Specialist
National Fire Administration         National Fire Programs Division
16828 S. Seton Avenue                U.S. Fire Administration
Emmitsburg, MD 21727                 16825 S. Seton Avenue
                                     Emmitsburg, MD 21727

Chief Adele Chiesa                   Kirby Kiefer
National Fire Data Center            Deputy Superintendent
U.S. Fire Administration             National Fire Academy
16825 S. Seton Avenue                U.S. Fire Administration
Emmitsburg, MD 21727                 16825 S. Seton Avenue
                                     Emmitsburg, MD 21727

Christine Branche                    Kevin Klein
Director--Div. Of Unintentional      Coloroado State Fire Chiefs'
 Injury Prevention                    Association
National Center for Injury           Executive Director
 Prevention & Control                1221 Pearl Street
CDC                                  Boulder, CO 80302
4770 Buford Highway, NE
Mailstop K63
Atlanta, GA 30341

Heather Schaefer                     Bob Waller
National Volunteer Fire Council      International Consumer & Product
Executive Director                    Safety Organization
1050 17th St., NW                    President
Washington, DC 20036-5503            PO Box 1785
                                     Germantown, MD 20875-1785

David Paulison                       Scott Adams
U.S. Fire Administration             First Vice President
16825 South Seton Avenue             International Fire Marshals Assoc.
Emmitsburg, MD 21727                  c/o NFPA
                                     1 Batterymarch Park
                                     Quincy, MA 02169
------------------------------------------------------------------------
                              Fire Marshals
------------------------------------------------------------------------
John Robinson                        Ray Carnahan
Alabama                              Arkansas/Office of Fire Marshal,
Fire Marshal                          State Police
Insurance Dept.135 S. Union Street   Commander
Room 140                             PO Box 5901
Montgomery, AL 36130-3352            Little Rock, AR 72215

Ronny Coleman                        Paul Cooke
California                           Colorado/Dept of Public Safety
Fire Marshal                         Director of Fire Safety
7171 Bowling Drive                   700 Kipling Street
Suite 600                            Lakewood, CO 80215
Sacramento, CA 95823

Willard Preston                      Donald Goff
Deleware                             Hillsborough County Fire Rescue
Fire Marshal                         President
Fire Service Center                  3210 S. 78th St
1537 Chestnut Grove Road             Tampa, FL 33619
Dover, DE 19904-9610

Chief William Dryburgh               Attilo Leonardi
Southeastern Div/Punta Gorda         Hawaii (Chair of State Fire
Chief                                 Council)
601 Shreve St, C-61                  State Fire Council Administrator
Punta Gorda, FL 33950                3375 Kaopaka Street, H425
                                     Honolulu, HI 98180

Mark Larson                          Tracy Flaherty
Idaho                                The Amercan Society of Safety
State Fire Marshal                    Engineers
Dept of Insurance                    Executive Director
700 W. State Street, 3rd Floor       Customer Service
Boise, ID 83720                      1800 E. Oakton Street
                                     Des Plaines, IL 60018

Gale Haag                            Vincent Bella
Kansas                               Louisiana
Fire Marshal                         Fire Marshal
700 SW Jackson                       Dept of Public Safety
Suite 600                            PO Box 94304
Topeka, KS 66603-3714                Baton Rouge, LA 70804

William Barnard                      John C. Dean
Maryland                             Maine
State Fire Marshal                   State Fire Marshal
Off. Of the State Fire Marshal       Dept of Public Safety
300 East Joppa Road                  52 State House Station
Suite 1002                           Augusta, ME 04333-0052
Towson, MD 21286-3020

Mark Dougovito                       Thomas Brace
Michigan                             Minnesota
Fire Marshal                         Fire Marshal
Dept of State Police                 444 Cedar Street
7150 Harris Drive                    Suite 100M
Lansing, MI 48913                    St. Paul, MN 55101-2149

Chief Rob Brown                      Terry Phillips
Missouri Valley Div./Boone County    Montana
 Fire                                Fire Marshal
President                            Fire Prevention & Investigation
Boone County Fire District            Bur.
2201 I-70 Drive NW                   Dept of Justice
Columbia, MO 65202                   PO Box 20147
                                     Helena, MT 59601

Raymond Lambert                      Donald Bliss
North Dakota                         New Hampshire
Fire Marshal                         Fire Marshal
General Office                       Div. Of Safety Services
PO Box 1054                          10 Hazen Drive
Bismarck, ND 58502                   Concord, NH 03305

Larry Wood                           George Chavez
New Jersey State Fire Chiefs         New Mexico
 Association                         Fire Marshal
President                            State Corp. Comm.
91-1/2 Ravine Avenue                 PO Box 1269
West Caldwell, NJ 07006              Sante Fe, NM 87505

Jerry Keating                        Lt. Al Bragg
Nevada Fire Chiefs Association       Akron Fire Department
Fire Marshal                         Fire Marshal
575 E. Flamingo Road                 161 Massillon Road
Las Vegas, NV 89119                  Akron, OH 44312

Randy Sellnow                        Tom Ratcliff
Great Lakes Division                 The Ohio Dept. of Commerce
Internation Association Fire Cheifs  Fire Administrator
President                            Division of State Fire Marshal
PO Box 397                           8895 East Main Street
Huron, OH 44839                      Reynoldsburg, OH 43068

Robert Garrison                      Daniel Dillard
Oregon                               Burn Prevention Foundation
Fire Marshal                         Executive Director
State Police                         5000 Tilghman
4760 Portland Road, NE               Suite 215
Salem, OR 97305-1760                 Allentown, PA 18104

Irving Owens                         Allen Christie
Rhode Island                         South Dakota
Fire Marshal                         State Fire Marshal
Div. Of State Fire Marshal           SD Dept. of Public Safety
272 W. Exchange Street               118 W. Capitol Avenue
Providence, RI 02903-1025            Pierre, SD 57501-2017

Chief Lynn Bizzell                   Gary Wise
Southwestern/Round Rock Fire Dept.   Fire Marshal
President                            Utah State Fire Marshal's Office
City Hall 221 East Main Street       5272 South College Drive, Suite 302
Round Rock, TX 78664                 Murray, UT 84123

Joe Scarlett                         Robert Howe
International Mass Retail            Vermont/Fire Prevention Division
 Association                         Chief Fire Prevention Officer
Chairman & CEO                       Dept. of Labor and Industry
1700 North Moore Street              National Life Building
Suite 2250                           Drawer 20
Arlington, VA 22209                  Montpelier, VT 05620

Carolyn Kelly                        Jim Noel
Wisconsin                            Wyoming
Fire Marshal                         Fire Marshal
Div. Of Criminal Investigation       Fire Prevention & Electrical Safety
Dept. of Justice, 123 W.             Herschuler Bldg., 1st Floor, W
 Washington, 7th Floor               122 W. 25th Street
PO Box 7857                          Cheyenne, WY 82002
Madison, WI 53703
------------------------------------------------------------------------
                         Restaurant Associations
------------------------------------------------------------------------
Kac'e McDowell                       John Dunlap III
Executive Director                   President & CEO
Alaska CHARR                         California Restaurant Association
1111 E 80th Avenue, Suite 3          1011 10th Street
Anchorage, AK 99518-3304             Sacramento, CA 95814-3501

Simon Flynn                          Carol Dover
President & CEO                      President & CEO
Connecticut Restaurant Association   Florida Restaurant Association
731 Hebron Avenue                    PO Box 1779
Glastonbury, CT 06033-2457           Tallahassee, FL 32302-1779

Michele Van Hessen                   John Livengood
President                            President & CEO
Hawaii Restaurant Association        Restaurant & Hospitality
1164 Bishop Street                    Association of Indiana
Suite 601                            200 S Meridian Street
Honolulu, HI 96813-2810              Suite 350
                                     Indianapolis, IN 46225-1055

Stacy Roof                           Dick Grotton
President & CEO                      President & CEO
The Kentucky Restaurant Association  Maine Restaurant Association
133 Evergreen Road, Suite 201        PO Box 5060
Louisville, KY 40243                 August, ME 04332-5060

Peter Christie, CAE                  Mike Chashion
President & CEO                      Executive Director
Massachusetts Restaurant             Mississippi Restaurant Association
 Association                         4506 Office Park Drive
333 Turnpike Road                    Jackson, MS 39206-6016
Southborough Techlology Park, Suite
 102
Southborough, MA 01772-1755

Brad Griffin                         Paul Hartgen
MTRA Execuitve Director              President & CEO
Montana Restaurant Association       New Hampshire Lodging & Restaurant
1537 Avenue D, Suite 320              Association.
Billings, MT 59102                   PO Box 1175
                                     Concord, NH 03302-1175

John Byrne                           Paul Stone
President                            President & CEO
New Jersey Restaurant Association    North Carolina Restaurant
126 W. State Street                   Association
Trenton, NJ 08608-1102               204 W. Millbrook Road
                                     Raleigh, NC 27609-4304

Shannon Moed                         Tom Sponseller
Communications Representative        President & CEO
Oklahoma Restaurant Association      Hospitality Association of South
3800 N. Portland                      Carolina
Oklahoma City, OK 73112              3612 Landmark Drive, Suite B
                                     Columbia, SC 29204-4039

Ronnie Hart                          Melva Sine
President & CEO                      President
Tennessee Restaurant Association     Utah Restaurant Association
PO Box 681207                        420 E. South Temple, Suite 355
Franklin, TN 37068-1207              Salt Lake City, UT 84111-1319

Ashton Mitchell, III                 Sharon Rowe
Executive Vice President             Chairman
Virginia Hospitality & Travel        WV Hospitality and Travel
 Association                          Association
2101 Libbie Avenue                   The Greenbrier
Richmond, VA 23230-2621              300 West Main Street
                                     White Sulphur Springs, WV 24986

Lynn Birleffi
Executive Director
Wyoming Lodging & Restaurant
 Association
PO Box 1003
Cheyenne, WY 82003-1003
------------------------------------------------------------------------
                           Hotel Associations
------------------------------------------------------------------------
Nancy Hendershot                     Pamela Embery
Alabama Hospitality Association      Arizona Hotel & Lodging Association
61-B Market Place                    1240 E. Missouri Avenue
Montgomery, AL 36117                 Phoenix, AZ 85014

James Abrams                         Thomas Wilks
California Hotel & Lodging           Connecticut Lodging Association
 Association                         731 Hebron Avenue
414 29th Street                      Glastonbury, CT 06033
Sacramento, CA 95814

Liz DeBarros                         Stacy Connerty
Hotel Association of Washington, DC  Georgia Hospitality & Travel
1201 New York Avenue NW               Association
Suite 601                            600 W. Peachtree Street
Washington, DC 20005                 Suite 1500
                                     Atlanta, GA 30308

Monica Wodke                         Shellie Petek
Illinois Hotel & Lodging             Iowa Lodging Association
 Association                         9001 Hickman, Suite 220
27 E. Monroe Street, Suite 1200      Des Moines, IA 50322
Chicago, IL 60603

William Langkopp                     Mary Jo McCulloch
Louisiana Hotel & Lodging            Maryland Hotel & Lodging
 Association                          Association
203 Carondelet Street, Suite 415     584 Bellerive Drive, Suite 3-D
New Orleans, LA 70130                Annapolis, MD 21401

Steven Yencich, CAE                  Rosalie Bealer
Michigan Hotel, Motel & Resort       Missouri Hotel & Lodging
 Association                          Association
225 W. Washtenaw, Suite 202          330B E. High Street
Lansing, MI 48933                    Jefferson City, MO 65101

Robert Anderson                      Janet Casey
Nebraska Hotel & Motel Association   New Hampshire Lodging & Restaurant
111 Lincoln Mall                      Association
Suite 303                            14 Dixon Avenue
Lincoln, NE 68508                    Concord, NH 03302

Art Bouffard                         Lisa Bombard
New Mexico Lodging Association       New York State Hospitality &
811 St. Michael's Drive, Suite 107    Tourism Association
Santa Fe, NM 87505                   11 North Pearl Street, 11th Floor
                                     Albany, NY 12207

Keith Stephenson                     Phil Peach
Ohio Hotel & Lodging Association     Oregon Lodging Association
692 N. High, Suite 212               12724 SE Stark Street
Columbus, OH 43215                   Portland, OR 97233

James Purdum                         Douglas O'Flaherty
Penn State Hospitality Services      Hospitality Association of South
215 Innovation Boulevard              Carolina
State College, PA 16803              3612 Landmark Drive
                                     Columbia, SC 29204

Vail Ross                            Ann Gambrino
Tennessee Hotel & Lodging            Utah Hotel & Lodging Association
 Association                         9 Exchange Place, Suite 812
644 West Iris Drive                  Salt Lake City, UT 84111
Nashville, TN 37204

Ken Britt                            Jackie Bragg
Virginia Hospitality & Travel        West Virginia Hospitality & Travel
 Association                          Association
2101 Libbie Avenue                   PO Box 2391
Richmond, VA 23230                   Charleston, WV 25328

Lynn Birleffi
Wyoming Lodging & Restaurant
 Association
211 West 19th Street, Suite 201
Cheyenne, WY 82001
------------------------------------------------------------------------
                                Retailers
------------------------------------------------------------------------
Charles Rath                         Stonie O'Briant
Executive Vice President             Executive Vice President
Value City Department Stores, Inc    Operations
3241 Westerville Road                Dollar General Corporation
Columbus, OH 73224                   100 Mission Road
                                     Goodlettsville, TN 37072

Stephen Gartner                      Troy Rice
Senior Vice President                Senior Vice President
Supply Chain Management              Operations
Michaels Stores, Inc.                The Home Depot, Inc.
8000 Bent Branch Drive               2455 Paces Ferry Road
Irving, TX 75063                     Atlanta, GA 30339

David Marsico                        Doug McMillon
Senior Vice President                Executive Vice President
Store Operations                     Merchandising
Kmart Corporation                    Sam's Club
3100 W. Big Beaver Road              Wal-Mart Stores, Inc.
Troy, MI 48084                       702 SW Eighth Street
                                     Bentonville, AR 72716

George Eilers                        Thomas Ketteler
Senior Vice President                Chief Operating Officer
Drug Store Operations                Schottenstein Stores Corporation
Walgreen Co.                         1800 Moler Road
200 Wilmot Road                      Columbus, OH 43207
Deerfield, IL 60015

Bart Butzer                          Nathan Garvis
Executive Vice President             Vice President
Stores                               Government Affairs
Target Corporation                   Target Corporation
1000 Nicollet Mall                   1000 Nicollet Mall
Minneapolis, MN 55403                Minneapolis, MN 55403

Vanessa Castagna                     Dennis Knapp
Executive Vice President             Senior Vice President
J.C. Penny Corporation, Inc          Merchandising--Non Foods
6501 Legacy Drive                    Costco
Plano, TX 75024                      999 Lake Drive
                                     Issaquah, WA 98027

Janet Grove                          Mark Panzer
Vice Chair                           Senior Vice President
Federated Department Stores, Inc.    Store Operations
151 W. 34th Street                   Rite Aid Corporation
New York, NY 10001                   30 Hunter Lane
                                     Camp Hill, PA 17011
Wilson Lester, Jr.                   William Goddard
Senior Vice President                Risk Management Insurance
Supply Chain                         May Department Stores
Rite Aid Corporation                 611 Olive Street
30 Hunter Lane                       St. Louis, MO 63101
Camp Hill, PA 17011
------------------------------------------------------------------------
                           Retail Associations
------------------------------------------------------------------------
Sandy Kennedy                        Tracy Mullin
President                            President & CEO
International Mass Retail            National Retail Federation
 Association                         325 7th Street, NW
1700 North Moore Street              Suite 1100
Suite 2250                           Washington, DC 20004
Arlington, VA 22209
Moe Cain
International Mass Retail
 Association
Chairman & CEO
700 North Moore Street
Suite 2250
Arlington, VA 22209


                                 ______
                                 
                                National Candle Association
                                      Washington, DC, June 16, 2003
Dear:

    As you know, candle fires have been on the increase, spurred by a 
dramatic growth in their popularity with consumers. The National Candle 
Association (NCA) is working aggressively to reduce the incidence of 
candle fires through the development of fire-safety standards, 
technical innovation and educational outreach.
    The purpose of this letter is two-fold: to brief you on the 
pioneering ASTM candle-safety standards advanced by NCA, and to 
encourage you to join us in educating the public on candle-fire 
prevention.
    Candle fires now account for approximately four percent of all 
residential fires in the U.S. In 1999, the most recent year for which 
statistics are available, some 15,000 residential candle fires were 
reported. As candle sales skyrocketed by some 300 percent during the 
1990s, residential candle fires increased 175 percent.
    When this increase in candle fires became apparent in the late 
1990s, the U.S. Consumer Product Safety Commission (CPSC) asked NCA to 
spearhead an ASTM subcommittee on candle products as a means of 
developing consensus standards to improve candle safety. Since 2000, 
three far-reaching candle fire-safety standards have been published 
through ASTM (a fourth standard for terminology was published in 1999).
    The first ASTM fire-safety standard--F2058--was published in 2000, 
and calls for the cautionary labeling of all candles. The impetus for 
the standard was an analysis of NFIRS data showing that nearly 85 
percent of candle fires were attributable to unattended candles, 
candles placed too close to combustibles, and the accidental actions of 
children and pets. Working from this data, the consumer cautions now 
appearing on all candles or candle packaging were incorporated into the 
standard:

        Always keep a burning candle within sight.

        Never burn a candle on or near anything that can catch fire.

        Keep candles out of the reach of children and pets.

    The second ASTM candle safety standard--F2179--was developed to 
address concerns over candle fires caused by broken or shattered glass 
candle containers. Drawing from the technical expertise of NCA-member 
glass and candle manufacturers, the 2002 standard requires that glass 
containers for candle use:

        Are properly annealed (true temper grade of 4 or less; or 
        scratch-test equivalent)

        Able to withstand a 90 +F thermal shock differential

    Unquestionably the most technically advanced candle fire-safety 
standard is ASTM PS 59. Published in late 2002 as a provisional 
standard, it introduces several far-reaching fire prevention measures 
into the manufacturing and design of candles. Specifically, it requires 
that

        The maximum flame height on a candle shall not exceed 3.0 
        inches.

        A candle placed on an incline of 10 degrees shall not tip over.

        A candle shall not support ignition at points other than the 
        intended wick or wicks.

    When a container candle reaches the end of its useful life:

        --the container shall not break,

        --the candle must not exhibit excessive flame height,

        --the candle must not exhibit secondary ignition, and

        --the flame must go out.

    Because ASTM PS59 was developed as a fast-track provisional 
standard, the industry is now testing and working to refine the 
standard's requirements, as well as investigating the potential for 
expanding the end-of-useful life requirements beyond container candles 
to other types of candles. The provisional candle-fire safety standard 
is expected to be balloted as a full consensus standard by the spring 
of 2004.
    The development and acceptance of candle fire-safety standards in 
just three years is a notable achievement, and underscores NCA support 
for voluntary consensus standards as the most effective means of 
rapidly introducing industry-wide product safety changes into the 
marketplace. We also believe our success in working with the CPSC to 
develop safety standards that meet industry's technical capabilities as 
well as the Commission's policy objectives further reinforces the value 
of the Federal preference for a public-private partnership approach to 
standards development.
    Unfortunately, however, candle fire-safety standards are not 
enough. Consumer disregard of the potential dangers of an open flame 
still remains the primary cause of residential candle fires.
    Educating the public about candle safety is a top priority of the 
National Candle Association. In recent years, NCA has devoted a 
significant portion of its resources to building public awareness of 
candle safety. We regularly disseminate press releases, feature 
articles, video news releases and informational materials focusing on 
fire safety and the proper burning of candles. In addition, a large 
portion of our website--www.candles.org--is devoted to providing 
consumers with information on candle safety and fire prevention.
    Recently we developed a brochure on candle use and fire safety 
(enclosed), which we hope to distribute as widely as possible to 
further educate consumers on the safe use of candles. I invite you to 
consider distributing this brochure to your constituent publics as 
well, or adding its contents to your website. We are able to offer 100 
copies of the brochure at no charge to fire groups upon request. For 
larger quantities, we are charging a minimal amount to cover printing 
and mailing costs.
    Over the next few months, NCA hopes to further broaden its public 
education campaign through the development of cooperative efforts with 
the Nation's fire community. We are extremely interested in developing 
new avenues for disseminating candle-fire safety information to 
consumers, and in further pinpointing the human factors behind 
residential candle fires. Given your knowledge of fire safety and our 
expertise in candles, I am confident we can combine forces in some way 
to reduce the incidence of residential candle fires.
    I look forward to hearing from you.
            Respectfully,
                                                Bob Nelson,
                                                         President.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                National Candle Association
North Carolina Department of Insurance
Office of State Fire Marshal

Dear Parent,

    Every year, approximately 15,000 residential fires are caused by 
the careless or inappropriate use of candles. Please protect your home 
and family from a possible candle fire.
    The North Carolina Office of the State Fire Marshal and the 
National Candle Association ask that you spend a few minutes reviewing 
the following basic rules of candle fire safety with your family . . . 
and then put them into practice in your home.

  <bullet> Always keeps a burning candle within sight.

  <bullet> Never leave a burning candle unattended.

  <bullet> Never burn a candle on or near anything that can catch fire.

  <bullet> Keep candles out of reach of children and pets.

    Although the popularity of candles has grown dramatically in recent 
years, many consumers are unaware of the proper procedures for burning 
a candle. The National Candle Association urges to you keep the 
following safety precautions in mind when burning candles.

  <bullet> Always use a fire-resistant candleholder, and place 
        candleholders on a stable, heat-resistant surface.

  <bullet> Keep burning candles away from drafts.

  <bullet> Always read and follow the manufacturer's use and safety 
        instructions.

  <bullet> Never touch or move a burning candle or when the wax is 
        liquid.

  <bullet> Burn candles in a well-ventilated room.

  <bullet> Keep the wax pool free of wick trimmings, matches and debris 
        at all times.

  <bullet> Extinguish any candle if it smokes, flickers repeatedly, or 
        the flame becomes too high. Cool, trim wick, check for drafts, 
        and re-light.

  <bullet> Do not allow the flame to come too close to the holder or 
        container.

  <bullet> For a margin of safety, discontinue burning a candle when 2 
        inches of wax remains (\1/2\" if in a container).

    For more information about candle safety, visit www.candles.org

    Senator Smith. Thank you very much, Bob. We thank you for 
your testimony.
    And now, I'll call on Mr. Al Klancnik. Is that how you 
pronounce it?
    Mr. Klancnik. Mr. Chairman, you did a fine job with my 
name. It's difficult, but you did great.
    Senator Smith. Thank you.

  STATEMENT OF AL KLANCNIK, GROUP VICE PRESIDENT, SERTA, INC.

    Mr. Klancnik. Mr. Chairman and Honorable Members of the 
Committee, my name is Al Klancnik, of Serta, Incorporated. I am 
here today to speak about open-flame resistant mattresses, the 
complexity of bedroom fire safety, and the science-based 
testing standard that exists today for mattress regulation.
    For reference, Serta is the second-largest mattress 
manufacturer out of 700, with annual sales of $742 million. We 
are based in Itasca, Illinois, and have 26 factories across the 
country. Serta is the only national manufacturer that has 
voluntarily converted to open-flame resistant mattresses. This 
is more than one year in advance of the upcoming open-flame 
regulation for mattresses and box springs in California. We 
have done this because we believe we have a responsibility to 
offer safer mattresses as soon as possible.
    Since last October, when we began introducing our open- 
flame-resistant products, we have sold approximately two 
million safer mattresses and box springs to consumers across 
the country. When you look at statistics published by the U.S. 
Fire Administration, the Consumer Product Safety Commission, 
and the National Fire Protection Association, you see there is 
a real need for safer mattresses. In the United States alone, 
approximately two people die in bedroom fires every day, a 
statistic that we can change now by implementing science-based 
regulations on a Federal level.
    I have dedicated my career to pursing safety advancements 
in mattress flammability. I have been involved in the 
development of cigarette ignition and fire-resistant mattresses 
and testing standards for the past 30 years. During that time, 
I have worked to develop open-flame testing protocols with the 
CPSC, the National Institute for Standards and Technology, the 
Sleep Products Safety Council, and the California Bureau of 
Home Furnishings and Thermal Insulation.
    With the involvement of this country's preeminent fire-
resistance experts, we developed an open-flame testing protocol 
that accurately replicates the impact of bedclothing fires on a 
mattress. The burners for this test were developed by NIST to 
provide consistent conditions under which these tests are 
performed and documented. The protocol was ultimately used by 
California in Technical Bulletin 603.
    During this process, we found that a 30-minute test with a 
200-kilowatt heat threshold had sound scientific data to 
support the test, and was obtainable and replicable by 
manufacturers. More importantly, it will result in products 
that provide the critical time people need to detect and escape 
from a bedroom fire. This point is underscored by NIST research 
into human behavior during bedroom fires.
    We also explored tests with time intervals up to 60 minutes 
and with lower heat thresholds, but found no scientific data 
that demonstrated a longer test duration would result in 
improved life safety. In fact, the materials we would use to 
meet a 60-minute test are more than triple the cost of our 
current safety components. They also make the products 
extremely uncomfortable. And if mattresses are unappealing to 
consumers, and are priced so they cannot afford them, then the 
standard is not viable on a mass-market scale. As a result, 
safer mattresses getting into homes would be delayed, and more 
lives would ultimately be lost.
    By moving forward, Serta has demonstrated that the 
technology exists to manufacture and market mattresses that can 
help save lives today. We have a standard that is acceptable to 
both industry and government. And, at Serta, we have proven 
that the standard included in California's Technical Bulletin 
603 is viable.
    But I should point out that safer mattresses are only the 
first step in addressing the overall issue of bedroom fire 
safety. NIST, the Sleep Product Safety Council, and the 
California Bureau have all recommended that mattresses and 
bedclothes should be regulated together in order to achieve the 
greatest safety advancement.
    Mr. Chairman, we encourage this Committee to allow the CPSC 
to adopt the final published standards in California's TB 603 
as a Federal mattress open-flame regulation. But, in addition, 
if the intent of this Committee is to save lives, other steps 
must also be taken. Bedclothing, or top-of-bed accessories, 
which have been proven time and again to be the first items to 
ignite in a bedroom fire, must also be safer. Regulating 
mattresses without also regulating bedclothes is only achieving 
half the safety equation.
    Thank you for the opportunity to speak today. I'll be happy 
to answer any questions you have.
    [The prepared statement of Mr. Klancnik follows:]

  Prepared Statement of Al Klancnik, Group Vice President, Serta, Inc.
    Mr. Chairman, and honorable members of the Committee. My name is Al 
Klancnik of Serta, Incorporated. I am here today to speak about open-
flame resistant mattresses, the complexity of bedroom fire safety, and 
the science-based testing standard that exists today for mattress 
regulation.
    For reference, Serta is the second-largest mattress manufacturer 
out of 700 with annual sales of $742 million. We are based in Itasca, 
Illinois, and have 26 plants across the country.
    Serta is the only national manufacturer that has voluntarily 
converted to open-flame resistant mattresses. This is more than one 
year in advance of the upcoming open-flame regulation for mattresses 
and box springs in California. We have done this because we believe we 
have a responsibility to offer safer mattresses as soon as possible.
    Since last October when we began introducing our open-flame 
resistant products, we have sold approximately two million safer 
mattresses and box springs to consumers across the country.
    When you look at statistics published by the U.S. Fire 
Administration, the Consumer Products Safety Commission and the 
National Fire Protection Agency, you see that there is a real need for 
safer mattresses. In the United States alone, two people die in bedroom 
fires every day, a statistic that we can change now by implementing 
science-based regulations on a Federal level.
    I have dedicated my career to pursuing safety advancements in 
mattress flammability. I have been involved in the development of 
cigarette-ignition and fire-resistant mattresses and testing standards 
for the past 30 years.
    During that time, I have worked to develop open-flame testing 
protocols with the CPSC, the National Institute for Standards and 
Technology, the Sleep Products Safety Council, and the California 
Bureau of Home Furnishings and Insulation.
    With the involvement of this country's preeminent fire-resistance 
experts, we developed an open-flame testing protocol that accurately 
replicates the impact of a bedclothes fire on a mattress. The burners 
for this test were developed by NIST to provide consistent conditions 
under which these tests are performed and documented. The protocol was 
ultimately used by California in TB 603.
    During this process, we found that a 30-minute test with a 200-
kilowatt heat threshold had sound scientific data to support that the 
test was attainable and replicable by manufacturers. More importantly, 
it will result in products that provide the critical time people need 
to detect and escape from a bedroom fire. This point is underscored by 
NIST's research into human behaviors during bedroom fires.
    We also explored tests with time intervals up to 60 minutes and 
with lower heat thresholds, but found no scientific data that 
demonstrated a longer test duration would result in improved life 
safety.
    In fact, the materials we would use to meet a 60-minute test are 
more than triple the cost of our current safety components. They also 
make the products extremely uncomfortable. If mattresses are 
unappealing to consumers and are priced so that they cannot afford 
them, then the standard is not viable on a mass-market scale. As a 
result, safer mattresses getting into homes would be delayed and more 
lives would ultimately be lost.
    By moving forward, Serta has demonstrated the technology exists to 
manufacture and market mattresses that can help to save lives today. We 
have a standard that is acceptable to both industry and government. And 
at Serta, we have proven that the standard included in California's TB 
603 is viable. But I should point out that safer mattresses are only 
the first step in addressing the overall issue of bedroom fire safety. 
NIST, the CPSC and the California Bureau have all recommended that 
mattresses and bedclothes should be regulated together in order to 
achieve the greatest safety advancement.
    Mr. Chairman, we encourage this Committee to allow the CPSC to 
adopt the final, published standards in California's TB 603 as a 
Federal mattress open-flame regulation. But in addition, if the intent 
of this Committee is to save lives, other steps must also be taken. 
Bedclothes, which have been proven time and again to be the first items 
to ignite in a bedroom fire, must also be safer. Regulating mattresses 
without also regulating bedclothes is only achieving half of the safety 
equation.
    Thank you for the opportunity to speak today. I am happy to answer 
any questions you have.

    Senator Smith. Thank you very much for your testimony.
    And my first question goes to Bob Higgins. I'm going to 
create a fight between--Bob, between you and Mr. Dean here.
    [Laughter.]
    Senator Smith. Rhetorically only. But, Mr. Dean indicates 
in his testimony that the standards cited in S. 1798 were 
developed largely by your industry, with input from NASFM. He 
further claims that your industry has, quote, ``not moved 
forward with proposals to implement effective voluntary 
standards.'' To the contrary, you indicated in your testimony 
that your industry has moved rapidly in developing candle 
safety standards in the past. Do you wish to specifically 
respond to his testimony and explain to the Committee the 
reasons for the differences in your testimony? And then I'll 
ask Mr. Dean the same thing.
    Mr. Higgins. Well, we'd be more than glad to work with the 
fire marshals to try to finalize, in their opinion, what needs 
to be done to have effective voluntary standards. In our minds, 
the industry is in compliance and we are improving the 
situation, and we plan on continuing to improve the fire 
standards.
    Senator Smith. Thank you.
    Mr. Dean?
    Mr. Dean. Well, to this point, there has not been a real 
concerted effort to manage the producers' conformance. But by 
having a voluntary standard, they may or may not comply with 
it. It also speaks to the issue of imported products. With a 
voluntary standard, there's no protection there at all. 
Anything can be imported, and, since the standard is voluntary, 
there would be no recourse.
    Senator Smith. Do you have any reason to believe that stuff 
being produced outside the country comes in without meeting 
U.S. safety standards? Are you seeing that?
    Mr. Dean. I can't say for certain, but I would assume, 
since there is no mandatory standard, they are made to whatever 
standard they wish to make.
    Mr. Higgins. Industry regulates that, sir, by itself. By 
educating the retailers in the awareness of fire safety, the 
retailers are demanding safe fire candles.
    Senator Smith. So the marketplace is working, in your 
view----
    Mr. Higgins. That's right.
    Senator Smith.--in that regard. And----
    Mr. Higgins. And they're regulating the imports, as well--
--
    Senator Smith. Retailers----
    Mr. Higgins.--for the same reason.
    Senator Smith. In your view, retailers won't buy from 
someone who doesn't meet the safety standards from----
    Mr. Higgins. That's correct. They're----
    Senator Smith. Domestic or foreign.
    Mr. Higgins.--they're using independent testing labs to 
develop their own tests and test candles.
    Mr. Dean. May I?
    Senator Smith. Yes, please.
    Mr. Dean. Whatever is being done now, it obviously is not 
working, because we're seeing a dramatic increase in candle 
fires everywhere. So it--whatever is happening now----
    Mr. Higgins. I haven't seen those statistics, sir.
    Senator Smith. Hmm?
    Mr. Higgins. I haven't seen those statistics.
    Mr. Dean. We certainly have seen it in the fire service.
    Senator Smith. We'll get you all together after--and figure 
out whose----
    Mr. Higgins. That would be a good idea.
    Senator Smith.--whose statistics are accurate.
    I mean, it's a very, very serious issue, and I'm not trying 
to really pick a fight, but I am trying to point out that I'm 
hearing two different messages--they're working, they're not. 
Which is it?
    Andy Counts, we've heard about the issue of retailers, and 
I guess this raises my question. How seriously does your 
industry view the threat of flame-retardant toxicity? And 
should chemicals used in flame-retardant backing prove harmful 
to consumers, who would be liable for the damages--the 
manufacturer, the retailer, or both?
    Mr. Counts. Well, it's a very, very big concern for 
furniture manufacturers, and one of the reasons this process 
has taken so long was a study that was done by the National 
Academy of Sciences to identify that many of the chemicals that 
we have been utilizing in our furniture in the past, and would 
be forced to use in the future, are, in fact, harmful to human 
health and the environment.
    We are working very closely with EPA, working very closely 
with producers of chemicals to find alternatives. We're 
confident that that will take place. We're confident that there 
will be alternatives out there for us to use. It's just going 
to take a little time to make sure those tests are done and 
that the chemical industry gets their production up to where it 
needs to be on those particular chemicals.
    From a liability standpoint, we're not sure where that 
would stand when--if the regulation came through, if we would 
be held responsible if we had a TRISS- or PCB-type situation.
    Senator Smith. Are you aware of any litigation in the 
country that has made that judgment between retailers and 
manufacturers as to liability, in terms of toxicity of flame 
retardants?
    Mr. Counts. I guess you can look at the asbestos situation, 
you can look at some of the other situations and see that they 
come back to the manufacturer in a lot of cases, from a 
liability standpoint.
    Senator Smith. So you have a real interest in making sure 
that whatever flame retardants there are, that they don't have 
collateral damaging effects.
    Mr. Counts. That's correct.
    Senator Smith. Bob Higgins, I'm going to turn you over to 
Senator Hollings. I understand that you don't want to be in his 
bill.
    And so, with that, Senator Hollings?
    Senator Hollings. Well, Mr. Counts, you're not recommending 
asbestos furniture.
    [Laughter.]
    Mr. Counts. No, sir. I was just using that as an example of 
where liability is concerned.----
    Senator Hollings: Well, that's an example that doesn't 
apply to you whatever, I hope. I mean, good God, we have 
learned about asbestos.
    Mr. Counts. It applies----
    Senator Hollings. And I would hope you wouldn't be making 
asbestos furniture.
    [Laughter.]
    Mr. Counts. To my knowledge, no one's making asbestos 
furniture.
    Senator Hollings. As an example? Come on. You're better 
representatives of the furniture industry. Isn't Serta a member 
of your organization?
    Mr. Counts. No, sir.
    Senator Hollings. You all haven't--Serta hasn't joined the 
American Furniture Manufacturers Association? Well, what's the 
matter, Mr. Klancnik?
    Mr. Klancnik. The mattress industry has its own trade 
association, known as the International Sleep Products 
Association.
    Senator Hollings. Yes.
    Mr. Klancnik. And that is separate from AFMA.
    Senator Hollings. Well, your observations about the 30-
minute test, and the distinguished Chairman's opening remarks 
about ``the perfect'' not being the enemy of ``the good''; 
therein, I think, is the answer with respect to at least the 
30-minute test. Now, the fire marshals, they all want a 60-
minute, because it takes that long to get to the fire. On an 
average, it's over 45 minutes. But the 30 minutes, at least, is 
a good. You're manufacturing it, you're endorsing it. You're 
the manufacturer, you've gone through all the cost-benefit and 
sale-ability and the marketability, and everything else of that 
kind.
    So, Chairman Stratton, who's still listening, that's why 
we've got the Consumer Product Safety Commission. You don't 
have to wait til it gets to a crisis, like this, where we've 
got a dozen cosponsors, bipartisan, and everything else like 
that. The idea is to be realistic. And with the Safety 
Commission, Chairman Stratton, that you can do just that, 
listen to the needs of the industry, the leaders, like Serta. 
You said--you look pretty good. You slept on a Serta last 
night?
    Senator Smith. I did, yes.
    [Laughter.]
    Senator Hollings. I think he'd be a good model for it. I 
tell you that right now.
    Senator Smith. I come cheap, too.
    Senator Hollings. Yes.
    [Laughter.]
    Senator Hollings. But, in all candor, that's--at least we 
ought to get that. I understand the fire marshals' concern, but 
that would be ``the perfect,'' perhaps. But here ``the good'' 
that--Mr. Klancnik, that you have attested to. Don't you think 
that can be done?
    Mr. Klancnik. I agree with you wholeheartedly. That's why 
Serta has taken the voluntary action of starting--meeting 
California TB 603 and saving lives, starting last October. We 
really wish more people would do that. I can tell you that, 
economically, we are still selling our mattresses at all of the 
price points, we're saving the lives, and our sales are 
actually up. So the 30-minute standard, TB 603, is truly a 
viable life-safety standard, and we're meeting it.
    Senator Hollings. And it wouldn't, Mr. Counts, put the 
furniture industry out of business. Now, what's putting you out 
of business is what's--I'm glad to see Mr. Chapman is still 
here, because I started with his grandfather, in 1960. And, at 
that time, the testimony, Mr. Chairman, it was 10 percent of 
the clothing or textiles consumed in America would be 
represented in imports. And if it got up to 10 percent, it 
would decimate the industry, you just wouldn't be able to get 
clothing in the country anymore. At least that's what I was 
testifying to. Incidentally, Tom Dewey ran me around the room 
in 1960.
    So we lost that case before the old International Tariff 
Commission. We went over to Jerry Persons, who was the chief of 
staff for Eisenhower. He said, ``Oh, you'll win it. Don't worry 
about it.'' And we talked to President Eisenhower. He said, 
``Don't worry about it.'' But, in any event, when we lost, then 
I went to my friend, Jack Kennedy, and he set up the hearings, 
and he promulgated the seven-point program. And Mr. Jim 
Chapman, the chairman, was there.
    Our textile industry, the thing about globalization--you've 
got to get with globalization--the inference is that you're 
just not competitive, you just don't understand, ``You old 
fuddy-duddy, you don't want to compete, you don't want to face 
reality,'' and that kind of nonsense. The truth is, the textile 
industry has been the most competitive. But before you can open 
up Chapman Mills, or, now, Mr. Counts' furniture--because I'm 
very close to the Furniture Mart in High Point----
    Mr. Counts. Yes, sir.
    Senator Hollings. I know it well. And, in fact, one of the 
chairmans of the board--I don't have to involve him--of the 
largest in High Point, North Carolina, met me on the Isle of 
Palms not too long ago on the beach. He said 50 percent of the 
furniture consumed now in the United States was coming out of 
China, all that Rooms To Go and everything else like that. So 
you're facing the same thing we did, first from Japan, then 
from Malaysia, then from Korea, and then from Mexico, and now 
from China. And you can see what Inman Mills, Mr. Chapman's 
group, why, they're trying to face the competition and find a 
niche and at least go to the most advanced product--namely, the 
safest, and everything else like that--making the materials. 
And here is a leader, Serta, selling it. I mean, they're using 
it. So it's a success. You don't have to worry about the 
benefit. Here's Serta saying it's a wonderful benefit, and 
we're selling it, and the Chairman's sleeping on it. I mean, 
how're you going to beat that?
    [Laughter.]
    Mr. Counts. If I could make a clarification----
    Senator Hollings. Yes, sir.
    Mr. Counts.--mattress and furniture are two separate 
things. The mattress standard, California 603, is an actual 
standard that's been put in place by California. It's a proven 
standard that's based on real science, real test methods. 
California 117, which applies to furniture, is not proven. It 
has not been finalized by California, and they have no plans to 
finalize it.
    The product that's made by Inman Mills applies to 
mattresses and not to furniture. TB 117 does not allow for 
Inman Mills product to be utilized in furniture. It requires 
you to treat the fabric. It requires you to treat the foam. It 
doesn't allow you to use the interliner option that we're in 
favor of. And that's the proposal that we put forward to the 
CPSC, and that's the proposal that we would like to see bring 
safer furniture to the market.
    The Senate Bill 1798, which includes 603 for mattresses, is 
very different when it comes to 117 for furniture.
    Senator Hollings. Well, again, as Mr. Klancnik attested, 
it's got to be a comprehensive approach. There's no use to do 
the mattress if you don't do the bedding clothes and everything 
else related.
    Mr. Chapman, do you want to comment with respect to Mr. 
Counts' observation?
    Mr. Chapman. Well, we have done very little work in the 
furniture side of the business. Most of ours has been 
concentrated in the mattresses. And we can pass either the 30- 
or the 60-minute test with ours. We don't prefer or oppose 
either one. We just--we want a national standard so we can move 
forward and sell product, the niche products that you referred 
to.
    Senator Hollings. Isn't the standard just a matter of 
introducing the bill, talking to the fellow Senators, certainly 
listening to the experts and the authorities and the experience 
of producers and everything else, like some of the witnesses 
here? It's better handled at the Consumer Product Safety 
Commission level, Mr. Chairman, but unless they move, we're 
going to have to continue to move.
    Senator Smith. Senator Hollings, when you said that you 
were a friend of Jack Kennedy's, I was afraid you were going to 
notice, I'm no Jack Kennedy.
    [Laughter.]
    Senator Hollings. You're better looking than Jack Kennedy. 
Yessirree.
    [Laughter.]
    Senator Smith. Anyway.
    Senator Hollings. There you go.
    [Laughter.]
    Senator Smith. I think----
    Senator Hollings. That's the first time I've complimented a 
Republican.
    [Laughter.]
    Senator Smith. Well, I'll tell you, when Senator Hollings 
leaves the Senate, the Senate will lose one of its greatest 
personalities and one of its greatest human beings. And so it's 
a high privilege for me to--my daddy worked for Eisenhower, and 
so I'm talking to a man who was a friend to those men, and it's 
a--when you work with Senator Hollings, you're sometimes 
feeling like you're touching the hem of history.
    Senator Hollings. No, it's not that. You're too kind. But, 
no, we've been in it a long time, and you've seen it, and now 
it's--that's not the actual product. That's what you've got to 
wake up America into the production.
    If anybody wants to read a very interesting book, they 
ought to read about Hamilton. In fact, Hamilton has become more 
my hero than John C. Calhoun, from South Carolina. And, 
incidentally, I'm seated at John C. Calhoun's Senate desk right 
this minute. But he built up the bricks, absolutely forbad 
manufacture. In fact, if they had, out at that old Arkwright 
plant, up in the Scotland area, which was the best, if any of 
those personnel left, they followed the personnel to make sure 
they didn't take the technology with them and teach the 
colonists how to produce, and that kind of thing. So the first 
order of business was to try to develop a manufacturing 
capacity. That's Hamilton's famous report on manufacturers. And 
that's what built up this economic giant.
    And the best impression I had, going down with my friend 
Bob Dole to see the World War II Veterans Memorial--
incidentally, the wind was blowing, and the fountains were 
going all over us, and everything else, and we renamed it 
Viagra Falls.
    [Laughter.]
    Senator Hollings. But you see, on the right-hand side going 
in, an observation by President Roosevelt in 1942 thanking 
Rosie the Riveter. We started in Africa, and, 3 years later, 
ended up in--first, in Austria at the end of that war, and 
there was no question that Rosie the Riveter was as important 
as any element. And it was the productivity and everything 
else.
    And that's what disturbs this Senator as he leaves, is that 
we're not competing. Everybody is for free trade, just like 
everybody's for world peace. How do you attain world peace? 
Well, the old saying, the best way to prepare for peace is 
prepare for war, and the best way to, by gosh, get to free 
trade is to compete. To a barrier, you raise a barrier, and 
then remove them both. But we've been rolling over dead for 50 
years, given up our production in order for capitalism to 
defeat communism in the cold war, and it's worked, with 
Marshall Plan and everything else, and we're proud of it. But 
now is the time to start rebuilding, and these gentlemen here, 
here's another standard of living.
    I vote for the Australia Free Trade Agreement, because 
we've got relatively the same standard of living. The same with 
Canada, we've got the same standard. Uh-uh, not Mexico. Like 
old Moynihan, I can see him standing in the well, ``They've got 
to develop a free market before they get free trade.'' And 
there's your problem.
    Here, we're going to--so the American standard of living--I 
was very cautious in putting this bill in, in talking to the 
cosponsors, for the simple reason that we've got to get to that 
cost benefit and make sure we're not putting ourselves out of 
business, internationally or globally. That's the main concern, 
and that's why, Chairman Stratton, I'm glad you're still here 
and can listen to this exchange here, because the Chairman and 
the witnesses have raised important considerations, and I wish 
you'd study this testimony, and you can see where we're headed. 
We need it. It's been 20 years Consumer Product Safety 
Commission's been studying, and you made findings and found 
out--your word was--well, you said, ``a top priority,'' back--
that was 6 years ago.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Hollings. I think, to sum 
up your point, perhaps S. 1798 won't be as necessary if, in 
fact, the Commission does its work.
    Senator Hollings. Yes.
    Senator Smith. And you were saying that that's where the 
issue is best resolved.
    So, with that, ladies and gentlemen, and no further 
questions, this has been a productive hearing, and, I hope, 
enjoyable for all of you, and we're adjourned.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]
                            A P P E N D I X

              Statement from the American Burn Association
S. 1798 ``American Home Fire Safety Act''
  <bullet> Upholstered Furniture. According to the CPSC, in 1998 an 
        estimated 10,200 residential fires involving upholstered 
        furniture killed 520 people, injured more than 1,400 and caused 
        more than $200 million in property damage. A safety standard 
        adopted in California more than 25 years ago has resulted in a 
        significantly lower furniture death rate than the rest of the 
        Nation.

  <bullet> Mattresses and Bed Clothing. In 1998, mattress and bedding 
        fires caused 410 deaths, 2260 injuries and more than $250 
        million in property damage.

  <bullet> Candles. There were 12,800 candle fires in 1998, resulting 
        in 170 deaths, 1200 injuries and nearly $175 million in 
        property damage.

  <bullet> Of the many items first ignited in residential fires, 
        upholstered furniture is the product most frequently involved 
        in fire deaths, followed by mattresses and bedding. Cigarettes 
        and candles are the heat sources most likely to ignite the 
        deadliest fires.

  <bullet> The American Burn Association represents the Nation's burn 
        surgeons, nurses, therapists, and other members of the burn 
        team, and the Nation's leading medical institutions with burn 
        centers.

  <bullet> Congress should implement the heightened safety standards 
        for upholstered furniture, mattresses, bed clothing, and 
        candles included in S. 1798, to substantially reduce the rate 
        of consumer injury and death resulting from residential fires.

    The American Burn Association strongly supports the heightened 
fire-safety standards included in S. 1798, the American Home Fire 
Safety Act, and applauds the efforts of its sponsors: Senators 
Hollings, Breaux, Snowe, Boxer, Graham, Chafee and Reed.
    The American Burn Association represents the Nation's burn 
surgeons, nurses, therapists, and other members of the burn team, and 
the Nation's leading medical institutions with burn centers. The ABA 
has been a long-time advocate of fire-and burn-prevention efforts, 
supporting improved child sleepwear standards and fire-safe cigarette 
legislation, among other efforts.
    Of the many items first ignited in residential fires, upholstered 
furniture is the product most frequently involved in fire deaths, 
followed by mattresses and bedding. Cigarettes and candles are the heat 
sources most likely to ignite the deadliest fires. S. 1798 addresses 
this issue by establishing comprehensive fire safety standards for 
upholstered furniture, mattresses, bed clothing and candles. The 
stricter standards included in this bill are ``substantially the same'' 
as standards which have been implemented or tested elsewhere and have 
proven to be effective.
    For example, upholstered furniture standards in this bill are based 
on those included in similar legislation passed in California 25 years 
ago, which resulted in a ``significantly lower furniture death rate 
than the rest of the Nation.'' Mattress and bed clothing standards are 
also based on proposed or implemented legislation in California. Candle 
standards were generated by the American Society for Testing and 
Materials.
    The need for stronger standards is apparent from just a few 
examples in newspaper headlines across the nation: In Anchorage, a 
four-year-old girl dies after her mattress catches on fire; in New 
Jersey and eight-year-old girl dies after a damaged extension cord 
ignites a sofa; a three-year-old boy dies in a Chicago after a sofa 
catches on fire; in Lake Worth, Florida, three die when a fire ignited 
by a candle consumes a home.
    Sadly, such preventable fires are the cause of a high number of 
injuries and death as well as millions of dollars in property damage. 
According to 1998 figures from the Consumer Product Safety Commission, 
an estimated 10,200 residential fires involving upholstered furniture 
killed 520 people, injured more than 1400 and caused greater than $200 
million in property damage. Fires involving mattresses and bedding that 
same year caused 410 deaths, 2260 injuries and cost more than $250 
million in property damage, while candle fires accounted for 170 
deaths, 1200 injuries and almost $175 million in property damage. These 
figures do not take into account the countless costs to textile 
manufacturers and producers (costs which are eventually passed along to 
consumers) which are sued annually for fires involving their products, 
even though they pass current Federal requirements.
    It is the American Burn Association's position that the 
implementation of the heightened standards for upholstered furniture, 
mattresses, bed clothing, and candles included in S. 1798, the American 
Home Fire Safety Act, will substantially reduce the rate of consumer 
injury and death resulting from residential fires and will not affect 
the functionality or performance of the such items.
                   ASTM Candle Fire Safety Task Group
                                10/10/03
Geoffrey Faires
The Dial Corp.

Dave Buri
S.C. Johnson, Inc.

Rob Harrington
Blyth Industries, Inc.

Richard Signorelli
Belmay, Inc.

Jim Becker
Candle Solutions

George Pappas Sr.
Lumi-Lite Candle Co.

John Witham
Candle-Lite, Inc.

Evelyn Bicknese (IGCA Representative)
Bicknese & Bicknese, Inc.

Ed Calcote
Shell Global Solutions, U.S.

Robert Weitzel
Green Township Fire Chief

Christy Wheeler
Atkins & Pearce, Inc.

William Comber
Libbey Glass
  

John Tedeschi
Bath & Body Works

John Baker
Pier 1

Robert Moss
SEA, Ltd.

Jim Hoebel
Erols

Allyson Tenney
CPSC

David Morrison
Penreco

Mark Gerwitz
Bureau Veritas Consumer Products & Services

Tom Acklin (for AFIA)
Autograph Foliages

Valerie Cooper
NCA

Charles D. Moses
Arizona Chemical Company

Dan Zipes
Home Interiors & Gifts

Walter Smittle
Retired WV State Fire Marshal
      
                                 ______
                                 
                                              Croscill Home
                                                  November 29, 2004
Dear Ms. Sunita Krishna:

    We are a manufacturer of sheets, comforters, and pillows in a 
variety of constructions and contents with all comforters having 
polyester fiberfill.
    We employed 1.500 people prior to an influx of imported product and 
currently employ approximately 900 associates in North Carolina.
    We are against Bill #S. 1798 for reasons that go beyond the true 
necessity of regulation (which we question.)
    Those reasons include but are not limited to:

  1.  Test standard requires a twenty second exposure to open flame. Is 
        this reasonable, or a longer exposure time than real life 
        situations?

  2.  Who will police the market to assure that both domestic and 
        foreign suppliers are conforming to the new regulations? (From 
        what I understand, there are not resources available to act as 
        inspectors to monitor any law.) Foreign resources are more 
        likely to risk violation putting us at a competitive 
        disadvantage.

  3.  Have studies been done as to the carcinogenic potential of FR 
        treatments that may be used to meet these new requirements? 
        Will we be exempt if such findings are made subsequently?

  4.  Has the California TB604 current small scale test version written 
        in Oct. 03 been validated as reproducing large scale results?

  5.  Additional financial burden on an already suffering U.S. textile 
        industry. Not only are the new treatments a much higher cost 
        than what is commonly used, but fabrics, labels, inserts, 
        marketing materials, etc will need to be replaced unless 
        adequate time is given for transition of product i.e., 1 year.
            Respectfully submitted,
                                           Douglas J. Kahn,
                                           Chief Operating Officer.
                                 ______
                                 
   Prepared Statement of the Decorative Fabrics Association and the 
 Coalition of Converters of Decorative Fabrics Concerning the Proposed 
                     American Home Fire Safety Act
Introduction
    The Decorative Fabric Association (DFA) and the Coalition of 
Converters of Decorative Fabrics (CCDF) submit this statement in 
connection with the proposed American Home Fire Safety Act (the 
``Act''), and most specifically in connection with its provisions 
relating to upholstered furniture.
    The DFA and CCDF are on record as favoring the prompt adoption of a 
Federal mandatory upholstery furniture flammability regulation. Such a 
regulation, however, must effectively address the risks posed by 
upholstery furniture fires and do so in a cost effective way. 
Otherwise, consumers will be deprived of the opportunity to purchase 
products they want to put in their homes.
    The Act will not achieve these objectives. To the contrary, it will 
undermine important work soon to be completed by the Consumer Products 
Safety Commission that will result in an upholstery furniture 
regulation reflecting the interests of all stakeholders, including 
consumers.
    Specifically:

  <bullet> The Act would mandate the adoption of an unproven draft 
        technical standard that would impose unworkable and ineffective 
        requirements.

  <bullet> The mandated draft technical standard would cause many DFA 
        and CCDF products to become unsaleable and cost prohibitive, 
        and consumers would be deprived of the opportunity to obtain 
        such products. Because of the nature of DFA and CCDF type 
        products, a majority could not pass the mandated test even if 
        treated with flame retardant chemicals or the fabrics would be 
        ruined if treated.

  <bullet> The Act would ignore the important work that is close to 
        completion by the Consumer Product Safety Commission to develop 
        a technical standard that effectively addresses the risks of 
        upholstered furniture fires in an effective and economically 
        sound way, and which is supported by a consensus of all 
        stakeholders.

    Accordingly, the DFA and CCDF strongly urge the Committee to allow 
and encourage the CPSC to finish its work and not to adopt legislation 
that will be less effective, more burdensome, and that will not reflect 
either the best technical or economic thinking to address the problem 
at hand.
The Decorative Fabrics Association
    The DFA is comprised of approximately 60 companies that sell highly 
styled decorative fabrics. The DFA membership includes the vast 
majority of wholesale distributors of such decorative fabrics in the 
United States.
    Based upon 2002 data, reported aggregate sales of DFA member 
companies totals approximately $1.2 billion. DFA member firms, however, 
are relatively small: 38 percent had sales of less than $5 million; 22 
percent had sales of between $5 million and $10 million; 20 percent had 
sales of between $10 million and $20 million; and 20 percent had sales 
in excess of $20 million. Accordingly, any regulation will have a 
decided impact on these businesses.
    Sales by DFA companies are overwhelmingly for residential use, such 
sales comprising 82 percent of total sales. And, 96 percent of total 
sales are made to customers in the United States, primarily on a COM 
(customer's own material) basis through interior designers. This means 
that fabric selections are made by consumers, with the assistance or at 
the direction of a professional interior designer, usually as one 
component of an overall interior decorating project. The interior 
designer then purchases the fabric from a DFA company. The DFA company, 
however, typically does not know the use for which the fabric will be 
put--e.g., furniture, window treatments, wallcoverings, pillows, 
bedspreads, other bedding, etc. Accordingly, DFA members typically sell 
on a ``cut order'' basis, with an average order being 8 or 9 yards of 
fabric.
    DFA member companies do not manufacture the fabrics they sell. Nor 
do they perform fabric treatment or maintain facilities for fabric 
testing. Likewise, many of the suppliers to DFA companies, which 
include the few remaining quality mills in the United States, do not 
treat or test fabrics.
    To meet the wide range of consumer tastes, DFA members maintain 
inventories of thousands of different fabric styles. On average, DFA 
members carry over 5,500 different stock keeping units (SKUs), with 
small companies averaging 1,760 and larger companies averaging over 
16,000. Aside from their different patterns, these fabrics differ 
significantly in fiber combinations, weave structure, weight, and 
finish. Approximately 75 percent to 80 percent of these fabrics are 
made from fibers such as silk, which is a protein, or linen, rayon and 
cotton, which are cellulosic.
    One of the most important characteristics required to meet consumer 
demand for DFA type fabrics is the aesthetic appearance (look and feel) 
of a particular item. Color, texture and hand (the way a fabric feels 
to the touch) are all critical selling points. Accordingly, a 
significant cost for DFA members (approximately 8 percent of gross 
sales) relates to samples. Samples are required to provide consumers 
with the ability to see and touch the actual fabrics prior to making 
their purchase selections.
The Coalition of Converters of Decorative Fabrics
    The CCDF membership includes leading home furnishing and decorative 
fabric
    converters in the United States, with in excess of $1 billion in 
sales annually. CCDF members account, by volume of business, for a vast 
majority of the home furnishing fabrics converting industry in the 
United States. As converters, CCDF's members create or acquire 
proprietary rights in original designs, which they then cause to be 
printed, woven or otherwise fabricated by third parties onto a variety 
of fabric types. The finished fabrics are then sold for a variety of 
home furnishing and decorative end uses.
    CCDF converter members distribute their products through a variety 
of channels, generally from facilities located in the United States. 
Most of the CCDF members maintain their principal distribution 
facilities in South Carolina. Their customers include wholesalers, 
furniture and other miscellaneous manufacturers, and retailers. CCDF 
members also maintain showrooms and display facilities, exhibit at 
trade fairs and have sales personnel visit customers with samples of 
fabrics.
    Like DFA companies, CCDF converter members generally do not 
manufacture or finish the fabrics they sell. Also like DFA companies, a 
significant percentage of the fabric they sell consists of a wide 
variety of fiber combinations, weaves and weights. These fabrics are 
also used for a variety of applications. The visual, textural and other 
aesthetic attributes of these fabrics are critically important to 
converters' commercial success.
    Another CCDF member is Calico Corners, a national retailer of 
fabric and furniture, with approximately 116 stores in 33 states. 
Calico Corners specializes in retailing decorative fabrics sold 
directly to consumers, making it one of the largest purchasers of 
decorative fabrics in the country, buying from major converters, 
wholesalers and jacquard mills.
    Calico Corners' custom furniture program has been rapidly growing 
in recent years. It differs from ``off-the-floor'' furniture sales in 
that the retail customer is afforded a very wide range of fabric 
choices, and is able to select a frame style from over 250 choices. In 
the average Calico Corners store the customer then has the choice of 
over 5,000 fabric SKUs to put on the frame.
    Thus, in 2002, Calico Corners' customers purchased approximately 
28,000 pieces of custom upholstered furniture and covered them in 4,500 
different fabrics. About half of these fabrics (48 percent) were 
designed specifically for upholstery use. In addition, many Calico 
customers routinely select print fabrics for use on furniture. These 
fabrics are technically not considered upholstery weight, but they too 
are used for many purposes. Because of the wide range of consumer 
tastes, in 2000 only three fabrics sold over 1,000 yards; 41 fabrics 
sold between 500 and 1,000 yards; and the average sale per fabric was 
10.4 yards.
Discussion
A. The DFA And CCDF Support A Mandatory Federal Upholstered Furniture 
        Flammability Regulation
    The DFA and CCDF membership has actively worked with the Consumer 
Products Safety Commission and state regulators, specifically in 
California, in connection with the development of a mandatory 
upholstery furniture flammability regulation. Most recently, in October 
2003, the DFA and CCDF provided comments to the CPSC urging the prompt 
adoption of a Federal standard because ``[i]ndustry needs certainty.'' 
\1\ Further, the DFA and CCDF endorsed the approach reflected in the 
CPSC staff's most recent draft upholstered furniture regulation, most 
importantly because it provides for use of a barrier system--an 
interliner or other barrier material placed between the outer fabric 
and the filling material--as an alternative to treating the outer 
fabrics with flame retardant chemicals.
---------------------------------------------------------------------------
    \1\ Comments of the Decorative Fabric Association, the Coalition of 
Converters of Decorative Fabrics and Calico Corners, Inc., before the 
Consumer Products Safety Commission, October 23, 2003. See also 
Statement of Rosecrans Baldwin on behalf of the Decorative Fabrics 
Association and the Coalition of Converters of Decorative Fabrics to 
the Consumer Products Safety Commission, dated August 27, 2003.
---------------------------------------------------------------------------
    The absolute necessity of a ``barrier alternative'' for DFA and 
CCDF members has been well documented.\2\ In short:
---------------------------------------------------------------------------
    \2\ See, e.g., Statement of Cary Kravet, Kravet Inc., to the 
Consumer Products Safety Commission, June 18-19, 2002; Statement of 
Roger Gilmartin, Covington Industries, Inc., to the Consumer Products 
Safety Commission, June 18-19, 2002; Statement of Jan Jessup, Calico 
Corners, to the Consumer Products Safety Commission, June 18-19, 2002.

  <bullet> Most DFA fabrics and many CCDF fabrics will not pass a 
---------------------------------------------------------------------------
        flammability test even if treated with FR chemicals.

  <bullet> DFA and CCDF companies could not economically comply with a 
        standard that required treatment of their fabrics with FR 
        chemicals and compliance testing.

  <bullet> Use of FR chemicals on many DFA and CCDF fabrics would 
        destroy any aesthetic appeal, which is the most critical 
        selling factor for such goods, and could create unwarranted 
        health risks for employees and consumers potentially now and in 
        the future.

    A barrier alternative, on the other hand, would allow for 
upholstered furniture to be constructed consistent with a regulation 
that effectively addresses the risk of upholstered furniture fires. As 
contemplated by the most recent CPSC proposed draft standard, a 
furniture manufacturer would be permitted to use certified barrier 
materials and thereby avoid testing or treatment of every other 
component of that piece of furniture, including the outer fabric. As a 
result, the outer fabric would not have to be treated with FR 
chemicals. Yet, the approved barrier materials would prevent a flame 
from reaching the filling material of the piece of furniture, and as a 
result would prevent the very dangerous situation that could arise if 
the filling materials ignited.
B. The Act Would Not Allow For A Barrier Alternative
    The Act would not allow for use of an effective barrier 
alternative. Rather, it would mandate adoption of a draft technical 
proposal issued by the State of California Department of Consumer 
Affairs, Bureau of Home Furnishings and Thermal Insulation in February 
2002. This technical proposal would require a component test involving 
the treatment of outer fabrics with FR chemicals, or a composite test 
that involved a barrier and the burning of the outer fabric. Such tests 
have never been established as either technically or economically 
effective. Indeed, we understand that the State of California is no 
longer pursuing the approach reflected in its draft technical proposal 
and is instead working closely with the CPSC staff and other interested 
stakeholders to finalize a draft proposed regulation that will be 
presented to the Commission within the next few months.
    The current focus of the California regulators shows the wisdom of 
allowing the CPSC's work to be completed, and not to have legislation 
adopted that would require the promulgation of a standard that reflects 
poor science, poor economics, and is contrary to the positions 
developed by all interested parties. Requiring adoption of the draft 
California technical proposal, which does not include a real barrier 
alternative, would also severely threaten the viability of all DFA and 
CCDF members, and as a result the ability of consumers to retain their 
ability to have access to the products they want. These ramifications 
are highlighted by the following.
    First, cellulosic and protein fabrics constitute most of the 
fabrics sold by DFA companies and much of the fabric sold by CCDF 
companies. We understand, however, that chemical FR treatment of such 
fabrics is difficult, and that many if not most of them, even if 
treated, are not likely to pass the component test contemplated by the 
draft California technical proposal. In addition, if such fabrics and 
many others were required to be FR treated, their aesthetics (the most 
significant characteristic in customer selection) would be dramatically 
altered. Both the look and feel of the product would be changed in ways 
that would cause them to be highly unattractive, and in most cases 
unsaleable.
    Second, DFA members and converters typically do not know the end 
use to which a particular fabric will be put. Accordingly, if treatment 
were required vendors would have to either maintain duplicate 
inventories of treated and non-treated fabrics, or have specific orders 
treated when it is known that they will be used for an upholstered 
furniture application. Neither alternative is workable.

  <bullet> To maintain duplicate inventories vendors would have to 
        increase the volume of fabric they purchase without generating 
        corresponding increases in sales to consumers.

  <bullet> Duplicate inventories will result in higher costs to vendors 
        (and ultimately consumers), including carrying, sampling and 
        handling costs, and the need for additional showroom and 
        warehouse space. These costs are already a significant 
        percentage of gross sales, and the increases would make most 
        DFA and CCDF companies unprofitable.

  <bullet> Treatment of small orders, such as the ``cut orders'' sold 
        by DFA members and the average orders sold by Calico Corners 
        and other decorative fabric retailers, will be subject to 
        minimum charges by finishers, which can run from $65 to $150 
        per order regardless of the yardage involved, again resulting 
        in higher prices to consumers and unprofitable operations for 
        vendors.

  <bullet> Testing will also require use of additional yardage for 
        certification and machine operability purposes. Some DFA 
        fabrics sell for well over $100 per yard at wholesale, and 2 to 
        2\1/2\ extra yards per order may be required on a typical order 
        of 8 to 9 yards.

  <bullet> DFA and CCDF members may face shortages in finishing 
        capacity. Available capacity may be allocated to larger orders, 
        and finishers have stated a disinclination to handle small 
        orders, especially of more expensive fabrics.

  <bullet> Small orders may lack consistency in quality, requiring 
        retesting and retreatment. Stitching together fabrics of 
        different weights and compositions will not permit a uniform 
        application of FR chemicals resulting in double testing and 
        treatment for heavier fabrics, and either an unsatisfactory 
        ``bubble'' effect or a totally unacceptable ``board'' effect.

  <bullet> Delivery time and costs will be increased.

  <bullet> Compliance with the draft component test may raise health 
        risks that may even be prohibited by California's Proposition 
        65 and other environmental regulations and legislation.

    Thus, if DFA and CCDF companies were required to certify compliance 
with the fabric component test that would be imposed by the Act, the 
likely result will be that consumers will not be able to obtain the 
wide variety of fabrics that are now available. Some products simply 
would not be able to pass, and even if they could, they would be so 
aesthetically displeasing no consumer would want them in their home. 
Those fabrics that could pass would also be available only for 
dramatically higher prices which may eliminate any market demand for 
them as well.
    The contemplated composite test under the draft California 
technical proposal would also inadequately address the risks of 
upholstered furniture fires. Passing or failing the proposed composite 
test would require assembling a piece of furniture as it would exist 
for sale. In other words, the frame would be assembled with the actual 
fabric and filling materials that would be used. To pass the test would 
then depend upon, among other factors, an evaluation of the overall 
weight loss of the tested unit. Certain fabrics, however, will 
constitute a disproportionate percentage of the weight of the overall 
unit, and even though a barrier might be used, and a flame would be 
extinguished before igniting the filling material that would emit the 
greatest amount of heat, the unit would fail. Thus, even though risks 
of injury and possible death as the result of flashover would be 
averted, and we believe this is the properly defined risk that should 
be addressed, consumers would still be deprived of products they 
desire.
    Further, the costs of compliance with the draft composite test 
would be, if anything, more prohibitive than in connection with the 
component test. The same negative economic effects--for consumers and 
industry--would therefore result, without effectively addressing the 
risks that should be the target of a properly focused regulation.
C. The Act Will Eliminate Important Statutory Protections
    The Act would make inapplicable important provisions of the 
Consumer Product Safety Act. In particular, no evaluation would be made 
of the mandated standard's costs or benefits, whether the standard is 
reasonably necessary to eliminate or reduce the risks posed by 
upholstery furniture fires, what the effect of the standard would be on 
limiting the availability of products to consumers, or whether less 
burdensome alternatives are available that are equally effective. 
Further, the opportunity for interested parties to be heard on the 
advantages and disadvantages of the standard would be eliminated.
    These statutory provisions ensure that any regulation that is 
adopted will be technically and economically sound, and eliminating 
their applicability will simply confirm the inappropriateness of the 
upholstered furniture flammability standard contemplated by the Act.
Conclusion
    For all of the foregoing reasons, the DFA and CCDF urge the 
Committee to not support the American Home Fire Safety Act. An 
appropriate Federal regulation is being developed by the CPSC that will 
effectively address the risks of residential upholstered furniture 
fires, in a cost effective manner, and in a way that will allow 
consumers to enjoy the products of their choice.
                                 ______
                                 
Prepared Statement of David K. Orders, Vice President, Administration, 
 Park Place Corporation On Behalf of the International Sleep Products 
                              Association
Background
    Mr. Chairman, Ranking Member Hollings and distinguished members of 
the Committee:

    My name is David Orders. I am the Vice President, Administration of 
the Park Place Corporation, a mattress manufacturing company in 
Greenville, SC.
    I appreciate the opportunity to submit comments to you today on 
behalf of the International Sleep Products Association (ISPA) about S. 
1798, the ``American Home Fire Safety Act.'' ISPA is a trade 
association that represents approximately 750 mattress manufacturers 
and component suppliers in the United States and abroad.
    In my testimony, I will show that the mattress industry has a long 
history of responsible stewardship and has aggressively sought 
regulation where scientific standards showed benefits to the consumer.
    I intend to make clear that the ``American Home Fire Safety Act'' 
would not impose science-based standards, but instead implements draft 
California standards that were subsequently rejected by the State of 
California.
    The Consumer Product Safety Commission will shortly propose 
standards that will establish scientifically developed product safety 
requirements. The industry is committed to assisting the CPSC with that 
effort.
    Finally, I think that it is important that the CPSC be encouraged 
to develop regulations in the manner established by Congress when it 
created the CPSC, without Congress imposing poorly considered standards 
that can be counterproductive to improving consumer safety.
    My grandfather founded our company in 1931 during the Depression. 
With my eldest son joining the company several years ago, the Orders 
family has now begun our fourth generation of owning and operating Park 
Place.
    Today, our approximately 200 workers make approximately 1600 
mattresses daily (or about 400,000 units annually). We sell our 
mattresses primarily throughout the Southeast, but also distribute some 
products nationwide. We offer a full line of mattresses, from 
relatively simple constructions to the more up-scale luxury lines. Our 
main business is in traditional foam-inner spring mattress designs, but 
we also manufacture so-called air-beds and mattresses that use heat-
sensitive foam.
    In addition to my work with Park Place, I am currently the Vice 
Chairman of the Board of the International Sleep Products Association 
(ISPA), and will become the Chairman of the ISPA Board next year.
    Since 2002, I have also served on the Board of Directors of the 
Sleep Products Safety Council (SPSC), a separate organization formed by 
ISPA in 1986 to conduct mattress safety research and develop public 
education programs that focus primarily on residential fire safety and 
how to avoid mattress fires.
    The mattress industry has a proud 35-year record of responsible 
product stewardship when it comes to mattress flammability issues. 
During the mid-1970s, research showed that unattended cigarettes were 
the primary cause of mattress fires and fire-related deaths and injury. 
Our industry worked with the Consumer Product Safety Commission (CPSC) 
to develop the mattress cigarette ignition standard, which has been a 
major factor in reducing residential mattress fires over the past three 
decades.
    Because Park Place has manufactured mattresses for over 70 years, 
we have been an active part of the tremendous safety innovations that 
the mattress industry has made over the years. For example, my brother 
Jimmy Orders led the ISPA Board of Trustees as the industry implemented 
the cigarette-ignition standard. Compliance with that standard today is 
excellent and it is clear that this standard has played an important 
role in improving residential fire safety. For example, the most 
current fire statistics released by the U.S. Fire Administration show 
that over the 20-year period from 1980 to 1999, both the number of 
mattress fires in the United States and the number of deaths from 
mattress fires fell by two-thirds, all this while the U.S. population 
grew by over 25 percent during the same period.
    These numbers show that the industry is moving in the right 
direction, and that the industry's safety record is outstanding. But 
our work is clearly not finished. The mattress industry and my company 
fully support regulatory efforts to set a new Federal safety standard 
that is effective and practical in requiring mattresses to be more fire 
resistant to open-flame ignitions. Nevertheless, our industry has a 
number of concerns with the ``American Home Fire Safety Act.''
    Specifically, we believe that:

  <bullet> S. 1798 would set a bad flammability standard that is not 
        scientifically supported and will in fact be counterproductive 
        to home fire safety;

  <bullet> S. 1798 implements a draft standard rejected by the state of 
        California;

  <bullet> S. 1798 is unnecessary at this point because the Consumer 
        Product Safety Commission is making substantial progress on 
        this issue and plans to propose a new Federal mattress standard 
        this fall, and

  <bullet> S. 1798 would restrict the CPSC's ability to correct or even 
        improve the standard that it requires if warranted at some 
        point in the future.
Open-Flame Ignitions and Regulatory Efforts at the CPSC and in 
        California
    As the mattress safety record improved dramatically with the steps 
taken to reduce fires caused by cigarettes, the industry's focus 
shifted to tackling open-flame ignitions of mattresses. Our 
understanding of the causes and science of open-flame ignitions was 
virtually non-existent when the industry, fire safety officials and 
government regulators began looking into this problem in the mid-1990s.
    To remedy this situation, the SPSC initiated a joint study with the 
National Association of State Fire Marshals (NASFM) to determine the 
causes of over 200 actual mattress fires in four U.S. cities. This 
research showed that:

  <bullet> a majority of mattress fires are set by young children 
        playing with matches and lighters;

  <bullet> bedclothes (top-of-the-bed accessories like comforters, 
        pillows) are usually the first items ignited in a bed fire; and

  <bullet> poorer families are those most at risk from mattress fires.

    Following this research, the industry met with then-CPSC Chair Anne 
Brown to discuss how best to address the open-flame ignition problem. 
Chair Brown attended a mattress industry meeting in Palm Beach, Florida 
in 1997, at which the ISPA leadership resolved to explore the 
possibility of establishing a mandatory national mattress standard to 
address open-flame ignitions, provided that the standard was effective 
in addressing the problem and practical to implement.
    The industry (through the auspices of the SPSC) then supported a 
series of groundbreaking studies by the National Institute of Standards 
and Technology (NIST) to improve our understanding of mattress fires. 
Among other findings, NIST concluded that the safety risks posed by 
ignited bedclothes alone are significant. NIST also developed a test 
apparatus that could accurately and consistently simulate the impact of 
burning bedclothes on a mattress so that our products could be reliably 
tested under simulated ``real world'' conditions. Throughout this 
research, the SPSC regularly consulted with staff of the CPSC and the 
California Bureau of Home Furnishings (CBHF), given both agencies' 
interest in effectively addressing the open-flame ignition issue.
    Throughout this period, the SPSC has actively promoted public 
education messages informing consumers about how to use mattresses 
safely. The SPSC has carried this message through a variety of media, 
including its own website (which is largely targeted at parents, 
teachers, children and the media), joint efforts with various 
government agencies, and a hangtag that most mattress producers attach 
directly to their products warning consumers about the dangers of 
mattress fires and how to avoid those dangers.
    Based on NIST's research, the CPSC issued an Advance Notice of 
Proposed Rulemaking in October 2001. The industry has worked closely 
with the CPSC as it develops the new mattress standard. The CPSC is 
expected to propose its new standard later this fall.
    In February 2003, the CBHF began its separate rulemaking, 
California Technical Bulletin 603 (TB603), to address the open-flame 
issue by publishing a preliminary draft standard. Initially, California 
proposed that mattresses and box springs sold in that state must be 
ignited using a test method and apparatus developed by NIST, and that 
the peak heat release from the resulting fire must not exceed 150 kW 
for 60 minutes. Following extensive scientific research and after 
analyzing comments submitted by industry, consumers and other groups, 
California issued the final version of TB603, which modified the 
performance criteria such that the peak heat release must not exceed 
200 kW over a 30-minute period. California properly concluded that 
these performance criteria will lead to significant improvements in 
home fire safety.
    Separately, the CBHF began initial work on a bedclothes 
flammability standard (to be called Technical Bulletin 604 or TB604). 
California, however, has yet to formally propose the requirements of 
TB604. Thus, a major contributor to the bedroom fires--as found by 
California, NASFM the mattress industry and others--has yet to be 
addressed.
    The mattress industry fully supports the performance criteria in 
the final version of TB603. Depending on their geographic market, 
mattress producers are at varying stages in their efforts to meet the 
TB603 requirements. Some producers are already offering product that 
meets the performance requirements in California a full six months 
before the effective date of the standard, and others are on track to 
meet the new requirements.
    In issuing the final version of TB603, California recognized that 
the standard provides a valuable 30-minute window for consumers to 
detect and escape a fire. Furthermore, the low peak heat release limit 
will substantially delay the growth and intensity of the fire. 
Combined, these requirements will significantly reduce the risk of 
rapid flashover to other parts of the residence and will substantially 
expand the opportunity for consumers to escape a bedroom fire. Thus, 
NIST research shows that the TB603 performance criteria have the 
potential to reduce bed fire casualties by one-half to two-thirds. 
Further improvements are possible if the fire performance of bedclothes 
also is improved. For these reasons, the industry is working with the 
CPSC to incorporate theTB603 criteria in the Federal open-flame 
mattress standard and to address the flammability of bedclothes.
    Finally, the industry is concerned that meeting a 60-minute 
standard might inadvertently create more problems than it purports to 
solve. To meet a 60-minute requirement might force producers to use 
combinations of exotic materials that have never been used to make 
mattresses. How those materials will interact with each other is often 
unknown.
The ``American Home Fire Safety Act'' (S. 1798)
    The ``American Home Fire Safety Act'' (S. 1798) requires the CPSC 
to issue Federal flammability standards for several products including 
mattresses and box springs. As for mattresses and box springs, S. 1798 
requires that the Federal standard be based on the preliminary draft of 
California's TB603. It ignores the fact that California, based on 
scientific research and extensive comments from the mattress industry 
and other stakeholders, substantially revised those criteria before 
issuing the final version of TB603, as I have just described. In short, 
while the preliminary draft of TB603 limited the peak heat release rate 
to 150 kW for 60 minutes, the final version of TB603 limited the peak 
heat release rate to 200 kW for 30 minutes. It is also important to 
understand that no scientific research shows that a 60-minute standard 
will be any more effective in improving safety than the significant 
improvements that can be achieved with a 30-minute standard.
    I stress that the difference between a 60-minute test and a 30-
minute test is significant. The longer a fire burns, the more 
unpredictable it becomes. This unpredictability is analogous to the 
ability of a meteorologist to provide a reasonably accurate 2-day 
forecast, compared to the substantially greater variation from the 
weatherman's predictions when it comes to making a 60-day forecast. As 
a result, I think that those supporters of S. 1798 that make FR 
materials and others knowledgeable about fire behavior would agree that 
the variability of fires forces mattress producers to use substantially 
larger amounts of fire resistant materials to meet a 60-minute test 
than would be required for a 30-minute test.
    The 30-minute standard has been challenging, but will be met using 
innovative materials and designs. In this process, the industry has 
invested heavily in technology, new materials, product design, employee 
training and capital acquisitions as we seek to develop solutions that 
will preserve the mattress comfort that consumers have grown to expect 
in a manner that adds minimal expense to the consumer.
    However, a 60-minute test would require different materials and 
designs. These materials tend to make the mattresses harder and less 
resilient, and would cost considerably more. As a result, S. 1798 would 
in effect force customers to select from less comfortable--yet more 
expensive--mattresses, but for no scientifically-justified reason.
    In addition, most mattress manufacturers would likely shift all of 
their mattresses to ``single-sided'' to meet an S. 1798 standard, 
because it is easier and cheaper to make those products pass a 60-
minute test. This change would have the unintended impact of harming 
U.S. textile producers in my home state of South Carolina and 
elsewhere, an industry that can ill-afford additional economic stress. 
This is because single-sided mattresses require less of the high-
quality fabric cover known as ``ticking,'' and instead use much cheaper 
material on the lower side of the mattress.
CPSC and a Science-Based National Standard
    S. 1798 also ignores the CPSC's considerable work toward a new 
Federal mattress standard. The CPSC, which is charged by Congress with 
developing and enforcing standards such as this, has considerable 
expertise in flammability issues. The CPSC has already issued an 
Advance Notice of Proposed Rulemaking and plans to propose an open-
flame standard this fall. The industry has cooperated fully with the 
CPSC during this process by providing technical and economic data, as 
well as by funding major research to create new testing methods. I 
would ask that the Congress allow the CPSC to complete its work and to 
issue a new Federal mattress standard. That, after all, is the real 
purpose behind S. 1798.
    Setting new flammability standards is a complex task. Allowing CPSC 
to set the Federal standard would offer two important benefits. First, 
the CPSC will use its expertise to make certain that its criteria are 
based on scientific research, are practical and justified. Second, 
sometimes flaws in product standards emerge only after they are 
implemented. A standard set by CPSC could be readily amended whereas S. 
1798 would require another Act of Congress to fix the problem.
    The existing Federal law provides a good process for CPSC to issue 
technical flammability standards. The CPSC has both the legal authority 
and the expertise to set this standard. I would ask that the Congress 
refrain from in effect overruling the Commission's tremendous efforts 
toward establishing a new mattress standard, and allow it to complete 
its rulemaking process.
Consumer Issues
    Mattress manufacturers and retailers have invested considerably in 
market research. Not surprisingly, consumer purchases of mattresses are 
motivated primarily by comfort and price. The performance criteria in 
the final version of TB603 would have a minimal impact on both of these 
criteria, whereas S. 1798 would have a significant negative impact on 
both.
    As I mentioned earlier, a mattress that would meet the S. 1798 
criteria of a 60-minute burn test would look and feel much different 
from the mattresses on the market today. They would be rigid and 
inflexible, instead of the current mattresses that consumers have grown 
to expect and enjoy.
    Unlike a TB603 mattress, S. 1798 mattresses would be much more 
expensive. In fact, the price increases that S. 1798 would require 
would discourage a large number of consumers from purchasing the new 
mattresses--especially the poorer families that need affordable fire 
resistant mattresses the most--compared to the impact of a 30-minute 
standard on mattress prices.
    For example, given typical retail markup rates, the costs that a 
mattress producer will incur to meet a 30-minute standard will likely 
increase from $10 to $20 per queen-size unit. However, given current 
input prices, a number of mattress producers estimate that to meet the 
S. 1798 standard, manufacturing costs would increase $50 to $70 per 
queen-size unit. Based on a study that the industry commissioned last 
year in connection with the TB603 rulemaking, we estimated that price 
increases of this magnitude alone would reduce mattress sales by 25 
percent or more, compared to a reduction of no more than 10 percent for 
the 30-minute standard. The consumer disincentive that S. 1798 would 
create will be even more if you factor in the reduced comfort that 
results from using the substantially stiffer materials needed to make 
beds that pass a 60-minute test.
    In other words, at least 1-in-4 consumers that would otherwise want 
to buy a new fire-resistant mattress would instead defer their mattress 
purchase and spend their money on something else if S. 1798 were 
enacted. That means that the law itself will be counterproductive 
because it will discourage consumers from buying safer products. The 
price disincentive will be disproportionately greater for poorer 
consumers who will be less able than middle or upper class consumers to 
pay the higher prices that this bill would impose.
    Instead, when those poorer families require new beds, their only 
alternative will likely be mattresses offered by an unscrupulous 
segment of the market that ``recovers'' used mattresses with new fabric 
and then deceptively sells their wares as ``new.'' Many of these 
operators--who are euphemistically called ``renovators''--sell their 
products in inner cities and poorer communities where their customers 
are highly price conscious and unwittingly think that they are buying 
perfectly normal new products. What these consumers don't know is that 
they are really sleeping on a used bed and that the renovator has often 
made no effort to clean or sterilize the old product, which is often 
filthy, stained with urine, blood and feces, and can be infested with 
dust mites, molds, insects, germs and other unsanitary contaminants. 
These ``renovated'' beds pose real health hazards, especially for 
consumers that are susceptible to allergies, mold and dust, and 
certainly will not meet the fire protection standards of either 
California or the Federal Government.
    Complying with TB603 alone will be challenging and expensive for 
legitimate mattress producers. But because unscrupulous renovators 
operate on the fringes of the market, I would expect few of them will 
make any effort to meet the even more burdensome S. 1798 rules.
    As a result, S. 1798 would--

  <bullet> force the retail price of legitimate new mattresses beyond 
        the reach of poorer consumers--the very segment of society that 
        needs fire-resistant beds the most--and

  <bullet> push the poorer consumers into the waiting arms of unethical 
        purveyors of unhealthy renovated mattresses that have been 
        recovered by parties that have no intention of meeting the S. 
        1798 rules.

    Not only will these families miss any benefit that S. 1798 is 
intended to create, but they will risk allergic reactions, asthma and 
other possible effects of sleeping on recovered used mattresses.
Conclusion
    Mr. Chairman, I feel that the mattress standard set forth in S. 
1798 is the wrong standard, and that Federal law already authorizes the 
CPSC regulate this important area. As the incoming Chairman of ISPA, I 
can assure you that the mattress industry is fully behind setting a 
Federal flammability standard with criteria similar to those set in 
California TB603. I do not feel that the draft standard of TB603--the 
standard referenced by S. 1798--is practical for manufacturers nor do I 
believe that it will benefit consumers. S. 1798 would result in 
mattresses that few consumers would want to buy because they will be 
more expensive and less comfortable.
    Increased costs and reduced sales could easily shut down many 
mattress manufacturing plants in the U.S. I am concerned that these 
increased commercial pressures may drive much of the lost business 
overseas. I am also alarmed by reports of other regulated industries 
that foreign mattress producers might not meet the relevant U.S. safety 
standards. As with other products, it would be difficult for the CPSC 
to catch such products because by the time that many of these products 
enter the stream of commerce and are detected by the authorities, the 
manufacturer of those goods has either changed its name or moved onto 
other markets.
    Park Place provides the Greenville community with 200 well-paying 
jobs that I would not wish to see jeopardized. Mattress manufacturing 
as a whole is a well-paying industry. The average hourly wage of a 
mattress factory employee nationally is approximately $11. In a complex 
economy, job losses and plant closures to our manufacturing segment 
have a ripple effect that hurts our component suppliers as well as the 
thousands of retail stores to which we sell.
    Mr. Chairman, the mattress industry believes that an effective and 
practical national open-flame ignition standard for mattresses and the 
continued success of mattress manufactures in the U.S. are not mutually 
exclusive objectives. We fully support the criteria set forth in the 
final TB603 and hope that the CPSC will incorporate these criteria in 
the new Federal mattress standard. They will dramatically improve 
safety, and should be applied nationally. I believe that the criteria 
in S. 1798 will do significant harm to industry and consumers without 
providing any additional safety benefit.
    I believe that the CPSC is firmly committed to issuing an effective 
and practical standard and that it would be in the best interests of 
consumers and industry to allow that agency to finish its valuable work 
instead of legislating a regulatory standard. The system is working, 
Mr. Chairman, and I ask that you and this Committee allow it to finish 
working.
    To the extent that Congress really wants to help consumers, I 
suggest that you consider increasing the CPSC's enforcement 
capabilities and help to educate parents, teachers and children about 
the importance of fire safety. In respect to enforcement, the first 
step would be to help stop unscrupulous renovators from selling 
recovered used mattresses as new products to unsuspecting consumers.
    The second would be to enhance the CPSC's ability to enforce 
existing and future Federal safety standards with respect to imported 
products before those goods ever hit our shores. Many in the 
manufacturing community at large are increasingly concerned that 
imports of all types of products--not just mattresses--do not meet 
minimum U.S. safety requirements and that the U.S. government lacks the 
ability to eliminate these noncomplying goods from the marketplace 
before they have been sold to consumers. ISPA has provided Senator 
Hollings and others on the Committee with several options that Congress 
could consider in this regard and we would be pleased to discuss these 
options further with you at your convenience.
    I thank the Committee for the opportunity to submit this statement 
today. I look forward to answering any questions you may have following 
this hearing.
                                 ______
                                 
      Prepared Statement of the National Textile Association (NTA)
    The National Textile Association (NTA) is pleased to present 
comments on the American Home Fire Safety Act. NTA is the largest 
textile trade association in the United States and its comments are 
filed primarily on behalf of the Textile Bedding Committee whose 
members are responsible for supplying American consumers with over 90 
percent of the sheets, comforters, pillows and other ``top of the bed'' 
products sold in the U.S.
    The domestic textile bedclothing industry has annual sales 
exceeding 5 billion dollars and supplies products that are vital for 
the normal lifestyle of all consumers. The industry is proud of the way 
it has provided an almost endless assortment of products for consumers 
in the U.S. and around the world for over a century, and we intend to 
continue supplying safe, functional, and stylish bedding for our 
customers.
    While the intentions of the American Home Fire Safety Act, S. 1798, 
are laudable, the bill would interrupt an important process that has 
been underway since the California General Assembly approved AB 603 in 
2001. This sudden interruption would be caused by S. 1798's mandatory 
requirement that all affected bedclothing meet the October 22, 2003 
draft of Technical Bulletin 604, a draft that is expected to be amended 
by California before implementation because it does not consistently 
predict large scale fire performance.
    Our concern is that the unknown changes to the test method could 
likely require new and more costly solutions for manufacturers that 
supply filled products. The 90-day implementation period in S. 1798 
gives only a small window of time for manufacturers to decide on the 
materials necessary to meet the standard and to determine if adequate 
supplies are available. Our experience has been that regulations like 
this require new materials, many which may not be available in adequate 
capacity for months or even years. Any shortages of materials will 
clearly be detrimental to consumers who will bear the economic burden 
of shortages.
    By passing this legislation, the cooperative work between our 
industry and the CBHFTI could be irrelevant and all consumers in the 
United States would be penalized by a preemptive standard that severely 
restricts consumer choice and leads to significant increases in cost of 
material and manufacturing operations. Although we are not opposed to 
flammability regulations of filled bedclothes, we clearly oppose S. 
1798 as written.
    Our industry is committed to safe and functional products. We have 
a long history of providing consumers with products that meet consumer 
expectations for style, color, design, fit, appearance, feel and many 
other aesthetic and physical characteristics. We listen carefully to 
consumers and their desires and we work extremely hard to ensure that 
their expectations are met. Our zeal to continue meeting this objective 
is strong.
    It is extremely important to recognize that California's draft TB 
604 limits regulation to filled textile bedclothes such as comforters, 
mattress pads and pillows. All technical studies and regulatory 
development have been focused in this area, and we support a similar 
provision in any Federal regulation considered by CPSC.
    The textile bedclothes industry has worked diligently to learn more 
about the flammability performance of filled products. During the short 
period since CBHFTI has begun to study bedclothing flammability, our 
member companies have evaluated their products individually with the 
CBHFTI. They have also evaluated the impact of product construction, 
material substitutes, and other research and development aspects to 
determine the best solutions to meet the anticipated California 
regulation. While these companies are members of the NTA, they preserve 
their unique approaches to the manufacture of complying products and 
each is focused on meeting consumer demand when California's stringent 
regulation becomes effective.
    Once a regulation is promulgated, it is critical that it be 
applicable nationally. The Textile Bedding Committee envisions the 
California standard being applied nationally by the CPSC within the 
scope of its development. With high volume manufactured products like 
comforters and mattress pads, a national standard is essential to 
ensure that interstate commerce is not disrupted. Our industry will 
begin discussing this essential aspect of regulation when the CPSC 
begins its public review of textile bedding flammability. We stand 
ready to work with the commission, as we have worked with the 
California Bureau, to develop a standard that is effective, technically 
feasible and clearly in the interest of U.S. consumers.
    It is also critical that any textile bedding flammability standard, 
whether at the state or national level, be enforced fully regardless of 
the product's origin. Domestic manufacturers have an impressive record 
of consistently meeting flammability standards in the United States and 
our members will ensure that this high level of compliance is 
maintained. We encourage the responsible government bodies to also work 
to ensure a high level of compliance for imported goods in order to 
provide safe products for all American consumers.
    In summary, NTA believes that S. 1798, in its present form, would 
be disruptive to the textile bedding industry and consumers alike, and 
would de-rail an important process that has been underway for over a 
year. NTA members have been working cooperatively with California 
Office of Consumer Affairs to develop a mandatory standard for filled 
bedding products and much progress has been made. We strongly encourage 
this Committee to allow the textile bedding industry to complete 
California's administrative process and then to work with the Consumer 
Product Safety Commission to develop an appropriate national 
flammability standard for this industry.
                                 ______
                                 
             Prepared Statement of Mark Buczek, Chairman, 
                      American Fire Safety Council
    The American Fire Safety Council (AFSC) is a non-profit member 
organization that is dedicated to promoting fire safety through the 
responsible use of flame retardant products. Every year nearly 4,000 
Americans die in fire-related incidents and 75 percent of these deaths 
occur from residential fires. The AFSC strongly supports the initiative 
of Senator Ernest Hollings to bring national fire safety standards to 
residential furniture, bedding and bedclothes. We are also encouraged 
by the recent progress of the U.S. Consumer Product Safety Commission, 
under the leadership of Chairman Harold Stratton, in addressing this 
long-standing need. We believe that the Committee's consideration of 
the American Home Fire Safety Act (AHFSA) has been successful in 
bringing added focus to the issue. We agree with Senator Hollings that 
should there be any further delay in the Commission's issuance of 
national fire safety standards, additional action by the Committee with 
regard to the AHFSA may be required.
    The AFSC has taken several steps to help move this issue forward. 
We have participated in a multi-stakeholder industry group, which 
includes the American Furniture Manufacturers Association, the 
International Sleep Products Association and numerous others. This 
group has worked to bring a proposal to the CPSC that offers a 
significant level of increased fire safety for the public, is practical 
to implement and will not place an undue economic burden on 
manufacturers, consumers or U.S. jobs. We hope that the CPSC will 
consider this proposal in developing its national standards.
    In addition, the AFSC recognizes its responsibility to encourage 
sustainable and environmentally preferable approaches for achieving 
fire safety standards. We have entered into a partnership with the 
Environmental Protection Agency (EPA), furniture manufacturers and non-
governmental organizations such as GreenBlue, in the EPA's Design for 
the Environment program. This innovative partnership will allow us to 
develop safe and environmentally sound approaches to fire safety at a 
time when the need for flame retardants is increasing and certain flame 
retardants are being phased out due to environmental concerns.
    The AFSC is committed to support the development of national fire 
safety standards in residential furniture, bedding and bedclothes. Our 
members are spending millions of dollars each year in research to bring 
the most advanced technologies to support fire safety efforts.
    We thank the Committee for the opportunity to comment.
                                 ______
                                 
                                     WestPoint Stevens Inc.
                                        New York, NY, July 13, 2004
Hon. John McCain,
United States Senate,
Washington, DC.

Dear Senator McCain:

    On behalf of WestPoint Stevens Inc. (WPS), please let me share with 
you and the Commerce Committee some concerns we have about the current 
draft language in the American Home Fire Safety Act (the ``Act''), S. 
1798. WPS is one of the Nation's leading manufacturers of bed and bath 
home fashions products, including mattress pads, feather and fiber 
beds, bed pillows, sheets, towels and bath accessories, comforters and 
down comforters, blankets and bedding accessories. Many of these 
products are covered by the Act.
    First, let me make it clear that WPS is not opposed to flammability 
regulations for our products. We take pride in providing safe, 
fashionable bed and bath products demanded by consumers. However, the 
Act as currently worded calls for the immediate (within 90 days) 
adoption of the October 22, 2003, draft California TB 604 test method 
for filled bedclothing. This test method is still under review in 
California and state representatives have indicated that it will be 
modified because it does not consistently mirror full-scale test 
results. In our opinion it would be highly unusual to incorporate into 
a national standard a test method that is still under development.
    It is important to realize that filled bedclothing products do not 
have the same history of evaluation for flammability as other textile 
products covered by the Act. The Consumer Product Safety Commission, 
the Department of Commerce, California's Department of Consumer Affairs 
and other organizations have studied upholstered furniture and mattress 
products for many years. Test procedures for those products have been 
developed after substantial evaluation and peer review. However, filled 
bedclothing products have not received that level of study. In fact, it 
was only after California made the decision to address the flammability 
of filled bedclothing in late 2002 that public regulatory review began 
for these products. Since that time, WPS and the other major producers 
of filled bedclothing (Springs Industries, Inc. and Dan River Inc.) 
have worked (and continue to work) closely with California to develop 
an accurate and predictable test method. Many of the options open to 
furniture and mattress manufacturers (barriers, flame-retardant 
finishes, etc.) are not applicable to filled bedclothing because of the 
nature and use of these products and the intimate contact that they 
have with the users.
    Any regulation of filled bedclothing should also contain provisions 
to enforce compliance equally between domestic products and imported 
products. As currently structured, the burden of compliance will rest 
on the manufacturer. This might not be readily applied to a 
manufacturer of imported goods. It would be prudent to place some 
responsibility for compliance on others in the supply chain who provide 
products to the consumer to help ensure that they sell compliant goods. 
The California legislation contains no provision to require labeling of 
compliant bedclothing. A labeling requirement would provide purchasers 
with a basis for reliance upon manufacturers for compliance with a 
flammability standard.
    We request that our comments as stated in this letter be included 
in the public record of the July 14 Commerce Committee hearing on the 
Act. We also call attention to our support of the written testimony 
submitted by the National Textile Association on behalf of its Textile 
Bedding Committee of which we are a member.
    Thank you for the opportunity to present our views. We will be glad 
to answer any questions that you or other members of the Committee 
might have.
            Sincerely,
                                            M. L. Fontenot,
                                           Chief Executive Officer,
                                                 WestPoint Stevens Inc.
c: The Honorable Lindsey O. Graham
The Honorable Ernest F. Hollings

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
